<html>
<title> - EXAMINING THE CONTINUING NEEDS OF WORKERS AND COMMUNITIES AFFECTED BY 9/11</title>
<body><pre>[Senate Hearing 111-1154]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1154
 
 EXAMINING THE CONTINUING NEEDS OF WORKERS AND COMMUNITIES AFFECTED BY 
                                  9/11 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE CONTINUING NEEDS OF WORKERS AND COMMUNITIES AFFECTED BY 
  9/11, INCLUDING S. 1334, TO AMEND THE PUBLIC HEALTH SERVICE ACT TO 
  EXTEND AND IMPROVE PROTECTIONS AND SERVICES TO INDIVIDUALS DIRECTLY 
IMPACTED BY THE TERRORIST ATTACK IN NEW YORK CITY ON SEPTEMBER 11, 2001

                               __________

                             JUNE 29, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

77-756 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JUNE 29, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     2
Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York...........................................................     5
    Prepared statement...........................................     7
Howard, John, M.D., Director, National Institute for Occupational 
  Safety and Health, Centers for Disease Control and Prevention, 
  Department of Health and Human Services, Atlanta, GA...........     9
    Prepared statement...........................................    10
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    16
Melius, Jim, M.D., DrPh, Administrator, New York State Laborers' 
  Health and Safety Trust Fund and Chair of the Steering 
  Committee for the WTC Medical Monitoring and Steering Program, 
  Albany, NY.....................................................    18
    Prepared statement...........................................    19
Prezant, David, M.D., Chief Medical Officer, Fire Department of 
  New York City, New York, NY....................................    22
    Prepared statement...........................................    25
Fullam, Martin, Firefighter, Fire Department of New York City, 
  New York, NY...................................................    30
    Prepared statement...........................................    31
Garcia, Margrily, Patient, World Trade Center Environmental 
  Health Center, New York, NY....................................    32
    Prepared statement...........................................    34
Nadler, Jerrold, a U.S. Representative from the State of New York    43
    Prepared statement...........................................    44

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Dodd.................................................    47
    Senator Casey................................................    48
    Mayor Bloomberg..............................................    48
    Ann Warner Arlen.............................................    50
    Response by John Howard, M.D. to questions of:
        Senator Enzi.............................................    55
        Senator Dodd.............................................    57
        Senator Casey............................................    58
        Senator Franken..........................................    59
    Response by Jim Melius, M.D., DrPh to questions of:
        Senator Dodd.............................................    70
        Senator Casey............................................    70
        Senator Franken..........................................    71
    Response by David Prezant, M.D. to questions of:
        Senator Casey............................................    72
        Senator Franken..........................................    72
    Response to questions of Senator Casey by Magrily Garcia.....    72
    Letters of Support...........................................    74
        .........................................................

                                 (iii)



 EXAMINING THE CONTINUING NEEDS OF WORKERS AND COMMUNITIES AFFECTED BY 
                                  9/11

                              ----------                              


                         TUESDAY, JUNE 29, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Merkley, and Enzi.
    Also Present: Senator Gillibrand.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    I welcome everyone to this important hearing.
    Nine years ago this September--we all remember that day, 
and we all remember exactly where we were and what we were 
doing when that happened--two airplanes flew into the World 
Trade Center, burst into flames--3,000 people killed--watched 
those building come down. All of our lives were changed 
forever.
    We'll never forget the images burned into our memories of 
people running in terror, covered from head to toe in gray ash. 
But, we'll also never forget the brave heroes who were running 
in the opposite direction--the police, the firefighters, the 
doctors, the emergency responders, bravely rushing toward the 
cloud and the chaos. And we'll never forget the volunteers from 
all across America who spent weeks at the site digging and 
hand-sorting through smoldering debris, frantically looking for 
survivors first, and later for remains to give closure to the 
thousands of families who lost loved ones.
    One, a young man whom I knew as a kid, his folks--his dad 
was a minister in Iowa--was one of those lost in the Trade 
Center. And also--I'm sure I can speak for many--a lot of our 
firemen and emergency responders came from my State to go there 
to do what they could to help out.
    On 9/11, terrorists, determined to kill thousands of 
innocent people, showed us human nature at its very worst. But, 
the response to those attacks showed us not just the better 
angels of our nature, but truly astonishing examples of courage 
and selflessness and self-sacrifice.
    On 9/11, in the days, weeks, and months that followed, many 
thousands of people came to offer, as I said, their assistance 
and expertise. Since those initial days, our Nation has 
responded to the tragedy in a myriad of ways, both here and 
abroad, obviously.
    This committee is especially interested in learning about 
the long-term health effects of the World Trade Center attacks. 
As we all know, now, and some advised at that time, the 
enormous rubble pile at Ground Zero emitted a toxic brew of 
gases and fine particulate matter for months after the attack.
    In the immediate aftermath, the city and Federal Government 
tried to do its best to protect those who came to serve, 
although we know there was also misinformation that was given 
out about the safety of the dust at the World Trade Center 
site. In the years that followed, we set up programs to address 
health needs that we couldn't prevent, and I am proud that the 
Appropriations Subcommittee, that I chair here, along with 
Congressman Obey on the House side, has worked closely with the 
New York delegation to meet those needs.
    But, our work is not done. We're learning that the health 
effects of the 9/11 disaster are far more extensive and more 
wide-ranging than many people initially thought. A wide variety 
of health effects have been observed in responders and 
volunteers, local residents, and community members. These 
conditions include respiratory and gastrointestinal problems, 
as well as mental health effects. We'll hear from one such 
individual today.
    There have been many reported mental health effects, 
including depression, anxiety, and post-traumatic stress 
disorder.
    In addition to these documented short-term health effects, 
we're concerned about the potential long-term health effects, 
including the possibility of higher rates of cancer. It is 
critically important that we continue to study and address 
these health impacts, both for the sake of the workers and 
community members affected, so that we can apply the lessons 
we've learned to other disasters, whether it's the Gulf Coast 
oilspill or some crisis yet to come.
    So, today's hearing is an important step in our continued 
response to this crisis. It's about keeping faith with those 
directly impacted by the 9/11 attacks, and meeting their needs.
    I applaud Senator Gillibrand for her tireless leadership 
and advocacy in this area.
    I, again, also thank two members of the New York delegation 
who I've asked to join us up here today, Congressman Jerry 
Nadler, a long-time friend of mine, one of the senior members 
of the House and of the New York delegation, representing the 
8th District of New York; and also, Representative Carolyn 
Maloney, another long-time friend of mine and a representative 
of New York's 14th District. They obviously, along with Senator 
Gillibrand, have been involved in this for, well, since 9/11. 
And we thank you for that leadership, and welcome you to our 
committee.
    Senator Gillibrand introduced one proposal, the James 
Zadroga 9/11 Health and Compensation Act of 2009, that's 
currently before this committee.
    More generally, I commend her and our two colleagues from 
the House for their relentless efforts to address the needs of 
the heroes and the victims of that day.
    The committee looks forward to hearing from Senator 
Gillibrand today, and learning more about her bill.
    I also look forward to getting an update about the progress 
of the various programs that currently serve the needs of those 
exposed to the World Trade Center site, and how we can best 
continue to meet those needs.
    So, I thank the witnesses for coming today.
    And I will yield to Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    On September 11, 2001, terrorists killed nearly 3,000 
people in New York, Virginia, and Pennsylvania. The destruction 
of the World Trade Center created a huge toxic dust cloud. 
Emergency responders, recovery workers, and others who breathed 
in the dust, developed lower and upper respiratory conditions, 
sarcoidosis, reactive airway dysfunction syndrome, worsened 
asthma, pulmonary fibrosis, post-traumatic stress disorder, and 
other conditions. There are continuing concerns that latent 
illnesses might appear decades from now. We are here today to 
talk about the programs for these 9/11 health conditions.
    Shortly after the attack, my wife and I visited Ground 
Zero. We were deeply moved by the heroism of the emergency 
responders and the recovery workers from all over the country. 
They kept their promises, did their duty, and saw things 
through to the end. They deserve the same from us.
    In October 2006, I sent four members of my staff, along 
with staff from the offices of Senators Burr, Clinton, Coburn, 
Kennedy, Murray, Voinovich, and Schumer, to gather facts from 
the Fire Department of New York and a number of the other city 
departments, Mount Sinai Hospital, the victims, and others.
    In March 2007, Senator Clinton and I held the first Senate 
hearing on the long-term health impacts of 9/11. Drs. Herbert, 
Kelly, Melius, and Stellman explained the medical and 
scientific issues to the committee. After the hearing, a 
bipartisan Help Committee working group was formed. It was led 
by Senator Clinton's and my staff, and joined by the offices of 
Senators Burr, Brown, Coburn, Dodd, Gregg, and Kennedy. One 
goal of the working group was to try and learn more about the 
program run by the Centers from Disease Control through the 
National Institutes of Occupational Safety and Health, or 
NIOSH.
    We were especially impressed by the caregivers' expertise 
and devotion to their patients, by the patriotism of the 
construction companies and workers, and by the fire department, 
the police, and union outreach, on post-traumatic stress 
disorder and mental health. There are a lot of good people 
doing a lot of good work.
    At the same time, the working group had difficulty 
obtaining basic facts about the NIOSH program. We learned that 
NIOSH received $475 million in earmarks from the Appropriations 
Committee from 2002 through 2010, then sent those funds to 
grantees for monitoring treatment. When the bipartisan working 
group looked at a sample of about $111 million that NIOSH sent 
six grantees from 2004 to 2007, they saw that neither NIOSH nor 
the grantees could produce detailed expenditure reports to show 
how funds were spent. Several grantees could not furnish copies 
of annual financial status reports, known as FSRs, that they 
were supposed to send to NIOSH. One grantee told us they could 
not document how the earmarks were actually spent, but they'd 
be glad to go back and, ``assign costs,'' retroactively to the 
spending.
    Preparing for today's hearing, Help Committee staff again 
asked NIOSH to explain how the funds were spent. NIOSH did not 
answer, or make a good-faith effort to try to answer, the 
committee's questions.
    Senator Gillibrand and I spoke last week, and we agreed to 
ask the Governmental Accounting Office to account for those 
funds. I appreciate that these programs were set up under 
extraordinary duress, and I'm inclined to give the grantees the 
benefit of the doubt here. But, it does not build confidence in 
the program when NIOSH can't answer basic questions about how 
it spent half a billion dollars. I'll have some questions for 
Dr. Howard about this. 
9/11 victims deserve better.
    Having said that, NIOSH programs are just one piece of the 
puzzle, a second task of the working group was to inventory all 
of the 9/11 programs, plus health and compensation systems that 
were already in place, to see how all the pieces fit together.
    We learned that the Federal Emergency Management Agency, 
FEMA, used some of its 8-and-eight/tenths-billion dollars in 9/
11 funds for screening and recovery, and for mental health 
counseling and assistance to hospitals, under the Stafford Act.
    A Victims Compensation Fund, VCF, administered by Ken 
Feinberg, paid out more than $7 billion to families of those 
killed on 9/11, and about 2,000 workers with 9/11 health 
claims.
    Congress appropriated $50 million for the New York State 
Workers Compensation system to respond to claims filed by 
volunteers, that are not typically eligible for compensation. 
New York State extended its filing deadline until September 11 
of this year.
    The full extent of the Department of Health and Human 
Services programs is unknown. Through 2007, it looks like HHS 
administered between $778 million and $1.01 billion worth of 9/
11 health programs through the Centers for Medicare and 
Medicaid Services, the Health Resources and Services 
Administration, the Substance Abuse and Mental Health Services 
Administration, and the National Institutes of Health, and 
NIOSH.
    Within the NIOSH program, grantees can sometimes recoup 
payments when patients are entitled to workers compensation, 
disability, private health insurance, or public entitlements. 
Going forward, we'll also want to understand how NIOSH programs 
dovetail with coverage under the new healthcare reform law.
    And earlier this month, a judge tentatively approved a 
$712-million settlement for the 9/11 health claims. These funds 
will come from the World Trade Center Captive Insurance 
Company, an entity created by Congress specifically for this 
purpose.
    I hope this hearing will help us understand how all these 
pieces fit together, so we can make sure heroes get the help 
they need, and the community and taxpayers get the well-
administered program they deserve.
    I thank the witnesses for coming, and look forward to their 
testimony, as well as Senator Gillibrand.
    The Chairman. Thank you, Senator Enzi.
    I note there's a vote in the House, so our guests have to 
leave here.
    Well, we're joined today by an outstanding set of 
witnesses. We'll have three panels. The first panel will be 
Senator Kirsten Gillibrand, the junior Senator from New York. 
And we welcome our esteemed colleague, here, who is sponsoring 
this important bill. And I thank the Senator for her great 
leadership in this area, first as a Senator, and then 
previously as a member of the House of Representatives, for all 
that you've done to meet the health needs of the people who 
were affected by the disaster on 9/11.
    So, we thank you for being here. Your statement will be 
made a part of the record in its entirety. Please proceed as 
you so desire, Senator Gillibrand.

                    Statement of Senator Gillibrand

    Senator Gillibrand. Thank you very much, Chairman Harkin. 
I'm extremely grateful for your leadership and for convening 
this hearing.
    I want to thank Ranking Member Enzi for his hard work over 
these years, working with Secretary Clinton, and doing so much 
hard work and analysis to ensure that the men and women who 
need these funds are provided for.
    I'm very grateful that you've taken the time to bring this 
committee together to discuss the legislation to provide health 
treatment and victim compensation to the affected first 
responders and survivors of September 11.
    I want to thank our witnesses--Dr. John Howard, the 
director of the National Institute for Occupational Safety and 
Health; Dr. Jim Melius, the administrator of New York State 
Laborers' Health and Safety Trust Fund, and chair of the 
Steering Committee for the World Trade Center Medical 
Monitoring and Steering Program; Dr. David Prezant, our chief 
medical officer for the Fire Department of New York City; 
Lieutenant Marty Fullam of the Fire Department of New York 
City; and Margrily Garcia, a patient at the World Trade Center 
Environmental Health Center--for providing testimony on today's 
bill.
    We obviously can all agree that we, as a nation, have an 
undeniable moral obligation to provide treatment for 
individuals who are sick and dying because of the terror 
attacks at Ground Zero. The responders and the survivors living 
in the area were told by the Federal Government that the area 
was safe. They removed debris and recovered victims with little 
to no safety equipment to protect their lungs from the toxic 
ash that invaded Ground Zero for months. They tried to return 
to their normal lives, as best they could, because that is what 
the Nation asked them to do.
    I chose to have one picture today for my testimony. And 
this is just a sense of the kind of contamination that was in 
the air that the men and the women who were present when the 
towers collapsed--you can see the amount of film on their 
clothing, on their faces. That film was present in the air for 
months afterwards. And so, this is something that people who 
worked on the pile, day in, day out, breathed in, with very 
little protective equipment.
    And for the communities living in the area, there was 
absolutely no protective instructions provided. Community 
members were told, ``Go ahead, clean your apartments. You can 
use a mop and plain old water.'' And for them to breath in 
these toxins, day in, day out, from their furniture, from their 
carpets, was something that has been devastating to their long-
term health. In particular, there were many children in daycare 
centers, in schools, that were sent back to school very 
quickly, who didn't have the benefit of real environmental 
cleaning. And that's one of my primary concerns.
    Just this week, I spent time with those parents. I met with 
those community leaders. I met with those men and women who are 
now struggling with these diseases. And as a parent with a 
child who has asthma, I know how difficult it is for young 
children when they do have grave respiratory illnesses, such as 
asthma.
    This tragedy is obviously beyond our comprehension. And our 
failure, as a nation, to confront it should offend all of us at 
the very core, to make sure that we provide the healthcare that 
these families and first responders and survivors desperately 
need.
    My legislation will fulfill this moral obligation to these 
heroes and those who have sacrificed their lives for our 
country, and all the victims who are ill and dying, because of 
the worst terrorist attack in our history.
    Building upon the Centers for Excellence, S. 1334 
establishes formal--formal--eligibility requirements, and 
provides health benefits through a national network of 
providers.
    It also addresses some of Senator Enzi's main concerns. 
This new bill will provide a level of accountability and 
transparency in the disbursements of funds that we have not 
seen up until this time with the current program. It terminates 
the six billing systems created in the chaotic aftermath of 
September 11, and will establish a third-party administrator 
who will set the rates, track expenditures, and enforce 
eligibility requirements.
    It also creates a dedicated line of funding so the victims 
can receive the consistent and 9/11-specific care that they 
need for the illnesses that have been created.
    Additionally, it would ensure that survivors are 
compensated for their losses that they've experienced as a 
result of these health problems connected to Ground Zero, by 
reopening the Victims Compensation Fund.
    I also have, for the record, Senators, about 20 letters 
from community groups throughout our State and--that are very, 
very moving--not only from our Governor, but from children who 
have lost their parents. You know, one in particular, this is a 
letter from Jennifer McNamara, who lost her father. You can see 
the difference between this brave, very able and fit 
firefighter from 2001, and how diminished, because of his 
health conditions, he was by 2009. So, these letters are an 
important part of the record, and I do hope you'll have the 
opportunity to look through them. They're from community 
organizations, from schools, from all the advocates who are 
living this every day.
    The Chairman. We'll make those a part of the record.
    Senator Gillibrand. Thank you.

    [The letters referred to may be found in Additional 
Material.]

    Senator Gillibrand. As we debate this bill, let us all 
remember the lives of those we've lost, and the thousands of 
survivors who are living and working in the area, and the tens 
of thousands of responders that came from every single 
congressional district in our wonderful country. We must 
establish efficient programs to provide for their care and 
treatment, and fulfill this moral obligation to them all.
    The horrific damage of 9/11 did not end when the buildings 
came down. For thousands of Americans, the horror and the pain 
began weeks, months, and sometimes, years later. We must never 
forget the way these men and women have sacrificed for our 
country.
    Thank you, Mr. Chairman. Thank you, Mr. Ranking Member. I'm 
happy to answer any of your questions.
    [The prepared statement of Senator Gillibrand follows:]

                Prepared Statement of Senator Gillibrand

    Thank you very much, Chairman Harkin and Senator Enzi, for 
convening this hearing. I am incredibly grateful that you have 
taken the time to bring the committee together to discuss this 
incredibly important issue and my legislation to provide health 
treatment and victim's compensation to the affected first 
responders and survivors of September 11th.
    Thank you to our witnesses Dr. John Howard, Director, 
National Institute for Occupational Safety and Health, Centers 
for Disease Control and Prevention, Department of Health and 
Human Services, Dr. Jim Melius, Administrator of the New York 
State Laborers' Health and Safety Trust Fund and Chair of the 
Steering Committee for the WTC Medical Monitoring and Steering 
Program, Dr. David Prezant, Chief Medical Officer, Fire 
Department of New York City, Office of Medical Affairs, Lt. 
Martin Fullam, firefighter, Fire Department of New York City, 
and Margrily Garcia, a patient at the World Trade Center 
Environmental Health Center, for providing testimony today on 
this bill.
    I hope we can all agree that we as a nation have an 
undeniable moral obligation to provide treatment for 
individuals who are sick and dying because of the terror 
attacks at Ground Zero. The responders and survivors living in 
the area were told by the Federal Government that the area was 
safe. They removed debris and recovered victims with little to 
no safety equipment to protect their lungs from the toxic ash 
that invaded Ground Zero for months. They tried to return to 
their normal lives because that was what our Nation asked of 
them to do.
    Now years later tens of thousands of these Americans are 
sick and dozens perhaps hundreds are dying. Just this week, I 
spent time with parents who had children enrolled in daycare 
centers in the area. These children are now suffering from 
horrible asthmatic conditions and could experience other 
horrible health effects that we have only begun to discover.
    This is a tragedy and our failure as a nation to confront 
it is an outrage. My legislation would fulfill our moral 
obligation to the heroes who have sacrificed their lives for 
our country and all the victims who are dying from the worst 
terrorist attack in our history by creating a fully transparent 
system that establishes a long-term health program with proper 
oversight and accountability.
    My legislation would create a fully transparent system that 
establishes a long-term health program that our heroes and 
community survivors can rely on.

    <bullet> It would terminate the six billing systems created 
in the chaotic aftermath of September 11th and establish a 
third party administrator, who will set reasonable rates, track 
expenditures and enforce eligibility requirements.
    <bullet> The legislation would require an annual program 
report to Congress. And 3 years after enactment, the Government 
Accountability Office would be required to report to Congress 
on the cost of the program.
    <bullet> This bill would create the needed statutory 
infrastructure to fulfill our moral obligation with a program 
that is efficient, effective, and diligent with taxpayer funds.
    My legislation also tightens the eligibility criteria that 
an individual has to meet to be covered by this program.

        <bullet> LThere are specific times that a responder or 
        community survivor would have had to have been in Lower 
        Manhattan. Individuals would only receive assistance if 
        they are diagnosed with a condition from the list of 
        covered ailments, such as Chronic Respiratory Disorder, 
        interstitial lung disease, and Post Traumatic Stress 
        Disorder (PTSD).
        <bullet> LA physician with experience in WTC-related 
        diseases would have to make the determination that the 
        disease is related to exposure on or in the aftermath 
        of 9/11.
        <bullet> LThese eligibility guidelines ensure that all 
        who were exposed to the toxic cloud are able to receive 
        the medical treatment they require. Those eligible are 
        not just responders, but also community survivors who 
        lived, worked, or attend school in the affected area.

    I would like to submit more than a dozen letters of support 
from Members of Congress, elected officials, local community 
organizations, businesses, labor, and others from New York City 
and across the country that are asking the Senate to move 
forward on this important bill. As we debate this bill, let us 
think about the lives of these heroes--the thousands of 
survivors living and working in the area and the tens of 
thousands of responders that came from every single 
congressional district in the country to serve our Nation. 
Listen to the stories of Lt. Martin Fullam and Margrily Garcia, 
who you will hear from today.
    We must establish efficient programs to provide for their 
care and treatment, and fulfill our moral obligation to these 
heroes.
    The horrific damage of 9/11 did not end when those 
buildings came down. For thousands of Americans, the horror and 
the pain began weeks, months and sometimes years later. We must 
never forget the way these men and women have sacrificed for 
our country.
    Thank you and I look forward to answering any of your 
questions about my legislation and hearing from the expert 
witnesses today.

    The Chairman. Well, Senator Gillibrand, thank you very 
much, again, for your leadership on this issue, and for a very 
impassioned statement, and for the legislation that you've 
introduced. Like so many of us here, I know you have a lot on 
your schedule today, too, that you have to do. And so, we thank 
you for appearing here. Without further ado, we----
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you, Mr. 
Ranking Member.
    The Chairman [conitnuing]. Excuse you, and we'll get on to 
our next panels.
    Thank you very much, Senator.
    Senator Gillibrand. Thank you.
    The Chairman. Now we go to panel two. And that's Dr. John 
Howard, director of the National Institute of Occupational 
Safety and Health, and the coordinator of the World Trade 
Center programs, board-certified in internal medicine and 
occupational medicine.
    You were just here, now that I think about that. So, you 
must like it here.
    Welcome back, Dr. Howard. And again, your statement will be 
made a part of the record in its entirety. Please proceed.

 STATEMENT OF JOHN HOWARD, M.D., DIRECTOR, NATIONAL INSTITUTE 
FOR OCCUPATIONAL SAFETY AND HEALTH, CENTERS FOR DISEASE CONTROL 
   AND PREVENTION, DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                          ATLANTA, GA

    Dr. Howard. Thank you very much, Mr. Chairman, and Ranking 
Member Enzi, and other distinguished members of the committee.
    Thank you for inviting me here today. I'm pleased to say, 
at the outset, that Secretary Sebelius and President Obama are 
committed to ensuring that rescue and recovery workers, 
residents, students, and others suffering from the health 
consequences related to the World Trade Center disaster have 
access to the monitoring and treatment that they need. In fact, 
the President's 2011 budget more than doubles the funding for 
care and monitoring of the 9/11 heroes.
    First, let me tell you a little bit about the World Trade 
Center Responder Health Program, which provides monitoring and 
treatment services for responders who were involved in the 
World Trade Center disaster. This program consists of a center 
at the Fire Department of New York City, and at five medical 
centers in the New York/New Jersey area, which provide these 
services to responders. In addition, there are two data-
coordination centers, one at FDNY and one at Mount Sinai, which 
provide patient data management. As of March 31, 2010, a total 
of 48,613 responders are enrolled in the New York/New Jersey 
metropolitan area program; 15,000 at FDNY; 32,000 at the other 
five academic centers, combined.
    CDC also supports the New York City Police Foundation's 
Project Hope and the Police Organization Providing Peer 
Assistance, or POPPA, which provides psychological health 
services to World Trade Center police responders. The 
cooperative agreements for the grantees in the New York/New 
Jersey area will be extended to July 2011, next month.
    Second, through the National Responder Contract, medical 
monitoring and referral treatment services are provided to 
about 4,000 responders who came to New York City from States 
like Wyoming and Iowa and other States, and returned to their 
home, and now live outside the New York/New Jersey metropolitan 
area. CDC will announce a solicitation for a new national 
responder contract soon, and expects to award that contract in 
September.
    Third, since 2008, when Congress appropriated funds to 
provide screening and treatment for residents, students, and 
others who were affected by the World Trade Center, CDC has 
offered these services to eligible members of the community. As 
of March 31 this year, about 4,500 individuals are enrolled in 
the community program.
    Finally, CDC funds the World Trade Center Health Registry, 
operated by the New York City Department of Health and Mental 
Hygiene, which follows a cohort of about 71,000 people who 
performed 9/11-related rescue and recovery work, or who lived, 
worked, and attended school in the vicinity of Lower Manhattan 
on September 11, 2001.
    This is the largest post-disaster health registry in U.S. 
history. The registry goals are to identify the long-term 
physical and mental health effects of the 9/11 disaster, 
disseminate findings and recommendations to registrants, the 
public, and the scientific community, share information about 
9/11 resources and services, and inform health policy and 
disaster response planning.
    The registry has published several peer-reviewed scientific 
articles, among--these are two that were published in 2007--one 
finding that newly diagnosed asthma, after 9/11, occurred at a 
rate that is 12 times the norm among adults in the United 
States, and another that showed the overall prevalence of post-
traumatic stress disorder among responders enrolled in the 
registry was four times the rate of the general U.S. 
population.
    By spotting these trends among registrants, the registry 
can provide valuable guidance to alert those affected by the 
World Trade Center disaster, and healthcare providers, of the 
potential health effects that might be associated with their 
exposures, and the need for early medical intervention.
    Since 9/11, HHS and CDC has worked with our partners to 
best serve those who served their country, as well as those in 
nearby communities affected by the terrorist attacks. HHS and 
CDC will continue to provide medical monitoring and treatment 
services to responders, regardless of their location, as well 
as to residents, students, and others most directly affected by 
the World Trade Center attack.
    Thank you, Mr. Chairman, and I'm happy to answer any 
questions.
    [The prepared statement of Dr. Howard follows:]
                Prepared Statement of John Howard, M.D.
    Good afternoon, Mr. Chairman, Ranking Member Enzi, and other 
distinguished members of the committee. Thank you for inviting me to 
testify today. I am Dr. John Howard, Director of the National Institute 
for Occupational Safety and Health (NIOSH), which is part of the 
Centers for Disease Control and Prevention (CDC) within the U.S. 
Department of Health and Human Services (HHS). CDC's mission is to 
promote health and quality of life by preventing and controlling 
disease, injury and disability. NIOSH is a research institute within 
CDC that is responsible for conducting research and making 
recommendations to identify and prevent work-related illness and 
injury.
    Mr. Chairman, I would like to express my appreciation to you and to 
the members of the committee for holding this hearing and for your 
support of our efforts to assist those who are at risk or have 
experienced adverse health outcomes from their 
9/11 exposures. I am pleased to appear before you today to report on 
the progress HHS has made in addressing the health needs of those who 
served in the response effort after the World Trade Center (WTC) attack 
on 9/11, and those in the affected communities and HHS efforts to 
improve the existing program.
    In September 2009, I began my second term serving as the HHS WTC 
Programs Coordinator. Health and Human Services Secretary Kathleen 
Sebelius and CDC Director Dr. Thomas Frieden emphasized the ``critical 
need to ensure that programs addressing the health of WTC responders 
and nearby residents are well-coordinated,'' and charged me with this 
important task.
    This Administration is committed to ensuring that rescue and 
recovery workers, residents, students and others suffering the health 
consequences related to the World Trade Center attack have access to 
the monitoring and treatment they need. The President's 2011 Budget 
will more than double the funding for the medical care and monitoring 
of these 9/11 heroes.
    Significant activities have been implemented and continue to evolve 
through key partnerships with academic and clinical centers of 
excellence in occupational and environmental health.
         wtc responder health program--monitoring and treatment
    Since 2002, agencies and offices within HHS have been dedicated to 
tracking and screening WTC rescue, recovery and clean up workers and 
volunteers (responders). HHS has allocated more than $1 billion for 
recovery-related efforts since September 11, 2001.
    In 2010, Congress appropriated $70.7 million to CDC to further 
support existing HHS WTC programs and provide screening, monitoring and 
medical treatment for responders and others in affected communities. 
Since fiscal year 2002, Congress has provided approximately $475.8 
million for WTC screening, monitoring, and treatment activities, and 
grantees have spent approximately $263 million. Since these funds were 
appropriated, NIOSH has established a coordinated WTC Responder Health 
Program to provide periodic screenings, as well as diagnosis and 
treatment for WTC-related conditions (e.g., aerodigestive, 
musculoskeletal, and mental health) identified during monitoring exams. 
Current spending rates indicate that there are sufficient resources to 
provide health care treatment and monitoring for World Trade Center 
responders and non-responders through fiscal year 2010. The fiscal year 
2011 President's Budget requests $150 million for the WTC program. 
Based on current spending rates, the fiscal year 2011 Budget request is 
expected to provide sufficient funds to fully continue and manage the 
WTC program.
    The WTC Responder Health Program consists of a consortium of 
clinical centers and data coordination centers that provide patient 
tracking, standardized clinical and mental health screening, treatment, 
and patient data management.
    As of March 31, 2010, more than 52,667 responders from across the 
country and 4,583 non-responders have met the eligibility criteria and 
have enrolled in the WTC Health Programs. Most of the enrolled 
responders reside within the greater New York City-New Jersey (NY/NJ) 
Metropolitan area; however, 4,054 enrolled responders reside across the 
United States, including Federal responders who were integrated into 
the NIOSH program in fiscal year 2008. Of responders and non-
responders, 50,662 have received an initial health examination, and 
responders are offered follow-up monitoring examinations annually. Over 
the past year, 25,280 monitoring examinations were conducted, and 
15,889 enrollees received treatment for WTC-
related health conditions.
    The New York-New Jersey consortium--five clinical centers of 
excellence--(non-FDNY Responders) provided data on its program as of 
March 31, 2010. According to the data provided, these clinics have 
conducted 27,682 initial examinations and 12,071 monitoring 
examinations during the past year. During the same year, there were 
7,578 patients in treatment.
    According to data provided by the FDNY program, they have conducted 
15,307 initial exams and 9,934 monitoring exams in the past year. FDNY 
provided health care for 4,993 treatment patients.
    In conjunction with these activities, CDC/NIOSH has funded the NYC 
Police Foundation's Project COPE and the Police Organization Providing 
Peer Assistance (POPPA) to continue providing mental health services to 
the police responder population. The availability of treatment for both 
physical and mental WTC-related health conditions has encouraged more 
responders to enroll and continue participating in the WTC Responder 
Health Program, which will enable us to better understand and treat the 
long-term effects of their WTC exposures.
                            nationwide scope
    Many rescue and recovery workers traveled from other States to New 
York City to participate in the response efforts and following their 
service, have returned to their States of residency. Initially, these 
responders were offered monitoring exams through facilities that were 
subcontracted by Mount Sinai Medical Center.
    Responders referred for treatment from these monitoring exams were 
referred to the philanthropically funded Association of Occupational 
and Environmental Clinics (AOEC). AOEC was funded by the American Red 
Cross to ensure the delivery of needed treatment services for the WTC 
responders located outside the catchment area of the FDNY and NY/NJ 
Consortium. As the philanthropic funds for treatment were expended, 
monitoring and treatment services were combined into a national 
services contract that included the Federal responders. An $11 million 
contract was awarded to Logistics Health Incorporated (LHI) on May 31, 
2008 to ensure that monitoring and treatment services would continue 
without interruption. HHS is working to award a new responder contract 
in early September and will continue to work with its partners to 
ensure that the benefits of all federally funded programs are available 
to eligible responders across the Nation by ensuring that responders do 
not face an interruption of services and can easily transition between 
funded programs. As of March 31, 2010, of the 4,054 responders residing 
outside the NYC-NJ metropolitan area that have enrolled in the WTC 
Responder Health Program, 2,067 had completed monitoring exams. These 
responders, including current and former Federal employees, receive 
monitoring and treatment services via a national network of clinics.
                           community program
    From September 11, 2001 until 2008, HHS/CDC provided health care 
services solely to WTC responders. However, in the Consolidated 
Appropriations Act, 2008, Congress appropriated funding ``to provide 
screening and treatment for first response emergency services 
personnel, residents, students, and others related to the September 11, 
2001, terrorist attacks on the World Trade Center.'' As of March 2010, 
4,583 non-responders were enrolled in the program; 1,208 received 
monitoring exams and 2,629 received treatment for WTC-related health 
conditions.
                          wtc health registry
    In addition to the WTC Responder Health Program, CDC/NIOSH 
maintains the World Trade Center Health Registry (WTCHR). It is the 
largest post-disaster exposure health registry in U.S. history and 
follows a diverse cohort of 71,437 directly affected people who 
performed 9/11-related rescue/recovery work or lived, worked or 
attended school in the vicinity of Lower Manhattan on 9/11/01.
    The goals of the WTC Health Registry are to identify the long-term 
physical and mental health effects of the 9/11 WTC disaster; 
disseminate findings and recommendations to enrollees and others 
exposed, the public, and the scientific community; share information 
about 9/11-related resources and services; and inform health care 
policy and disaster response planning. Specific aims are to: (1) Expand 
knowledge about the long-term health effects of 9/11 by continuing the 
WTCHR research program; (2) Conduct community activities to respond to 
the physical and mental health concerns and specific healthcare needs 
of enrollees; and (3) Maintain the Registry as a valuable public health 
resource for future research.
    CDC and the Agency for Toxic Substances and Disease Registry 
(ATSDR) have supported the WTCHR for 6 years, and over $20 million have 
been invested to date. In addition, Registry data are used to identify 
trends in physical or mental health resulting from the exposure of 
nearby residents, school children and workers to WTC dust, smoke and 
debris. Two journal articles published findings on 9/11-
related asthma and post-traumatic stress disorder (PTSD) among rescue 
and recovery workers (Environmental Health Perspectives, 8/27/2007; and 
American Journal of Psychiatry, 2007; 164:1385-94). Newly diagnosed 
asthma after 9/11 was reported by 926 (3.6 percent) workers, a rate 
that is 12 times the norm among adults. Similarly, the overall 
prevalence of PTSD among rescue and recovery workers enrolled on the 
WTC Health Registry was 12.4 percent, a rate four times that of the 
general U.S. population. By spotting such trends among participants, 
CDC/NIOSH can provide valuable guidance to alert Registry participants 
and caregivers on the potential health effects that might be associated 
with their exposures.
    The WTC Health Registry also serves as a resource for future 
investigations, including epidemiological, population specific, and 
other research studies, concerning the health consequences of exposed 
persons. These studies will permit us to develop and disseminate 
important prevention and public policy information for use in the 
unfortunate event of future disasters. The findings can assist those 
working in disaster planning who are proposing monitoring and treatment 
programs by focusing their attention on the adverse health effects of 
airborne exposures and the short- and long-term needs of those who are 
exposed.
                               conclusion
    Since 9/11, HHS has worked diligently with our partners to best 
serve those who served their country, as well as those in nearby 
communities affected by the tragic attack. HHS will continue to provide 
medical monitoring and treatment services to responders, regardless of 
their location, as well as to residents, students and others most 
directly affected by the WTC attack. This commitment is reflected in 
the fiscal year 2011 Budget request of $150 million for the World Trade 
Center Program, which is a doubling of the fiscal year 2010 levels. 
Likewise, the WTC Health Registry continues to paint a picture of the 
overall health consequences of 9/11, including the effects experienced 
by the residents, school children and office workers located in the 
vicinity of the WTC. HHS is also working to increase program 
accountability and fiscal management in fiscal year 2011 through 
improved data collection and analysis. Thank you for this opportunity 
to update you on our progress. I am happy to answer any questions you 
may have.

    The Chairman. Dr. Howard, thank you very much.
    As administrator of the World Trade Center programs for 
many years, you've had intimate knowledge of what's been going 
on. Again, just sum up, looking back--What would you say has 
worked well? And what do we need to do now to make any 
improvements?
    Dr. Howard. Well, I think what's worked well is the 
partnership that we have with local institutions in New York/
New Jersey that are closer to the population, understand the 
population better, are best able to provide medical services.
    The national program--I think we're fortunate in the 
contractor that we have that's been able to reach out to a 
network of health providers so that we don't lose any of these 
providers that are now returned to their home States.
    I think one of the areas that--speaking on behalf of the 
grantees, stable funding is an important issue. These are 
medical institutions that have many healthcare programs; and 
obviously having some stable funding, as opposed to year-by-
year funding, is an issue--I think, that is one area that I 
think could improve.
    The Chairman. I don't want to detract from the importance 
of this hearing, in terms of applying what we need to do for 
the World Trade Center--the victims--but, I have had a number 
of emails into my office, and actual phone calls, and others, 
from people concerned about the workers in the Gulf, and 
respiratory problems, and saying that we ought to be mandating 
that people who work down there have to wear respirators. Yet, 
every time I turn on the TV, I see people down there going 
about in T-shirts with no respirators or anything like that. 
And I don't know that much about this, but I'm just wondering, 
What lessons did we learn from 9/11 that we should be applying 
to the Gulf crisis?
    Dr. Howard. Well, I think this is a very important 
question. And, indeed, from the experience in the World Trade 
Center response, I think there are three lessons that we 
learned that we are applying in the Gulf oilspill. First of all 
is, have a list of who the responders are, some basic 
demographic information, some idea of what jobs they're being 
assigned to.
    One of the issues in the World Trade Center is that we've 
had a continuing problem identifying those who were actually 
involved in the response. So, having the roster of individuals 
involved is something that we're doing now. And in the oilspill 
response to date, we've rostered over 20,000 workers. In other 
words, we know who they are, where they're working, and we can 
find them at any particular time.
    The second big issue is exposure monitoring--real-time 
exposure monitoring. So, we now have a number of organizations, 
including governmental organizations, as well as contractors--
OSHA and NIOSH being two of those governmental organizations, 
EPA being another one--and a number of contractors that are out 
looking at real-time exposure assessment--air monitoring, air 
sampling, for instance. So, we're able to create a picture of 
what the exposures are for individuals who are working now in 
the oilspill. We didn't have some of that real-time exposure.
    Then the third lesson that we learned is to be able to 
actually collect health surveillance information on the 
responders while they're working. So, we're preparing a symptom 
survey that we're going to administer to response workers who 
are currently working in the Gulf oilspill, to be able to 
understand, What symptoms are they experiencing? We know about 
folks who are seeking medical attention, who go to the medical 
clinic or are transported to an emergency room. We know what 
their issues are. But, we don't know the general worker 
response issues with regard to, Are you feeling any symptoms? 
So, those symptom surveys are going to be done during the 
response. So, those are three lessons I think that we learned 
from the World Trade Center.
    The fourth lesson has to do with, Where do you go from 
here, after the response is completed? So, having some 
information about what the exposures were, having some 
information about what the symptoms were during the response, 
we can better manage, implement, a chronic health effect survey 
and decide whether or not--What kind of study do we need to do 
on these individuals over time to look for chronic health 
effects?
    So, I think the World Trade Center--one of the positives 
from this terrible, terrible tragedy is that we've learned how 
to manage the health effects of disasters better than we did 
when we walked into the World Trade Center.
    The Chairman. Well, that's very encouraging.
    Thank you very much, Dr. Howard.
    I'll turn to Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    In your testimony, I think you mentioned that the New York 
Fire Department conducted 15,307 initial exams, and then 9,900 
monitoring exams, in the past year. That number is a little 
confusing. Could you--since there are 16,000 firefighters, 
wouldn't most of those have had some initial exams, even well 
before the Trade Center?
    Dr. Howard. Well, of course, I'll let Dr. Prezant speak 
more directly to that. But, New York City firefighters, like 
all firefighters, are subject to fitness-for-duty exams, which 
are usually annually. So, those firefighters would have had 
annual exams. In fact, one of the real positives with the 
cohort of FDNY responders is that we have, if you will, 
predisaster medical information. So, when we're able to--when 
we're looking at a health effect after 9/11 in that cohort, 
we're able to compare it better with a predisaster health 
effect.
    Senator Enzi. Thank you.
    Healthcare payers generally require providers to furnish 
detailed information about patients, their treatments, their 
costs. There's a consensus that this type of information is 
needed. It's the foundation of all the delivery system, 
quality, and payment reforms. From the documentation that I 
have from you, it looks like you require grantees to report how 
much they spent, but not how they spent it. Why is that?
    Dr. Howard. Yes, Senator, what you're seeing is exactly 
what we require in the grant mechanism. And what we're doing 
now, and have been doing for the last year and a half, is to 
obtain more granular detail about fiscal management 
categories--actually, service categories. We're asking the 
grantees now to give us more granular data about the service 
type that they're charging, to be able to get to, if you will, 
what your question gets to, which is health-claims-level data. 
This is not exactly that kind of vehicle--cooperative agreement 
isn't that kind of vehicle. But, we're moving toward that. 
We've implemented some of those requirements in the last 
extension. We're implementing many more in the current 
extension, which will start next month.
    So, we, like you, are looking at some of those financial 
status reports, where we're looking at how much funds are 
obligated, how have they been spent. And we're seeing that we 
don't have enough information to do sound fiscal management.
    Senator Enzi. It's been quite a while. One argument for 
authorizing those programs through the Help Committee was that 
we could assure accountability and transparency. That way, 
victims would know that they were getting the best care, and 
taxpayers would know that the funds were being used effectively 
to help victims. What procedures have you used to assure the 
accountability and transparency over the 475 million you've 
already received?
    Dr. Howard. Senator, I think that's another excellent 
question. And I would separate it into two phases.
    In 2002 and 2003, I would say that we were in an emergency 
provision phase, if you will. We received money from FEMA and 
we weren't exactly sure what was going on with these responders 
or community members, in terms of their health. And we quickly 
got out the money, with very little strings attached to it.
    As we then did the 5-year cooperative agreement, which 
started in 2004--some of the FSRs that we provided to you are 
based on that 5-year period of time--in those, toward the end 
of that period of time, in 2007 and 2008, we began looking at 
technical assistance visits to each of the grantees to try 
figure out, ``Let's look at the books, and figure out whether 
we can help you with fiscal management, and provide more 
assistance.'' So, that phase, we began to actively implement 
some of the issues that you've identified.
    And now, as we get to 2008, 2009, and 2010, we have placed 
that burden on the grantees, to do sounder fiscal management, 
in terms of, basically, quasi-claims-level data.
    Senator Enzi. It seems like a lot of people can fall 
between the cracks, though, between one program and another 
program.
    The Congressional Budget Office expects most 9/11 victims 
to continue to receive care from providers other than the 
Centers of Excellence or the World Trade Center Health Program. 
Do you know why patients are choosing to go to other providers?
    Dr. Howard. I assume you're talking about responders 
choosing to go to outside of the Federal-funded programs?
    Senator Enzi. Yes.
    Dr. Howard. I'm not 100 percent sure about that, Senator, 
so I would have to get back to you on that.
    Senator Enzi. OK. And another thing, since my time's 
expired, I'll have you get back to me on how that NIOSH program 
has recouped from, say, workers compensation, disability, 
private health insurance, public entitlement, and the other 
benefit delivery systems that----
    Dr. Howard. Sure. And I'd be happy to answer that. If I 
could have a minute, I'll get you the specifics on that.
    Senator Enzi. I'll just send that to you in writing.
    Dr. Howard. OK, great.
    Senator Enzi. Don't answer it now. I've got several other 
questions, too, but that will take care of it.
    Go ahead.
    The Chairman. Thank you, Senator Enzi.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair.
    And thank you for your testimony.
    First, I congratulate Senator Gillibrand for bringing this 
bill forward to try to create a solid framework into the 
future, to provide for both the healthcare needs of the 
community and the responders.
    One thing I want to have you comment on is--this is 
separate from the settlement structure--but, my understanding 
is, the settlement structure does not provide for the future 
healthcare of those who are not currently sick and those who 
have not filed a lawsuit. Could you comment on that?
    Dr. Howard. I wish I could, but I'm not an expert on the 
settlement. I've never read it. And so, I wouldn't be able to 
do that. However, I certainly would be happy to try to get that 
information to you.
    Senator Merkley. OK. Well, I'll just note that that's my 
understanding. And that's part of the reason that this bill is 
necessary.
    I was wondering if you could comment some on the difference 
between the health effects of those who were near or in the 
toxic cloud the first, say, 48 hours, and those who were 
exposed over a longer period of time, later, and whether you 
see significantly different patterns of health problems.
    Dr. Howard. Well, again, I'm going to ask Dr. Prezant, who 
is quite familiar with the cohort of FDNY responders, and has 
published a number of different studies in that area.
    You know, certainly in the overall cohort of responders, we 
see probably at least three major areas where health effects 
are persistent; first, in the psychological stress reactions 
that Senator Harkin has referred to already--we see persistent 
post-traumatic stress disorder.
    The second category would be in respiratory effects, both 
upper and lower respiratory effects. Some of them short-lived, 
some of them are intermediate, and some of them have persisted 
for many, many years. As Dr. Prezant reported, with a number of 
other researchers recently, in April, the New England Journal 
of Medicine, some of those effects have lasted 7 years since 
the disaster.
    And then, the third area is upper gastrointestinal, or 
gastrointestinal esophageal reflux disease; we see quite a bit 
of that.
    Those are the major chronic health effects we're seeing in 
the population.
    Senator Merkley. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Dr. Howard, thank you very, very much.
    Time compels us to move on to our next panel.
    Thank you very much for your leadership, and for being back 
with us again today.
    Now, we have our third panel. And this panel, I'll 
introduce in order.
    Dr. James Melius. He's the administrator of the New York 
State Laborers' Health and Safety Trust Fund and chair of the 
Steering Committee for the World Trade Center Medical 
Monitoring and Steering Program. Dr. Melius is an occupational 
health physician, an epidemiologist by training, and has years 
of experience with occupational and environmental health 
issues.
    Next is Dr. Prezant. He is the chief medical officer for 
the New York City Fire Department, and the codirector of the 
New York Fire Department's World Trade Center Medical 
Monitoring and Treatment Program. Dr. Prezant is also a 
professor of medicine and pulmonary diseases at the Albert 
Einstein College of Medicine, and the principal investigator 
for the New York City Fire Department's Data Center, which 
conducts analysis of the health effects of the World Trade 
Center attacks on firefighters.
    Then we have Lieutenant Marty Fullam. Lieutenant Fullam 
devoted nearly 30 years of his life to the New York City Fire 
Department. In the days and weeks following the September 11 
terrorist attacks, he worked with his fellow firefighters, at 
Ground Zero, to rescue survivors and restore order. In 2005, 
doctors diagnosed Lieutenant Fullam with a rare autoimmune 
disease called polymyositis and he underwent a lung transplant 
last year. Lieutenant Fullam lives on Staten Island with his 
wife Tricia and his three daughters.
    Finally, we have Margrily ``Maggie'' Garcia. Ms. Margrily 
Garcia, from the Bronx, New York City, was forced to evacuate 
her office building near the World Trade Center on September 
11. In the weeks following the attacks, she developed a 
persistent cough and eventually sought out treatment at 
Bellevue Hospital's World Trade Center Program.
    Thank you for being with us today, Ms. Garcia. And we look 
forward to also hearing your story.
    So, from left to right, we'll start with Dr. Melius.
    Again, all of your statements will be made a part of the 
record in their entirety. And I'd ask you to sum up in 5 
minutes or so, if you could; I'd appreciate it.
    Dr. Melius.

 STATEMENT OF JIM MELIUS, M.D., DrPh, ADMINISTRATOR, NEW YORK 
 STATE LABORERS' HEALTH AND SAFETY TRUST FUND AND CHAIR OF THE 
STEERING COMMITTEE FOR THE WTC MEDICAL MONITORING AND STEERING 
                      PROGRAM, ALBANY, NY

    Dr. Melius. Thank you, Chairman Harkin, Ranking Member 
Enzi, Senator Gillibrand. I greatly appreciate the opportunity 
to appear before you today at the hearing. I will summarize my 
written testimony today.
    I've been involved with the World Trade Center health 
issues since shortly after the attack occurred. As you 
indicated, I've been closely involved with all the medical 
programs that are currently in place for those workers, and 
working with NIOSH on that.
    The pulmonary disease and other health problems among 
firefighters and other rescue, recovery workers, and community 
residents are quite serious, and are affecting a large number 
of people. In fact, I believe over 20,000 people have received 
treatment through the federally funded treatment programs. 
Others have received treatment elsewhere.
    I believe that all of the Centers of Excellence, the 
clinics involved, are doing an outstanding job of providing 
high-quality medical care for the thousands of people that are 
affected by these exposures. And I believe that these programs 
have all been very effective in providing that care and keeping 
people at work, helping them to get better, as best we can, 
given the current status of our medical knowledge and care.
    We also know that these medical problems are likely to 
persist for years, and require chronic monitoring and 
treatment. The toxic exposures that were experienced by people, 
as you see in this picture, were complex. We really don't 
understand what the long-term consequences will be. We 
certainly can expect that there may be other diseases emerging 
in the future. So, it's not only critical that we provide 
medical care and treatment and monitoring, but we also track 
these people over time to see what occurs and what we can learn 
from that so that we can provide better treatment in the future 
and prevent more people from becoming ill and disabled.
    I believe that the current medical programs, and the way 
this is set up through the medical Centers of Excellence, 
provides the most effective and efficient approach to provide 
these people with expert medical care by physicians experienced 
in detecting and treating these conditions, and in a setting 
where their long-term health can be tracked. This combination 
of long-term health tracking and expert medical treatment, I 
believe, is essential to provide the best long-term medical 
care for these individuals, which I believe they all truly 
deserve.
    These medical programs also require Federal support. As I 
testified in a previous hearing--I believe the subcommittee, 3 
years ago--health insurance, and even health insurance under 
the healthcare reform that's recently been passed, and workers 
compensation programs, will not provide the comprehensive 
reimbursement that will cover these conditions and provide the 
support for this care.
    We need a comprehensive solution. I believe that the bill, 
Senate 1334, that Senator Gillibrand and others have 
introduced, provides the framework for that treatment. It 
includes a number of improvements. It institutionalizes a 
number of important improvements in the program. It addresses 
the issue that Senator Enzi raised for reimbursement through 
more of a fee-for-service system so we can better track and 
monitor treatment costs--a number of other changes that I've 
listed in my testimony.
    I also would add--the question I think Senator Merkley 
inquired--the Victims Compensation Fund is also a very 
important part of this legislation. The recent settlement that 
was passed--and I've read the settlement, and I've seen the 
press releases, discussions of it--this settlement does not 
cover medical costs. It will not provide for--there's no 
provision in it--in fact, they have stated that they will be 
dependent on the federally funded program, or some similar 
program, going forward, to provide medical care for all of 
these people that are included in the settlement; simply deals 
with economic losses, or future economic losses, for these 
people. So, despite the settlement, and those other issues with 
the settlement, we're going to continue to need this program.
    We're approaching the ninth anniversary of this event. 
We've known about the potential health consequences from these 
exposures for most of those 9 years, seen the number of people 
who've become ill, disabled, and dying from their World Trade 
Center conditions continue to increase. Many of these people 
are truly heroes for what they did. And all were initially 
reassured by the Federal Government that the air was safe to 
breath.
    We should now do our duty to these rescue and recovery 
workers and community residents whose health has been damaged 
by the World Trade Center exposures, and pass legislation that 
would provide long-term comprehensive medical and compensation 
programs for these people. I urge you to do this as soon as 
possible.
    I thank you, and I'd be glad to answer questions.
    [The prepared statement of Dr. Melius follows:]
             Prepared Statement of James Melius, M.D., DrPH
    Honorable Chairman Harkin, Ranking Member Enzi, and other members 
of the Senate Health, Education, Labor, and Pensions Committee. I 
greatly appreciate the opportunity to appear before you at this 
hearing.
    I am James Melius, an occupational health physician and 
epidemiologist, who currently works as Administrator for the New York 
State Laborers' Health and Safety Trust Fund, a labor-management 
organization focusing on health and safety issues for union 
construction laborers in New York State. During my career, I spent over 
7 years working for the National Institute for Occupational Safety and 
Health (NIOSH) where I directed groups conducting epidemiological and 
medical studies. After that, I worked for 7 years for the New York 
State Department of Health where, among other duties, I directed the 
development of a network of occupational health clinics around the 
State. I currently serve as chair of the Advisory Board on Radiation 
and Worker Health which oversees part of the Federal compensation 
program for former Department of Energy nuclear weapons production 
workers.
    I have been involved in health issues for World Trade Center 
responders since shortly after September 11. Over 3,000 of our union 
members were involved in response and clean-up activities at the site. 
One of my staff spent nearly every day at the site for the first few 
months helping to coordinate health and safety issues for our members 
who were working there. When the initial concerns were raised about 
potential health problems among responders at the site, I became 
involved in ensuring that our members participated in the various 
medical and mental health services that were being offered. For the 
past 6 years, I have served as the chair of the Steering Committee for 
the World Trade Center Medical Monitoring and Treatment Program. This 
committee includes representatives of responder groups and the involved 
medical centers (including the NYC Fire Department) who meet monthly to 
oversee the program and to ensure that the program is providing the 
necessary services to the many people in need of medical follow-up and 
treatment. I also serve as co-chair of the Labor Advisory Committee for 
the WTC Registry operated by the New York City Department of Health and 
as a member of the Community Advisory Committee for the medical program 
serving the community residents and workers affected by 9/11 exposures. 
These activities provide me with a good overview of the benefits of the 
current programs and the difficulties encountered by responders seeking 
to address their medical problems and other needs.
    I believe that Dr. Prezant will testify in more detail on the 
medical problems experienced by the fire fighters and other responders. 
The pulmonary disease and other health problems among fire fighters, 
other rescue and recovery workers, and community residents are quite 
serious and are afflicting a large number of people. All of the 
federally funded medical programs have done an outstanding job in 
providing high quality medical care for the many thousands of people 
affected by these exposures. I believe that the expert medical care 
being provided is helping many of these ill people continue to work and 
be active which would not be the case if these programs did not exist.
    These medical conditions are likely to persist for years and 
require chronic monitoring and treatment. As the recent study of NYC 
fire fighters demonstrates, the pulmonary capacity lost due to the WTC 
exposures does not appear to recover. Post traumatic stress disorder, 
another common condition in this population, is often very difficult to 
treat and requires years of treatment for some individuals. We also 
have to be vigilant for the emergence of new WTC-related conditions. 
The WTC exposures were complex and unlike any that have been studied in 
the past. It would not be unexpected for other WTC-related conditions 
to become apparent as time goes by. The collection of medical data on 
these populations allows us to track their health and identify new 
health problems due to their 9/11 exposures at an early stage when 
(hopefully) we will be able to avert more severe illness.
    Given the need for long-term medical monitoring and treatment, the 
current programs provide the most effective and efficient approach to 
provide these people with expert medical care by physicians experienced 
in detecting and treating these conditions and in a setting where their 
long-term health can be tracked. The close link between the health 
monitoring or tracking and medical treatment is essential to provide 
the best long-term health care for these individuals.
    These medical programs require Federal support. As I have testified 
at a previous hearing of this committee, health insurance (including 
Medicare) does not provide reimbursement for the treatment of work-
related injuries or illnesses. Workers' compensation systems are slow 
and are not designed to handle complicated cases where people have 
multiple health problems and whose medical needs and treatments may 
constantly change over time. Despite attempts by New York State to 
facilitate claims for people with WTC-related illnesses, these claims 
still take years to get adjudicated and often not in a satisfactory 
manner that would support the long-term health care needs of the 
claimants. Community residents often face similar problems with their 
health insurance, and many of them lack health insurance coverage at 
present or are covered by policies with high co-pays and other costs 
for them.
    A comprehensive solution is needed to address the health needs of 
the 9/11 rescue and recovery workers and community residents. We cannot 
rely on a fragmented system utilizing private philanthropy, health 
insurance, line of duty disability retirement, and workers' 
compensation to support the necessary medical monitoring and treatment 
for the thousands of people whose health may have been impacted by 
their WTC exposures. This fragmented approach will inevitably leave 
many of the ill and disabled rescue and recovery workers without needed 
medical treatment and will only worsen their health conditions. The 
delays and uncertainty about payments would discourage many of the ill 
rescue and recovery workers from seeking necessary care and discourage 
medical institutions from providing that care. We will also lose track 
of these people and the ability to monitor their long-term health.
                                s. 1334
    Senate bill 1334 the James Zadroga 9/11 Health and Compensation Act 
of 2009 provides the comprehensive framework needed for the long-term 
health monitoring and treatment for the workers and community residents 
whose health has been affected by their WTC exposures. The legislation 
builds on the current medical monitoring and treatment programs and 
adds appropriate oversight to ensure that the program is properly 
administered. These additions include:

    <bullet> Certification by NIOSH for all new people enrolling in the 
program.
    <bullet> Certification by NIOSH for the diagnosis of a WTC-related 
condition making that person eligible for treatment in the program. 
Note that this diagnosis requires two steps--the finding that the 
individual has the medical condition (on the list of WTC-related 
conditions) and then that, in his or her case, that condition is 
related to their WTC exposures.
    <bullet> Basing the medical care at Centers of Excellence to ensure 
that physicians experienced in treating WTC-related health problems are 
providing this care.
    <bullet>Reimbursement through a fee for service system that will 
help to better track and monitor treatment costs.
    <bullet> Requirements for the development and use of approved 
treatment protocols where appropriate by the medical care providers in 
the program.
    <bullet> Implementation of quality assurance programs.
    <bullet> Implementation of a Federal program to detect fraud, 
duplicate billing, and payments for inappropriate services.
    <bullet> Implementation of a method for adding new WTC-related 
health conditions after scientific review.
    <bullet> Requirements for uniform data protocols within the 
program.
    <bullet> Continuation of the national program to provide monitoring 
and treatment for individuals living outside of the New York City 
region.

    These and other provisions in S. 1334 will help to maintain the 
high quality of the program and ensure that the Federal support is 
properly administered by the participating medical centers and 
providers. It will also stabilize the funding for the institutions 
providing the care.
                       victims compensation fund
    The legislation would also reopen the victims compensation fund 
(VCF) which will provide fair compensation for economic losses for 
people whose health has been damaged by the WTC exposures. This is 
especially important for the many individuals who are disabled and 
unable to work and who are now unable to support their families. The 
VCF as administered immediately after 9/11 had a limited time period 
for application, and many people did not become ill until after they 
were no longer eligible to apply.
    Recently, another possible source of compensation was announced. 
This is the proposed settlement of the lawsuits for health damages 
filed against the city of New York and other parties involved in the 
rescue, clean-up and recovery efforts. While we do not yet know the 
full details of that settlement, it is clear that this settlement does 
not provide a comprehensive solution. The lawsuits involve 
approximately 10,000 to 11,000 individuals including at least a few 
thousand without current health problems. We know that many more people 
have been documented to be ill due to their 9/11 exposures. The Federal 
medical programs have recognized over 20,000 people in treatment for 
WTC-related health problems. Many of these would not be covered by this 
settlement. Secondly, the settlement as announced does not include 
provisions for ongoing health care. Thus, even for those people who 
accept the settlement, there would be the need for current medical 
programs.
                               conclusion
    S. 1334 and the similar House bill H.R. 847 provide a sound and 
effective approach for supporting the long-term health care needs of 
the workers and residents whose health has been damaged by their 
exposures in the aftermath of the WTC terrorist attack. Discontinuing 
or disrupting this high quality, coordinated medical treatment would 
only exacerbate the health consequences of the 9/11 disaster. Most of 
the participants in the monitoring and treatment program have medical 
conditions (asthma, mental health problems, etc.) that should be 
responsive to medication and other treatments. They need expert medical 
care by providers who are experienced in providing care for WTC 
patients. Their health status needs to be tracked to detect illness in 
those who are not yet sick and to monitor for possible new conditions 
related to WTC exposures. The Centers of Excellence fulfill both of 
these functions. Hopefully, many of these people will gradually recover 
and not become disabled due to their WTC-related medical conditions. To 
the extent, that we can prevent worsening of the medical conditions and 
prevent many of these people from becoming too disabled to work, we can 
not only help these individuals, but we can also lower the long-term 
costs of providing care and assistance to this population.
    The continued stable funding provided by this legislation will 
ensure that these excellent medical programs will continue to provide 
this badly needed care. Too often in the past, we have neglected to 
properly monitor the health of groups exposed in extraordinary 
situations only to later spend millions of dollars trying to determine 
the extent to which their health has been impacted. Agent Orange 
exposure in Vietnam and the current compensation program for nuclear 
weapons workers (EEOICPA) are only two examples of this problem. We 
should learn the lessons from these past mistakes and make sure that we 
provide comprehensive medical monitoring for those potentially impacted 
by the WTC disaster.
    We are approaching the ninth anniversary of this terrible event. We 
have known about the potential health consequences from these exposures 
for most of those 9 years and have seen the number of people who have 
become ill, disabled, and dying from their WTC conditions continue to 
increase. Many of these people are truly heroes for what they did, and 
all were initially reassured by the Federal Government that the air was 
``safe'' to breath. We should now do our duty to these rescue and 
recovery workers and community residents whose health has been damaged 
by their WTC exposures and pass legislation that provides long-term 
comprehensive medical and compensation programs for these people. I 
urge you to do this as soon as possible.
    Thank you. I would be glad to answer any questions.

    The Chairman. Thank you very much, Dr. Melius.
    Now, we'll turn to Dr. Prezant.
    Dr. Prezant, welcome.

 STATEMENT OF DAVID PREZANT, M.D., CHIEF MEDICAL OFFICER, FIRE 
           DEPARTMENT OF NEW YORK CITY, NEW YORK, NY

    Dr. Prezant. Thank you. Good afternoon Chairman Harkin, 
Ranking Member Enzi, members of the committee, and Senator 
Gillibrand.
    My name is David Prezant, and I'm the chief medical officer 
for the New York City fire department.
    The FDNY World Trade Center Medical Monitoring Treatment 
and Data Analysis Programs are operated under a cooperative 
agreement with NIOSH. And the Senate and the House have 
generously provided funding so that FDNY could do this needed 
monitoring and treatment, and analyze our results, develop 
treatment protocols, and share this information with other 
healthcare providers throughout this Nation, so that our 
experience could be used to help their patients, as well as 
ours.
    Our patients have chronic World Trade Center-related 
medical conditions that require long-term healthcare 
commitments impossible to achieve when the funding is provided 
year to year, and will run out on or about June 30, 2011.
    Currently, our annual budget for monitoring, treatment, and 
analysis is nearly $35 million. Without continued funding, we 
will have to stop clinical services on or around late spring or 
early summer of 2011. This has been a constant battle for us, 
the end of each fiscal year.
    Clearly, we need a long-term solution, and we hope to 
receive a commitment from the Senate, the House, and the 
President that matches the commitment FDNY firefighters and EMS 
workers and many others made on 9/11, the day our Nation was 
attacked, 2,751 innocent victims were killed, the day 343 FDNY 
first responders made the ultimate sacrifice. That day began a 
10-month-long rescue/recovery effort during which nearly every 
FDNY member was exposed to World Trade Center dust and 
chemicals, risking their life and health.
    Every FDNY firefighter and EMS rescue worker in our program 
suffered intense exposure, with health effects that could be 
objectively quantified because our program had the foresight to 
collect pre-9/11 health data, including breathing tests, on 
each and every one of them. Nearly 16,000 FDNY rescue workers 
took part on the rescue and recovery efforts--roughly 11,500 
firefighter and fire officers; nearly 3,000 EMTs and 
paramedics; and nearly 1,000 FDNY pre-9/11 retirees that came 
in to help us.
    Arrival time at the World Trade Center site, the initial 
day of arrival, has been the best predictor of health outcomes 
in both our cohort and the other cohorts. Nearly 2,000 of the 
16,000 workforce, 15 percent, arrived during the morning of 9/
11, during the collapse or immediately thereafter; 54 percent 
arrived during the remainder of that day; 14 percent on day 2; 
15 percent during the days 3 through 14; and the rest 
thereafter. Most spent an average of 4 months working at Ground 
Zero.
    Everyone received a pre-9/11 health exam. But, as of March 
31, 2010, 15,307 of the 16,000 have received a first post-9/11 
FDNY monitoring exam for an amazing 96-percent compliance 
rate--unheard of in any medical monitoring program. You asked, 
Why not 100 percent? Well, 343 could not receive a post-9/11 
exam, because they were killed that day in the attack on our 
Nation.
    Annually, we provide over 10,000 monitoring exams. And 
overall, since October 1, 2001, we have provided over 73,000 
monitoring exams. Retention rates have been excellent, and 
define this program as the most successful labor management 
healthcare initiative in our history.
    Ninety-four percent have received a second World Trade 
Center monitoring exam. Eighty-six percent have received a 
third exam. We just started a fourth exam, and already 74 
percent have received that exam. And each year, these rates 
improve. And we are already starting, shortly, a fifth and 
sixth exam.
    Disease surveillance is a critical part of this program. We 
don't just do monitoring. We look at the data, and we try to 
provide the best healthcare possible, based on what is--our 
findings show.
    In the first year post-9/11, the average annual decline in 
pulmonary function for symptomatic and asymptomatic exposed 
FDNY rescue workers was 372 milliliters. That is 12 times 
greater than the annual decline in pulmonary function that we 
saw in each of the years before 9/11. Normally, our workers 
drop about 27 milliliters per year.
    And in those who were most affected--most symptomatic, the 
decrease in pulmonary function was 600 milliliters, or 10 
percent. Why was this decrease occurring? Because of asthma, 
reactive airways disease, chronic bronchitis. We've documented, 
in the New England Journal of Medicine, just recently, in April 
2010, that over the next 6 years, pulmonary function did not 
return to normal. This drop was persistent and has not 
improved, despite time and treatment.
    More than 30 percent of the members who participated in 
World Trade Center medical monitoring exams have upper and 
lower respiratory disease. We've shown an increase in other 
diseases, not just asthma, but sarcoidosis, which affects an 
increasing number of our workers; pulmonary fibrosis, luckily 
only in a few of our workers. And we are closely monitoring for 
other diseases, such as cancer.
    Seventy-six percent of our workers have reported 
psychological problems--12 percent with PTSD, post-traumatic 
stress disorder; 20 percent with chronic depression.
    Overall, we have treated nearly 9,000 members for chronic 
respiratory or mental health issues. And nearly all of our 
patients have benefited from this treatment. But, despite this 
treatment, 1,300 FDNY rescue workers have had to file for 
respiratory disability--objective disability benefits, not 
based on symptoms, but based on clear declines in pulmonary 
function.
    These healthcare findings, they really don't speak to the 
heart of the matter, to what our patients are suffering on a 
daily basis. And if I could just have 1 more minute, I'd go 
over that with you briefly.
    On 9/11, when the Twin Towers were burning, FDNY 
firefighters ran into those buildings. By the time the second 
plane hit, most realized that this was not going to be just a 
fire; this was an attack. And yet, they continued to run in. I 
have a patient who told a younger firefighter, ``You go left, 
I'll go right.'' That younger firefighter died. And that older 
firefighter, because of that decision, feels he was responsible 
for that firefighter's death. He woke up every night screaming 
for the first 6 months. And now he wakes up screaming less, but 
still so often that his wife sleeps in a separate room. That's 
not the way things should be.
    We have firefighters who have suffered severe trauma. One 
firefighter was rescued by a unit that went in specifically 
because they heard his distress on a radio signal. They found 
him lying in a pit. His skull was hanging off of his head. They 
put the top of his skull back on his head like a helmet, they 
picked him up and carried him out of there. He was the sickest 
firefighter during the first weeks after 9/11; intubated, dying 
several times, being brought back to life. Because of our 
treatment program, he is alive today. He still has symptoms, he 
still has some problems with asthma and PTSD and vertigo from 
his head trauma, but he is alive today. And he's watched his 
two children grow. And that's because of our treatment program.
    Then, we have firefighters--a few, thankfully--who have 
suffered pulmonary fibrosis and the only treatment for 
pulmonary fibrosis is lung transplantation. Without new lungs, 
they would be dead. We're lucky today that two of those 
firefighters have survived. One of them is here today, 
Lieutenant Martin Fullam, who will share with you his story in 
just a moment.
    In summary, this program needs to continue for all the 
patients I've talked about today, for every FDNY rescue worker, 
for all the others exposed to the World Trade Center. This 
legislation will provide, hopefully, long-term funding so that 
they can receive health benefits.
    Most importantly, I'm proud to say that this legislation 
will allow FDNY, New York City, and all of America to fulfill 
the commitment we made to each of those heroes on 9/11, to help 
those lucky enough to survive, and to help those who helped us 
survive.
    Thank you.
    [The prepared statement of Dr. Prezant follows:]
               Prepared Statement of David Prezant, M.D.
    Good morning Chairman Harkin, Ranking Member Enzi and members of 
the committee. My name is Dr. David Prezant, and I am the chief medical 
officer, Office of Medical Affairs, for the New York City Fire 
Department (FDNY). I am also a Professor of Medicine in Pulmonary 
Diseases at the Albert Einstein College of Medicine. Along with Dr. 
Kerry Kelly, who could not be here today, I am the co-director of the 
FDNY World Trade Center (WTC) Medical Monitoring and Treatment Program. 
I am delighted to be here today to support this legislation, which will 
provide needed long-term funding for the monitoring and treatment of 
WTC-exposed responders and specifically for FDNY first responders. Many 
of these responders, unfortunately, have become patients with critical 
health needs related to physical, respiratory and mental health 
illness.
    I would first like to thank this committee and the members of the 
Senate and the House of Representatives who have shown their 
extraordinary support for our patients and our program, especially 
those from the New York delegation--Senators Gillibrand and Schumer and 
our New York members of the House of Representatives.
    The FDNY WTC Medical Monitoring, Treatment and Data Analysis 
Programs are operated under a cooperative agreement with the National 
Institute of Occupational Safety and Health (NIOSH). This funding that 
the Senate and House have generously provided has helped the FDNY to 
provide needed monitoring and treatment, an ability to analyze our 
results, develop treatment protocols and share this information with 
other healthcare providers so that our experience could be used to help 
other patients with similar WTC-related problems. These patients have 
chronic WTC-related medical conditions that require long-term 
healthcare commitments--impossible to achieve when the funding is 
provided year to year and will run out on or before June 30, 2011. 
Currently our annual budget for monitoring, treatment (physical and 
mental health) and our data center is nearly $35 million. Without 
continued funding, we will have to stop clinical services in late 
spring to early summer of 2011. Clearly, we need a long-term solution--
a commitment from the Senate, the House and the President that matches 
the commitment FDNY firefighters and EMS workers made on 9/11, the day 
our Nation was attacked and 2,751 innocent victims were killed--the day 
343 FDNY first responders made the ultimate sacrifice. That day began a 
10-month long rescue/recovery effort during which nearly every FDNY 
member was exposed to WTC dust and chemicals, risking their life and 
health.
    I am often asked, how many have been exposed, how many are in the 
monitoring and treatment program and will there be funding left to 
allow this program to continue? The FDNY-WTC Center of Excellence, its 
clinical and data center components, is uniquely capable of providing 
this information because, as a group, our exposure was the most intense 
and our group is the only one with pre-9/11 baseline health data. So, 
the effects of WTC exposure on the health of our members can be 
objectively measured. The following data will help to answer these 
questions and allow you to better understand the FDNY's WTC-related 
healthcare needs.

    <bullet> Nearly 16,000 FDNY rescue workers took part in the WTC 
rescue, recovery and fire suppression efforts--roughly 11,500 
firefighters and fire officers, 3,000 EMTs and paramedics and 1,000 
FDNY retirees. So far, arrival time at the WTC site has been the best 
predictor of health outcomes. Nearly 2,000 members--or 15 percent of 
our workforce--arrived in the morning on 9/11, 54 percent arrived 
during the remainder of that day, 14 percent on day two, 15 percent 
during days 3 through 14, and the rest thereafter. Duration, total time 
spent at the site, has also been an important predictor of health 
outcomes, but not as important in our group, probably because of their 
extensive exposures during the first week.
    <bullet> As of March 31, 2010, 15,307 FDNY WTC-exposed rescue/
recovery workers (active and retired fire and EMS personnel) have 
received at least one FDNY WTC monitoring exam for a 96 percent 
compliance rate.
    <bullet> Retention rates in our program remain extremely high. In 
the past 12 months (6/1/09 to 5/30/10), we provided 9,922 monitoring 
exams to active and retired WTC-exposed FDNY firefighters, EMS 
personnel and officers. By the end of the year, we will again achieve 
over 10,000 monitoring exams and overall since 10/1/01, FDNY has 
provided over 73,000 WTC monitoring medical exams. As of 5/31/10, 
retention rates have been excellent:

        <bullet>  94 percent have received a second WTC monitoring 
        exam.
        <bullet>  86 percent have received a third exam.
        <bullet>  74 percent have received a fourth exam.
        <bullet>  Each year the above rates improve and already many 
        have received fifth and sixth exams.

    <bullet> Disease surveillance is a critical part of our program. In 
the first year post-
9/11, the average annual decline in pulmonary function, for symptomatic 
and asymptomatic FDNY-WTC responders, was 372 ml, or 12 times greater 
than the average annual decline noted 5 years before 9/11. And in those 
most affected, the decrease in pulmonary function was over 600 ml or 10 
percent of their lung capacity. Further testing has indicated that the 
predominant problem is obstructive airways diseases such as airway 
hyperactivity, asthma, Reactive Airway Dysfunction Syndrome (RADS) and 
chronic bronchitis. In April 2010, we reported in the New England 
Journal of Medicine (see appendix and attachment) that over the first 7 
years post-9/11 (9/11/01 to 9/10/08), for the majority of our members, 
the drop in pulmonary function identified in year 1 has persisted with 
no significant improvement. Time and treatment has only prevented 
further decreases. More than 30 percent of the members who participated 
in follow-up WTC medical monitoring exams continue to report upper and/
or lower respiratory symptoms.
    <bullet> Sarcoidosis is an auto-immune disease that can affect any 
organ but primarily affects the lungs. In the first year after 9/11, 
FDNY identified 13 Sarcoidosis cases, as compared to an annual rate of 
only two to three cases per year in the 15 years before 9/11. While the 
numbers have leveled off--we now see about four cases a year--these 
Sarcoidosis cases continue to have more serious clinical presentation 
than we saw prior to 9/11. Before 9/11, they were nearly always 
asymptomatic. Now the majority of the Sarcoidosis cases we see have 
objective evidence of airway obstruction and a few have disabling 
systemic inflammation involving joints, bones, muscles and other 
organs.
    <bullet> Unrelated to Sarcoidosis, we have also seen several cases 
of pulmonary fibrosis, one of which has been fatal, and two of our 
patients have received lung transplants--both are doing well. As this 
is nearly always a fatal disease, with lung transplantation the only 
available option, we are fortunate that very few have come down with 
fibrotic lung disease. However, in the 15 years prior to 9/11/01, FDNY 
saw no such cases.
    <bullet> In a mental health study, 76 percent of our FDNY-WTC 
firefighters reported at least one psychological symptom post-WTC. The 
most frequent symptoms reported are insomnia, irritability and anxiety, 
and 12 percent met criteria for Post Traumatic Stress Disorder (PTSD). 
PTSD rates remain elevated and we are now seeing more cases of chronic 
depression.
    <bullet> Since 9/11, the FDNY WTC Medical Monitoring Program has 
provided treatment for WTC-related physical health (majority being 
asthma, rhinosinusitis, GERD) and mental health (majority being PTSD, 
depression, prolonged grief and anxiety) conditions to over 9,000 
members. In the past 12 months (6/1/09 to 5/30/10), our program 
provided WTC-related physical health and mental health treatment to 
4,241 and 1,770 members, respectively. This year, we are on track to 
equal those numbers.
    <bullet> Nearly all of the patients in our treatment program report 
improvement in symptoms. Many have been able to return to work but 
others have had to retire with documented disability based on serious 
reductions in lung function. Between 2002 and 2010, over 1,300 FDNY 
firefighters have qualified for disability benefits, primarily due to 
lung disease but with some due to other WTC-related conditions (mental 
health, chronic rhinosinusitis, etc.). Annually, we have been averaging 
150 cases per year, as compared to 49 cases in the 3 years before 9/11.
    <bullet> In addition to publishing nearly 40 peer-reviewed medical 
articles on WTC medical conditions (see appendix), the FDNY distributed 
a summary data publication to every FDNY-WTC member, a copy is 
available online (see appendix) and also coauthored with the NYC 
Department of Health and the other Centers of Excellence clinical 
guidelines for the treatment of respiratory and mental health 
conditions related to World Trade Center Exposure that is also 
available online (see appendix).

    These numbers only begin to express the real healthcare needs of 
our exposed members and patients. They provide the basis for 
understanding the extent of this disaster and our future funding needs, 
but they do not speak to the heart of the matter--to the special 
commitment that was made on 9/11 between those in need of help and 
those who could provide the help.
    On 9/11, when the Twin Towers were burning, FDNY firefighters ran 
into those buildings. By the time the second plane hit, most realized 
that this was not just a fire, but a terrorist attack; our members were 
the first to enter this urban war zone. In a tower that morning, one 
senior firefighter told a young firefighter to search the right hallway 
while he searched the left. At the time he could not have realized that 
he would come home and the younger man would not. But, because he is my 
patient, I can tell you that there are still nights when he wakes up 
screaming in a cold sweat reliving that decision. Thankfully, this 
happens less often than before we started treatment, but still too 
often to claim a medical victory.
    One fire officer was buried in the first collapse and was rescued 
by a group of firefighters who, without a second thought, ran in to 
pull him out. Many of the members of that unit are my patients today. 
They have asthma and sinusitis that prevents them from being 
firefighters or from living anything that resembles the life they once 
took for granted. But, like every patient I have, they all shared a 
common commitment that remains unshaken, no matter how ill they are or 
might become. They would not have done anything different that day. In 
fact, they would all do it again and only wish they could have done 
more. They were the lucky ones because that morning their efforts were 
rewarded. They found that fire officer with the top part of his skull 
hanging off to the side and barely breathing. One of those firefighters 
told me that ``we had no choice but to push it back on as if it was his 
helmet, pick his heavy ass up and run for our lives.'' He got to the 
hospital alive, but was suffering severe head trauma, and airway and 
lung injuries. The next few days were tough ones for him and his 
family. He was saved many times over. I spoke to his wife and tried to 
explain to her how critical his condition was and what decisions she 
needed to make. She looked up at me and said I can't think straight, I 
am counting on you and the others here to make those decisions. 
Thankfully, he eventually recovered. He continues to have a daily 
cough, vertigo, headaches and a host of other problems. But, the 
treatment that this program provides him has gotten him back on his 
feet and he remains hopeful that the monitoring and treatment that we 
have promised him will continue. He also remains angry that each year 
he is told that Federal funding may not be renewed and if so our 
program and the other WTC programs will have to severely curtail their 
programs, eventually even close their programs and that his medical 
needs may be ignored. All he wants is to remain well enough to see his 
children and grandchildren grow and prosper in a safer world because of 
the sacrifice he and others made that morning on 9/11.
    Others were not so lucky. They could not be rescued. But, it was 
not for lack of effort or commitment. Nearly every FDNY member suffered 
significant and repeated exposures and they were not alone in these 
efforts. Members of the Police and Sanitation Departments, and 
construction and communication workers, and others helped in every way 
possible. A perfect example are the two firefighters who required lung 
transplants after working at Ground Zero, trying in whatever way they 
could to find someone. Without new lungs, they would in all likelihood 
have had less than a year to live. I have seen both of these men 
struggle with their illness over the years since 9/11, learning how to 
breathe with limited reserve and on constant oxygen. Despite knowing 
that death was around the corner, they remained outwardly unemotional 
and completely stoic about their fate. That is until the day each was 
notified that donors had been found. Joy, fear, tears mixed with a 
grateful understanding that none of this would have been possible 
without the FDNY WTC Treatment Program. Both are now doing well with 
substantial improvements in their quality of life--in fact, one no 
longer requires supplemental oxygen.
    This program needs to continue for all of the patients I have 
talked about today, for every FDNY WTC rescue/recovery worker and for 
all the others who were exposed at the World Trade Center site. This 
legislation will provide long-term funding so that the FDNY and the 
other Centers of Excellence can continue monitoring and treatment 
programs for our exposed workforce (both active and retired 
firefighters and EMS workers), and use lessons learned to inform lesser 
exposed groups (and their healthcare providers) of the illnesses seen 
and the treatments that are most effective. Most importantly, I am 
proud to say that this legislation will allow the FDNY, New York City 
and all of America to fulfill the commitment we made to each of these 
heroes on 9/11--to help those lucky enough to survive and to help those 
who helped us survive.
    Thank you for your past efforts, and your continued support of our 
members, patients and Department and I urge you to support S. 1334.
                    Appendix--FDNY WTC Publications
    1. Prezant DJ, Weiden M, Banauch GI, McGuinness G, Rom WN, Aldrich 
TK and Kelly KJ. Cough and bronchial responsiveness in firefighters at 
the World Trade Center site. N Eng J Med 2002;347:806-15.
    2. Banauch GI, McLaughlin M, Hirschhorn R, Corrigan M, Kelly KJ, 
Prezant DJ. Injuries and illnesses among New York City Fire Department 
rescue workers after responding to the World Trade Center Attacks. MMWR 
2002;51:1-5.
    3. Prezant DJ, Kelly KJ, Jackson B, Peterson D, Feldman D, Baron S, 
Mueller CA, Bernard B, Lushniak B, Smith L, BerryAnn R, Hoffman B. Use 
of respiratory protection among responders at the World Trade Center 
Site--New York City, September 2001. MMWR 2002;51:6-8.
    4. Rom WN, Weiden M, Garcia R, Ting AY, Vathesatogkit P, Tse DB, 
McGuinness G, Roggli V, Prezant DJ. Acute eosinophilic pneumonia in a 
New York City firefighter exposed to world trade center dust. Am. J. 
Resp. Crit. Care Med. 2002;166:797-800.
    5. Banauch GI, Alleyne D, Sanchez R, Olender K, Weiden M, Kelly KJ, 
and Prezant DJ. Persistent bronchial hyperreactivity in New York City 
firefighters and rescue workers following collapse of World Trade 
Center. Am. J. Resp. Crit. Care Med. 2003; 168:54-62.
    6. Edelman P, Osterloh J, Pirkle J, Grainger J, Jones R, Blount B, 
Calafat A, Turner W, Caudill S, Feldman DM, Baron S, Bernard BP, 
Lushniak BD, Kelly KJ, Prezant DJ. Biomonitoring of chemical exposure 
among New York City firefighters responding to the World Trade Center 
fire and collapse. Environ Health Perspect, 2003; 111:1906-11.
    7. Feldman DM, Baron S, Mueller CA, Bernard BP, Lushniak BD, Kelly 
KJ, Prezant DJ. Initial symptoms, respiratory function and respirator 
use in New York City firefighters responding to the World Trade Center 
(WTC) disaster. Chest 2004;125:1256-64.
    8. Fireman E, Lerman Y, Ganor E, Greif J, Fireman-Shoresh, S, 
Oppenheim E, Flash R, Miller A, Banauch GI, Weiden M, Kelly KJ, Prezant 
DJ. Induced sputum assessment in NYC firefighters exposed to World 
Trade Center dust. Environ Health Perspect, 2004; 112:1564-69.
    9. Banauch GI, Dhala A, Alleyne D, Alva R, Santhyadka G, Krasko A, 
Weiden M, Kelly KJ, Prezant DJ. Bronchial hyperreactivity and other 
inhalation lung injuries in rescue/recovery workers after the World 
Trade Center collapse. Crit Care Med. 2005;33:S102-S106.
    10. Banauch GI, Dhala A, Prezant DJ. Airway dysfunction in rescue 
workers at the World Trade Center site. Curr Opin Pulm Med 2005; 
11:160-8.
    11. Bars MP, Banauch GI, Appel DW, Andreaci M, Mouren P, Kelly KJ, 
Prezant DJ. ``Tobacco Free with FDNY''--The New York City Fire 
Department World Trade Center Tobacco Cessation Study. Chest 2006; 
129:979-987.
    12. Banauch GI, Hall C, Weiden M, Cohen HW, Aldrich TK, 
Christodoulou V, Arcentales N, Kelly KJ, and Prezant DJ. Pulmonary 
function loss after World Trade Center exposure in the New York City 
Fire Department. Am. J. Respir. Crit. Care Med. 2006; 174:312-19.
    13. Friedman S, Cone J, Eros-Sarnyai M, Prezant D, Szeinuk J, Clark 
N, Milek D, Levin S, Gillio R. Clinical guidelines for adults exposed 
to World Trade Center Disaster (Respiratory and Mental Health). City 
Health Information, NYC Department of Health and Mental Hygiene. 
September 2006. http://www.nyc.gov/html/doh/downloads/pdf/ehi/chi25-
7.pdf; updated in June 2008 available http://www.nyc.gov/html/doh/
downloads/pdf/chi/chi27-6.pdf.
    14. Lioy PJ, Pellizzari E, and Prezant DJ. Understanding and 
learning from the WTC Aftermath and its affect on health through Human 
Exposure Science. Environ. Science Technology. November 15, 2006; 6876-
85.
    15. Izbicki G, Chavko R, Banauch GI, Weiden M, Berger K, Kelly KJ, 
Hall C, Aldrich TK and Prezant DJ. World Trade Center Sarcoid-like 
Granulomatous Pulmonary Disease in New York City Fire Department Rescue 
Workers. Chest, 2007;131:1414-23.
    16. Weiden M, Banauch G, Kelly KJ, and Prezant DJ. Firefighters 
Health and Health Effects of the World Trade Center Collapse. In: 
Environmental and Occupational Medicine. Pg 477-90. 4th Ed. Edited by 
Rom WN and Markowitz S. Lippincott-Raven Inc. Philadelphia, 2007.
    17. Kelly KJ, Niles J, McLaughlin MT, Carrol S, Corrigan M, Al-
Othman F, and Prezant DJ. World Trade Center health Impacts on FDNY 
Rescue Workers--a 6-year assessment, September 2001 to 2007. Fire 
Department of the city of New York, October 2007. http://www.nyc.gov/
html/om/pdf/2007/wtc_health_impacts_on_
fdny_rescue_workers sept_2007.pdf.
    18. Banauch GI, Izbicki G, Chavko R, Christodoulou V, Weiden MD, 
Webber MP, Cohen HW, Gustave J, Aldrich TK, Kelly KJ, and Prezant DJ. 
Trial of Prophylactic Inhaled Steroids to Prevent or Reduce Pulmonary 
Function Decline, Pulmonary Symptoms and Airway Hyperreactivity in 
Firefighters at the World Trade Center Site. Disaster Medicine and 
Public Health Preparedness. 2008; 2:33-9.
    19. Prezant DJ. World Trade Center Cough Syndrome and its 
Treatment. Lung. 2008; 186:94S-102S.
    20. Prezant DJ, Levin S, Kelly KJ, Aldrich TK. Upper and Lower 
Respiratory Diseases after Occupational & Environmental Disasters. Mt. 
Sinai Medical Journal. 2008; 75:89-100.
    21. Prezant DJ, Levin S, Kelly KJ, Aldrich TK. 9/11 World Trade 
Center Related Pulmonary and Airway Complications In: Interstitial 
Pulmonary and Bronchiolar Disorders, Edited by Lynch J. Lung Biology in 
Health and Disease Vol 227 Ex Editor Lenfant C. Informa Healthcare USA 
Inc., New York, 2008.
    22. Corrigan M, McWilliams R, Kelly KJ, Niles J, Cammarata C, Jones 
K, Glass L, Wartenberg D, Halliman W, Kipien H, Schorr J, Feirstein I, 
and Prezant DJ. A computerized self-administered questionnaire to 
evaluate post-traumatic stress in firefighters after the World Trade 
Center collapse. Am. J. Public Health. 2009; 99 Suppl 3:S702-9.
    23. Webber M, Jackson G, Lee R, Zieg-Owens R, Niles J, Kelly K, and 
Prezant DJ. Trends in Respiratory Symptoms of Firefighters Exposed to 
the World Trade Center Disaster: 2001-2005. Environ. Health 
Perspectives 2009; 117:975 09980. Epub 2009 Feb 11.
    24. Chiu S, Webber MP, Zeig-Owens R, Gustave J, Lee R, Kelly KJ, 
Rizzotto L, Prezant DJ. Validation of the Center for Epidemiologic 
Studies Depression Scale in Screening for Major Depressive Disorder 
Among Retired Firefighters Exposed to the World Trade Center Disaster. 
J Affective Disorders. 2010;121:212-19. Epub 2009 June 18.
    25. Weiden MD, Ferrier N, Nolan A, Rom WN, Comfort A, Gustave J, 
Zheng S, Goldring RM, Berger KI, Cosenza K, Lee R, Zeig-Owens R, Webber 
MP, Kelly KJ, Aldrich TK, Prezant DJ. Obstructive Airways Disease with 
Air-trapping among Firefighters Exposed to World Trade Center Dust. 
CHEST 2010;137:566-74. Epub 2009 Oct 9.
    26. Aldrich TK, Gustave J, Hall CB, Cohen HW, Webber MP, Zeig-Owens 
R, Cosenza K, Glass L, Christodoulou V, Al-Othman F, Weiden MD, Kelly 
KJ, Prezant DJ. Long-Term Follow Up of Lung Function In FDNY 
Firefighters and EMS Workers Exposed To World Trade Center Dust. New 
England J Medicine. 2010;362:
1263-72.
    27. Rom WN, Reibman J, Rogers L, Weiden MD, Oppenheimer B, Berger 
K, Goldring R, Harrison D, Prezant D. Proc. Am Thorac Soc. 2010;7:142-
45.
    28. Chiu S, Webber MP, Zeig-Owens R, Niles J, Gustave J, Lee R, 
Kelly KJ, Rizzotto L, McWilliams R, Schorr JK, North C, Prezant DJ. 
Performance Characteristics of the Posttraumatic Stress Disorder 
Checklist in Retired Firefighters Exposed to the World Trade Center 
Disaster. Annals of Clinical Psychiatry (In Press).
    29. Benninger A, Webber MP, Gustave J, Lee R, Cohen 1 091W, Kelly 
KJ, Prezant DJ. Trends In Elevated PTSD Risk In Firefighters Exposed To 
The World Trade Center Disaster: 2001-5. Public Health Reports (In 
Press).
    30. Webber MP, Lee R, Soon J, Kelly KJ, Prezant DJ. Risk of 
Obstructive Sleep Apnea In World Trade Center Exposed Fire Department 
Rescue/Recovery Workers. Journal of Sleep and Breathing (In Press).
    31. Banauch GI, Brantly M, Izbicki G, Hall C, Shanske A, Chavko R, 
Santhyadka G, Christodoulou V, Weiden MD, Prezant DJ. Accelerated 
Spirometric Decline in Alpha 1 Antitrypsin Deficient NYC Firefighters 
after World Trade Center Exposure. CHEST (In Press).
    32. Benninger A, Webber MP, Gustave J, Lee R, Cohen HW, Kelly KJ, 
Prezant DJ. Longitudinal Study Of Elevated PTSD Risk In Firefighters 
Exposed To The World Trade Center Disaster: Onset And Course Over Time. 
Am. J Industrial Med (Submitted 10/2009).
    33. Berninger A, Webber MP, Gustave J, Lee R, Cohen HW, Kelly KJ, 
Prezant DJ. Quality of Life in Relation to Upper and Lower Respiratory 
Symptoms and Treatment among Retired 9/11 Firefighters. Quality of Life 
Journal (Submitted 10/2009).
    34. Chiu S, Webber MP, Niles J, Zeig-Owens R, Gustave J, Lee R, 
Kelly KJ, Cohen HW, Prezant DJ. Post-Traumatic Depression And Post-
Traumatic Stress Disorder Co-Morbidity: Evaluating Risk Factors And 
Possible Mediation Properties. J of Epidemiology (Submitted 01/2010).
    35. Niles JK, Webber MP, Gustave J, Cohen HW, Zeig-Owens R, Kelly 
KJ, Glass L, Prezant DJ. Co-Morbid Trends in World Trade Center Cough 
Syndrome and PTSD in Firefighters: 2001-5. CHEST (Submitted 6/2010).
    36. Soo J, Webber MP, Gustave J, Lee R, Hall CB, Cohen HW, Kelly 
KJ, Prezant DJ. Trends of Probable PTSD in Firefighters Exposed to the 
World Trade Center Disaster 2001-9. Epidemiology (Submitted 6/2010).
    37. Weakley J. Webber M, Jackson G, Lee R, Kelly KJ, and Prezant 
DJ. Trends in Respiratory Symptoms and Diagnoses of Firefighters 
Exposed to the World Trade Center Disaster: 2001-9. Environ. Health 
Perspectives (Submitted 6/2010).

    The Chairman. Thank you very much, Dr. Prezant.
    Now we turn to one of those heroes, and one of those 
victims.
    Lieutenant Fullam, again, we sit here in awe of you, and 
what you and your fellow firefighters did on that day and the 
weeks and months afterward. I know you've had a rough time of 
it, health-
wise. So, we really appreciate your extraordinary efforts, both 
then and now, to come to this hearing. Thank you.

STATEMENT OF MARTIN FULLAM, FIREFIGHTER, FIRE DEPARTMENT OF NEW 
                    YORK CITY, NEW YORK, NY

    Mr. Fullam. Thank you very much, Senator.
    The Chairman. Please proceed.
    Mr. Fullam. Senator Harkin, Senator Enzi, and Senator 
Gillibrand, thank you for having me here, and my wife. We're 
very honored to be here today. I just want to give you a 
story--my story of what happened to me, 9/11 and afterwards.
    My name is Martin Fullam. I was a first responder to 9/11. 
I'm here to support any legislation that would guarantee 
medical care for those whose lives have been significantly 
altered by the events of that day. My life, as well as that of 
my family, has been significantly affected by that day, and 
remains a struggle today.
    Nothing prepared us for the scene that awaited us in Lower 
Manhattan on 9/11. I responded that day, participating in 
rescue efforts, and subsequent days in search capacity. The 
hope of rescue grew grimmer with each passing day.
    We were covered in dust, soot, powder--you name it. We had 
some face masks, mostly paper types, but nothing could 
adequately equip us, with the intake of dust we were subjected 
to.
    The days grew into weeks, and we continued to be assigned 
in a search capacity. We took breaks, but--and weren't solely 
detailed at Ground Zero, but rotated back there until February 
or so.
    Some guys were immediately sick, and we all went for 
medical monitoring. I experienced the typical cough and upset 
stomach that many felt, and tried to get on with my life, as 
best I could, but it wasn't until early in 2005 that some 
signs, that seemed insignificant, grew to be noticed. My 
muscles ached horribly, and my breathing became greatly 
compromised. My wife arranged for a specialist in New York 
University Hospital to see me. He phoned the next day, after my 
appointment and lab tests, and immediately admitted me. Blood 
counts for toxins were ``exponentially'' higher than the normal 
range. After several weeks of hospitalization, it was confirmed 
that I had polymyositis and autoimmune disease. Unfortunately, 
what could be aching muscles for some, for me led to a loss of 
60 pounds, a breathing capacity of 50 percent, an inability to 
walk or even sit up in bed, all within 5 weeks' time.
    The doctor was sure of his diagnosis, but had never seen it 
hit someone with such vengeance. When he learned of my history 
at Ground Zero, he was no longer surprised.
    Treatment followed, which allowed for my release, but 
weakness and compromised lung capacity have always followed. 
Intermittent spurts of improvement showed, but, overall, my 
health declined. When my lung capacity suddenly dropped another 
30 percent, I became a candidate for a lung transplant, which 
occurred in March 29, 2009.
    The hope of a better life, post-transplant, has faded, as--
40 pills a day, each with their own side effects, and a 
compromised immune system that kept my body constantly fighting 
against attack.
    My life has been altered, and has not been my own since 
I've gotten sick. I can no longer spend time with my family in 
the capacity I used to. There are some days I can't drive the 
car or go somewhere for a bit, and other days where I can't 
leave the front porch. Plans can't be made, as we never know if 
it's a day I can handle, or not. I'm not available for my wife 
or kids, and I know that there's nothing I can do about it. My 
wife has left her job to take care of our needs at home, and 
there's not been a normalcy for us since I've taken ill.
    I've left a job I love because I can no longer perform it. 
Ironically, performing the job is what caused my illness in the 
first place. But, I'd do it again.
    There's not a person who will forget what they were doing 
on that day. The memories are especially etched in those who 
lost loved ones and those who battled the thick of it, hoping 
to provide the rescue and search services for which the people 
of New York depend on their firefighters for.
    It was nothing short of a war zone. Being a firefighter put 
me in the thick of the scene that day, and many firefighters 
that followed. We never questioned our orders or our actions. 
We answered a call that day, as we do every other day an alarm 
sounds for us. It's what we do. When lives are in danger, we 
run in when others are running out. Our training prepared us to 
react as we always do, but nothing could have prepared us. It 
always affects a firehouse when a rescue is not successful. It 
has left its mark in the lingering sick from that day. We 
didn't forget to answer our call that day.
    I pray for those who have the opportunity to pass 
legislation to care for us, the lingering sick, that you will 
answer the call, and pass the necessary legislation that will 
allow us to live as best we can, without the additional 
hardship of financial worries and medical bills. We responded 
for those in need, and we are counting on you to do the same.
    Thank you for your time.
    [The prepared statement of Mr. Fullam follows:]
                  Prepared Statement of Martin Fullam
                              introduction
    My name is Martin Fullam, a first responder to 9/11. I'm here to 
support any legislation that will guarantee medical care for those 
whose lives have been significantly altered by the events of that day. 
My life as well as that of my family has been significantly affected by 
that day and remains a struggle today.
                                  9/11
    Nothing prepared us for the scene that awaited us in Lower 
Manhattan on 9/11. I responded that day participating in rescue efforts 
and subsequent days in search capacity. The hope of rescue grew grimmer 
with each passing day. We were covered in dust, soot, powder . . . you 
name it. We had some face masks, mostly paper types, but nothing 
provided could adequately equip us with the intake of dust we were 
subjected to. The days grew into weeks as we continued to be assigned 
in a search capacity. We took breaks and weren't detailed solely to 
Ground Zero, but rotated back there until February or so.
                            medical history
    Some guys were immediately sick and we all went for medical 
monitoring. I experienced the typical cough and upset stomach that many 
felt, but tried to get on with life as best I could. It wasn't until 
early in 2005 that some signs that seemed insignificant grew to be 
noticed. My muscles ached horribly and my breathing became greatly 
compromised. My wife arranged for a specialist in NYU Hospital to see 
me. He phoned the next day after my appointment and lab tests and 
immediately admitted me. Blood counts for toxins were exponentially 
higher than the normal range. After several weeks of hospitalization it 
was confirmed I had polymyocitis, an auto-immune disease. Unfortunately 
what could be aching muscles for some, for me led to a loss of 60 lbs., 
a breathing capacity of 50 percent and inability to walk or even sit up 
in bed all within 5 weeks time. The doctor was sure of his diagnosis 
but had never seen it hit someone with such a vengeance. When he 
learned of my history at Ground Zero, he was no longer surprised.
    Treatment followed which allowed for my release, but weakness and 
compromised lung capacity have always followed. Intermittent spurts of 
improvement showed, but overall, my health declined. When my lung 
capacity suddenly dropped another 30 percent I became a candidate for a 
lung transplant which occurred in March 2009. The hope of a better life 
post-transplant has faded as I face 40 pills a day, each with their own 
side effects and a compromised immune system that keep my body 
constantly fighting against attack.
                                personal
    My life has been altered and has not been my own since I've gotten 
sick. I can no longer spend time with my family in the capacity I used 
to. There are some days I can drive in the car and go somewhere for a 
bit and other days where I can't leave the front porch. Plans can't be 
made as we never know if it's a day I can handle or not. I'm not 
available for my wife or kids and I know there's nothing I can do about 
it. My wife has left her job to take care of our needs at home and 
there's not been a ``normal'' for us since I've taken ill. I've left a 
job I loved because I can no longer perform it.
    Ironically, performing the job is what caused my illness in the 
first place . . . but I'd do it all again. There's not a person who 
will forget where they were or what they were doing on that day. The 
memories are especially etched in those who lost loved ones and those 
who battled the thick of it, hoping to provide the rescue and search 
services for which the people of NY depend on their firefighters for. 
It was nothing short of a war zone. Being a firefighter put me in the 
thick of the scene that day and many days that followed. We never 
questioned our orders or our actions. We answered a call that day as we 
do every other day an alarm sounds for us . . . it's what we do. When 
lives are in danger, we run in when others are running out. Our 
training prepared us to react as we always do, but nothing could have 
prepared us for the day that awaited us that Tuesday morning. No one 
expects to witness the hell we faced. It always affects a firehouse 
when a rescue is not successful. The strangers we respond to leave 
their mark when we are too late. 9/11 had the double effect of 
rendering us helpless in rescuing not only the strangers, but our own. 
It further has left its mark in the lingering sick from that day. We 
didn't forget to answer our call that day. I pray that those here who 
have the opportunity to pass legislation to care for us, the lingering 
sick, will answer their call and pass the necessary legislation that 
will allow us to live as best we can without the additional hardship of 
financial worries and medical bills. We responded for those in need and 
are counting on you to do the same.

    The Chairman. Well, Lieutenant Fullam, thank you very much 
for that very poignant statement. Thank you again, in so many 
ways, for your life and your dedication. You know you represent 
a lot of firefighters in this country. Thank you.
    Ms. Garcia, welcome to the committee. We have your 
statement. Please proceed.

   STATEMENT OF MARGRILY GARCIA, PATIENT, WORLD TRADE CENTER 
           ENVIRONMENTAL HEALTH CENTER, NEW YORK, NY

    Ms. Garcia. Hello and good afternoon, Chairman Harkin, 
Ranking Member Enzi, and members of the committee.
    Thank you for inviting me to speak with you today. And 
thank you, to Senators Gillibrand and Schumer of my home State 
of New York, and all who support the James Zadroga 9/11 Health 
and Compensation Act.
    My name is Margrily Garcia. I'm a patient in the survivor 
program at the World Trade Center Environmental Health Center 
Program that's run by the New York City Health and Hospitals 
Corporation.
    I'm here today because I got sick from the aftermath of 9/
11. My health changed for the worst since then, because of all 
the dust and chemicals that I inhaled.
    Over 4,700 people are now being treated at the World Trade 
Center Program, and thousands more in the fire department and 
responder programs. We have similar health issues, but need 
different treatments that, with expert, reliable care, we'd all 
have an excellent opportunity of living healthier, longer 
lives.
    The doctors in our communities were unable to properly 
diagnose us, and we suffered greatly for it, because they 
didn't have research and exposure of treating thousands of 
people who were affected by 9/11, like the WTC program.
    Please listen to my story, as I am just one example of 
thousands who were affected by the same tragedy, and who are 
here with me now in my heart.
    On that day, I was a healthy 28-year-old woman employed as 
a paralegal at a firm on 90 Broad Street, about a 10-minute 
walk from the World Trade Center. My coworkers and I evacuated 
shortly after the North Tower collapsed. All transportation was 
shut down, so we headed to a coworker's apartment in Brooklyn, 
to stay together and be safe.
    I was covered in dust and soot from head to feet as we 
crossed the Brooklyn Bridge, just like that picture, with no 
mask. A week later, we all reported back to work in Lower 
Manhattan, determined to do the right thing during a time of 
national crisis. I'm unable to describe the sights, horrible 
smells, and constant dust we all endured for so long. I worked 
for 4 more years at this location.
    Shortly after 9/11, I developed a persistent cough that 
lasted months, and then years, to which doctors found no cure 
or temporary relief. My health deteriorated and became impaired 
so badly that I was forced to move back in with my mother for 
help. I often visited the hospital ERs and doctors' offices.
    At my family's urging, I finally called the WTC clinic at 
Bellevue Hospital, in September 2006, which now has sites at 
Gouverneur Health Services and Elmhurst Hospital Center, and I 
have been a patient there ever since.
    I had to visit the ER again, the day prior, so I was 
exhausted and weak for my appointment. I feared that I was 
going to die if I didn't find help immediately. And God 
answered my prayers with the WTC program.
    There I was diagnosed with both chronic asthma and 
sarcoidosis, a kind of scarring that can affect many different 
organs in the human body, especially the lungs. This disease 
increased among firefighters who responded to the WTC disaster 
in the first year after 9/11, compared to previous years. 
Sarcoid affected my heart, which had been scarred so badly that 
there were disruptions in my heartbeat causing less oxygen to 
get into my lungs, and worse. I was living with the possibility 
of sudden death. I had to have a pacemaker defibrillator 
implanted, which had to be surgically adjusted three times in a 
single year to ensure it would indeed save my life.
    I'm sorry.
    The Chairman. Take your time, take your time, Ms. Garcia.
    Ms. Garcia. Most recently, I had sinus surgery, due to 
chronic sinus inflammation from all the irritants we breathed 
on 9/11. My sinus CAT scan revealed that nasal polyps were 
blocking my airways, and my ENT doctor described my CAT scan as 
an example of a worst-case scenario, which he asked permission 
to use in his seminar, alongside a picture of my face.
    I am but a shadow of the woman I was, and I continue to 
adjust to this new me, this new normal that is now my life. 
Even my wonderful new husband and I must bend to endless 
hardships of my chronic illnesses, including fatigue and 
getting sick almost constantly, in one way or another.
    I will require a lifetime of specialized care, monitoring, 
and treatment, like so many others sickened since 9/11.
    I am here today, because Federal funding must be reliable 
so that care is always available for us. Our very lives depend 
on it. Not just year by year, but anyone whose health was 
affected by the terrorist attacks on our Nation. The various 
WTC healthcare programs we are hearing about today cater to our 
special medical needs. So, please show support for the 
responder, firefighter, and the community programs comprised of 
people who were once strong and brave, and are not so anymore.
    In our numbers, even if we have weakened bodies and voices, 
I pray with all my heart, though scarred, that you hear and see 
us as loud and strong advocates for the bill you are 
considering today. Collectively, we are the firefighters, 
police officers, other responders and rescuers, those who 
helped clean up the area, those of us who lived, worked, and 
went to school in the area, made it known that we still refuse 
to let the terrorists win. We went back to our workplaces and 
our homes and our schools because you said it was safe to do so 
and we believed that our city and our country needed us to do 
just that. We proudly reported to duty. We knew it was the 
right thing to do then. And we humbly ask you today to please 
do the right thing for us now.
    Thank you for your time.
    [The prepared statement of Ms Garcia follows:]
                 Prepared Statement of Margrily Garcia
    Hello and good afternoon, Chairman Harkin, Ranking Member Enzi, and 
members of the committee. Thank you for inviting me to speak with you 
today. My name is Margrily Garcia, a patient in the survivor program at 
the WTC Environmental Health Center, known as the WTC EHC, that's run 
by the New York City Health and Hospitals Corporation.
    I am a patient there, and I am here today, because I got sick from 
the aftermath of 9/11. I also express my gratitude to Senators 
Gillibrand and Schumer of my home State of New York, and to all who are 
here today in support of the James Zadroga 9/11 Health and Compensation 
Act. I honestly feel Dr. Joan Reibman, the Medical Director of the 
WTCEHC, could better explain why we in the Survivor program got sick on 
that day. I don't know all that she knows but I do know that I am one 
of the people who has suffered great health loss since that day.
    I am a shadow of who I use to be before 9/11. The person who I've 
become started changing soon after 9/11, because of all the dust and 
chemicals that I inhaled, the trauma and fear endured that day, and the 
uncertainty of the days thereafter.
    I am told over 4,700 people are now being treated at the WTCEHC, 
and tens of thousands more are in the Fire Department and Responder 
programs. I certainly don't know all of them, but I have seen many 
sitting next to me at the WTC clinic at Bellevue Hospital. We all have 
similar health issues but we're still very different. Some of us are 
sicker than others and I pray equally for all alike. It is my fear each 
day to not be well or get worse. With expert reliable care, all of us 
have a dramatically better chance of living healthier longer lives.
    Through no fault of their own, doctors in the community don't know 
what our doctors know with their thorough research and specialty care. 
I went that route and for years I only got sicker. We need these 
programs and doctors who are better qualified to offer the special 
medical treatment that we need and deserve as upstanding citizens of 
this country. We benefit from their knowledge and expertise from the 
years that they have of treating thousands of people who were there 
that life-changing day of 9/11.
    I ask you to hear my story as just one example of those thousands 
who obviously are not physically here today, but each and every one of 
them are here with me in my heart.
    I was born in New York City and raised in the Bronx. It was friends 
and family there who first heard of the special treatment program at 
Bellevue Hospital Center for people who worked, lived, or went to 
school in Lower Manhattan on September 11, 2001. They urged me to check 
it out because they had become increasingly concerned about my constant 
debilitating cough and just how much my health had changed after 9/11.
    On that day I was a healthy 28-year-old woman employed as a 
paralegal at a firm on 90 Broad Street, about a 10-minute walk from the 
World Trade Center. My co-workers and I evacuated from our office 
shortly after the north tower collapsed. We decided to head to a co-
worker's apartment in Brooklyn, because we wanted to stay together, and 
we thought we would be safer there. All transportation was closed down, 
and I had no means of getting home to the Bronx on that fateful day. I 
was covered in dust and soot from head to feet as we crossed the 
Brooklyn Bridge. A week later, I, like thousands of other New Yorkers, 
returned to my job in Lower Manhattan determined to do the right thing 
during a time of national crisis. Getting to and from work so soon 
after the horror of that day was challenging. No one can truly 
accurately describe the sights, horrible smells and constant dust we 
all endured for so long. Our hearts broke everyday as we tried to 
resume our normal lives and daily routine in spite of the remembrance 
of many lives lost that day.
    Within just a few weeks I developed a persistent cough, which was 
surprising and confusing to me because I had rarely been sick before 
the terrorist attacks, other than a brief cold or flu. No allergies, no 
ill health of any kind that could explain why I suddenly was getting so 
sick. Everyone else in my office looked OK to me at the time. My health 
deteriorated so badly throughout the years after 9/11 that I was forced 
to move back in with my mother because I simply could not manage my 
life on my own anymore. My primary care doctor had diagnosed me with 
bronchitis and asthma but I didn't respond very well to the medications 
she prescribed. I felt like hospital emergency rooms and doctors' 
offices had become my second home. By September 2006, my constant 
coughing had become disruptive and disturbing to my co-workers at my 
new job, threatening my ability to keep my job and the private 
insurance that paid for my ever-increasing doctor and ER visits.
    At my family's urging I finally called the WTC EHC at Bellevue 
Hospital Center in September 2006, which now has sites at Gouverneur 
Health Services and Elmhurst Hospital Center, and have been a patient 
there ever since.
    I was coughing so hard the day I called, the woman who answered the 
phone advised me to immediately come in that same day but I couldn't. 
Instead I made an appointment and advised my superiors at work of that 
appointment. I was afraid that my constant illnesses would compromise 
my employment because I had missed so many days already by calling in 
sick. I'm still constantly afraid of losing my employment due to my 
illnesses. Being here today was a sacrifice to my job but I'm happy to 
be here and make your acquaintance. Because so many others cannot, I 
want you all to know who I am and how I came to be here to share my 
story with you. I had to visit the ER later that same week because my 
coughing would not stop, I was in serious pain because of it, and my 
asthma was out of control. Despite lack of sleep and pure exhaustion, I 
was determined to keep my appointment at the WTC clinic, which helped 
people with symptoms similar to mine who hadn't responded to prior 
medical treatment. I'd had enough and I thought that I was going to die 
if I didn't receive immediate help soon.
    I found out my condition was even more severe than that of many 
other WTC-exposed patients they had seen. After a series of tests, they 
diagnosed me with both chronic asthma and sarcoidosis, a kind of 
scarring that can affect many different organs in the human body. I 
learned that rates of sarcoidosis increased among firefighters who 
responded to the WTC disaster in the first year after 9/11 compared to 
previous years.
    In my case, though sarcoid is more typically found in the lungs of 
WTC patients, it was my heart that had been scarred. It was so bad that 
there were disruptions in my heartbeat that was causing less oxygen to 
reach my lungs, and worse, I was living with the possibility of sudden 
death. I had to have a pacemaker/defibrillator installed to help save 
my life. Worse I had to have this surgery done three times in a year 
for necessary adjustments to ensure that the pacemaker/defibrillator 
would indeed save my life.
    Most recently I had to have sinus surgery which I've been told is 
not uncommon for many of us who suffer from chronic sinus inflammation 
due to all the irritants we breathed in. He showed me my sinus CT scan 
and explained that no air was entering through my nose because of all 
the nasal polyps blocking my airways. The ENT doctor was impressed with 
how bad my case was and asked permission to take a picture of my face 
and show it with the CT scan in a seminar he was conducting as an 
example of a worst case scenario. I was not impressed. In fact, I was 
very sad and concerned that yet something else was very wrong with me.
    Sadly, I am a medical phenomenon. I now return every 2-3 months for 
a checkup with several specialists, sometimes more often, and my visits 
to the ER have considerably dropped off since I became a patient at the 
WTC Clinic almost 4 years ago.
    My health became permanently impaired at a young age and I know I 
will never be like I was before 9/11. I continue to adjust to this new 
me, this new normal that is now my life. I know I am blessed with 
people who love and support me. I am happy to say that now my life 
includes the man I married on May 29th of this year. All newlyweds have 
their challenges but he and I must continually adjust to the 
debilitating physical and mental hardships that face anyone with 
chronic illnesses, including the fact that I so easily get winded and 
am almost constantly sick in one way or another.
    In addition, I've had to sacrifice leisure time; time that I can 
spend with loved ones for medical time. As you all know time is very 
precious to us all especially when you're sick and time is threatened 
and becomes critical. However, I'm hanging in there, and my husband and 
family members are hanging in there with me. But we all know that my 
scarred heart and asthma will require a lifetime of specialized care, 
monitoring, and treatment.
    We all take some comfort in knowing that the program that helps me 
has been partly funded from 2008 through 2011 by a grant from the 
Federal Government. I am here today to support the 9/11 Health and 
Compensation Act because federally funded monitoring and treatment must 
be reliable and always available for us because our very lives depend 
on it; not just year by year but for anyone whose health was affected 
by the terrorist attacks on our Nation. I need to know and trust that 
my government will protect and help us live better productive lives.
    The WTC healthcare programs you are hearing about today are very 
similar in how they go about caring for us who are sick. The responder 
programs are mostly overwhelmingly men, good strong brave men who did 
the right thing that day and the days and months after. Many of those 
men are not so strong anymore. We of the community did the right thing 
too. Many of us men, women and children are not so strong anymore 
either. However, in our numbers, even if we have weakened bodies and 
voices, I pray with all my heart that you hear and see us as loud and 
strong advocates for the bill you are considering today.
    Collectively we are the firefighters, police officers, other 
responders and rescuers. We are the people who soon came after to help 
in the clean up and we are certainly those who lived, or worked, or 
went to school in the area. We are the same people who not only were 
going about our normal lives; we still refuse to let the terrorists 
win. We went back to our workplaces, and our homes, and our schools, 
because we were told it was safe to do so, and we believed that our 
city and our country needed us to do just that.
    We proudly reported to duty. We knew it was the right thing to do 
then and we humbly ask you today to please do the right thing for us 
now.
    Thank you kindly for your time and patience with me.

    The Chairman. Thank you, Ms. Garcia. Well, congratulations 
on your wedding.
    Ms. Garcia. Thank you.
    The Chairman. Is your husband with you?
    Ms. Garcia. No, he's not here with me now.
    The Chairman. Oh, I thought I'd recognize him, and 
congratulate him, too.
    Ms. Garcia. Thank you. Thank you.
    The Chairman. Well, a very sad story.
    Let me start with you, Ms. Garcia.
    We'll start a round of 5-minute questions, here.
    Tell us more about the differences between receiving 
treatment through your primary care doctor versus going to the 
Bellevue program. Tell me again, in your own words, Why is it 
important for you to see the doctors in that program?
    Ms. Garcia. The providers at the World Trade Center program 
were the only doctors that were able to control my 
uncontrollable asthma at the time. I had this obnoxious cough 
that was literally destroying my life. I was looked upon almost 
as a leper in public places. It was very difficult to go to 
work, because I was disrupting everybody. There was just no 
cure. They gave me all the medications under the sun, and 
nothing was helping me, nothing at all. I was in constant 
pain--chest pains, back pain. And I was continually going to 
the ER, often, because of all of the wheezing and my asthma.
    Once I started going to the World Trade Center program--my 
ER visits has decreased and my asthma has been more manageable.
    The Chairman. Very good. Well, I hope everything's going to 
be OK. I hope you'll continue to improve.
    Ms. Garcia. Thank you.
    The Chairman. Lieutenant Fullam, again, your story is one 
that touches us all, because you were part of that picture I 
saw in New York that day, when everyone was running away from 
the cloud, we saw the firemen going into it.
    Tell me again--I don't need any numbers or anything like 
that, but, How about your fellow firefighters that you've seen 
up there? Are more and more of them--how have they reacted? 
Have you seen increased illnesses among those people that were 
there that day?
    Mr. Fullam. Yes. Well, yes. A good number of my friends 
have cancers and different types of diseases. There's four or 
five other guys who have the same disease I have, polymyositis, 
which, typically, 1 out of 100,000 people have. But, I believe 
right now there's six or seven firefighters out of 16,000 that 
have that disease, when, typically, the population--1 out of 
100,000 is struck. So, that's where they get the presumption 
from that disease.
    The Chairman. I also wonder about a lot of the firefighters 
who came from Wyoming or Iowa and all over the country, that 
came there. I must admit to you, I haven't checked with them. I 
don't know if there's a registry of them.
    Mr. Fullam. I wouldn't know that.
    The Chairman. I'm going to find that out, because I have a 
feeling----
    Well, Dr. Prezant, do you know that?
    Dr. Prezant. Yes, Dr. Howard referred to the national 
program. The national program has a treatment and monitoring 
program for firefighters and every other exposed World Trade 
Center responder, no matter where they live in the country. And 
also, they were originally eligible to participate in the World 
Trade Center Registry.
    The Chairman. The reason I ask that is because I remember 
talking to some of our firefighters from Iowa who went there at 
that time--after they returned--and they were thrown into 
actions. A lot of them worked tirelessly for 2, 3, 4 weeks, and 
then came back home. And it seemed--and I can't say this for 
sure--but, it just seemed to me that they were just told to go 
into the mess there, and do what they could. And I am not 
certain they had a lot of protections.
    Dr. Prezant. Yes.
    The Chairman. So, I'm just wondering if we have a good 
handle on who those, from around the country, were that came 
there at that time. And you're saying we do.
    Dr. Prezant. We have a good handle, but I will say that it 
took a while to get those programs up and running. That's one 
of the lessons learned from 9/11, that we have to take care of 
our first responders, no matter where they are.
    The Chairman. Are we hearing, around the country, about 
illnesses and stuff, from some of those firefighters who came 
from around the country, Dr. Melius?
    Dr. Melius. Yes. I also do work with a firefighters union, 
and at national meetings I've gone to--actually I have talked 
to a number of these firefighters who have come in. A number of 
them have become ill, a number of them with very serious 
illnesses, similar to what's been experienced by the New York 
City firefighters. So, we know that.
    There has been some outreach to them. But, we need to do 
more, because many of them are not aware of the programs.
    The Chairman. Yes.
    Dr. Melius. Particularly those that, on their own, 
individually, volunteered to come in, particularly in the 
initial few days afterwards, because there was no listing kept 
of them. Those that were on an organized basis that came in 
under a Federal program, we have listings; we know where they 
came from. But, those individuals that came in, which there 
were many, we just don't know. Nobody kept track. And so, there 
really is a need to do continued outreach to let them know 
about these programs, and to get them in for care.
    The Chairman. OK. Thank you very much, all of you. Thank 
you.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I'll continue with Dr. Melius.
    Currently, NIOSH sends funds to New York providers for 
monitoring treatment. I'm not sure if you've seen Senator 
Gillibrand's bill, but under sections 3001 and 3006, NIOSH 
would send funds to New York providers for monitoring and 
treatment. Does that basically codify the current practice?
    Dr. Melius. Yes, it basically codifies the current practice 
at the centers. It's a little bit different, in that it 
essentially ties the funding to the individuals, rather than, 
through this grant mechanism, to the centers, but would direct 
most of the care through the Centers of Excellence, allow 
additional Centers of Excellence to be established, if they 
meet certain criteria, including centers in other parts of the 
country, where there are a significant number of responders, 
and medical centers that have the expertise to help those 
people.
    So, essentially, it does. It also, as I mentioned in my 
testimony, would also change the reimbursement methods so it's 
tied to the individual--more of a traditional fee-for-service 
kind of system, which would provide for better accountability, 
and able to follow up on--some of the questions that you were 
asking Dr. Howard, early, would be answered.
    Senator Enzi. Thank you. I'll follow up on one of those 
questions that I asked, and that he suggested that I ask you, 
and that's, Why has it been so difficult to document the half a 
billion dollars in NIOSH grant money that was spent?
    Dr. Melius. The current program is funded through grants. 
And grants provide, essentially, broad categories of funding 
for different services. So, there's essentially a broad 
category for, say, pharmaceuticals, and for others, so, you 
break it down--those sort of broad categories.
    But, for identifying individuals receiving those, they have 
to set up a separate system to track those, which has--as Dr. 
Howard testified, have been put into place, but they weren't in 
place initially. There was uncertainty about how the program 
would be funded, going forward. So, there was some hesitation 
doing that. Dr. Howard--NIOSH--also tried to set up a contract 
to provide this sort of fee-for-service reimbursement system, 
and the administration decided not to do it.
    Actually, after the contract had already been announced, 
and there were people prepared to compete for that contract, it 
was pulled back, and the only part that went forward was for 
the national program.
    So, the individuals, themselves--their health is tracked 
because of the monitoring program. We know a lot about the 
individuals. But, that is not tied to the individual treatment 
they get, and the individual treatment that's billed for those 
individuals. We need to improve that. I think everyone 
acknowledges that that needs to be done and would be helpful, 
because there should be accountability for this program.
    Senator Enzi. And so, we know they're being helped under 
one program, possibly, but we don't know if it's being tied in 
with all of the services that they need.
    Dr. Melius. Correct. There are provisions to identify 
people getting services from more than one program for the same 
problem, and sort of simple things like that, because we have 
all the individuals being followed. The individual medical care 
that they get, the services, is much harder to track, under the 
current system. We need a new system to do that as we go 
forward.
    Senator Enzi. OK. Thank you.
    Dr. Prezant, first, I want to salute the Fire Department of 
New York, and you, for your leadership and service. You hosted 
a visit of the HELP Committee staffers, last Congress, and 
really helped us to get up to speed on the medical and 
scientific issues.
    And the last time you spoke with us, about 650 firefighters 
had to go on permanent disability because of the World Trade 
Center cough. Are more of your firefighters becoming 
incapacitated because of the cough? Or is the number holding 
fairly steady?
    Dr. Prezant. Thank you for your question. First off, when 
we call things ``the World Trade Center cough,'' we use that 
term broadly to represent all of the respiratory diseases that 
are affecting our members, both chronic bronchitis, asthma, 
what some people call ``reactive airways dysfunction 
syndrome,'' sarcoidosis, pulmonary fibrosis--they all have 
manifested themselves as ``World Trade Center cough,'' and as 
``severe shortness of breath.''
    In terms of the initial numbers that I gave you, there are 
people that were still in the pipeline that had not been 
awarded disability, and there are still new people coming 
forward with disability. So, as of earlier this year, there was 
a total of approximately 1,300 FDNY rescue workers, mostly 
firefighters and a few EMS workers, who have received permanent 
respiratory disability benefits.
    Senator Enzi. So, the number has doubled in just the last 
year.
    Dr. Prezant. That is correct. Prior to 9/11, we averaged 
less than 30 cases per year, for respiratory disability, out of 
a department that's approximately 15,000 in total membership. 
And since 9/11, on an annual basis, we average approximately 
150 cases. So, that's a huge increase in the number of cases, 
starting to level off, for the first time, this year.
    Senator Enzi. I'll change the subject to mental health. 
This committee is in charge of that, too. Can you share with 
the committee how the department and the unions attack the 
stigma that's associated with seeking treatment for mental 
illness?
    Dr. Prezant. Well, our patients are no different than the 
military. They are incredibly proud of the service they provide 
this country--and the city, in particular. They're used to 
sacrifice. And, as you can see from Lieutenant Fullam, not only 
are they used to sacrifice, but they hold themselves with 
incredible pride and a stoicism that leads to barriers to 
mental health care.
    But, we have fought very hard to overcome that. We have, 
currently, nearly 2,000 people each year in mental health 
treatment through our programs. We've opened up five centers 
outside of fire department facilities that we rent in nonfire 
department locations, noncity buildings, so that there would be 
no stigma to going into that building. We have reached out to 
every firehouse with peer counselors, retired firefighters, who 
go in there, and they're not there to do psychotherapy or to 
provide medication, they're there to say that it's safe to come 
forward. And we use that as a system.
    Could we do better? Each year we could do better, and 
that's what we strive for.
    Senator Enzi. How are those numbers holding? Are they 
increasing?
    Dr. Prezant. They're steady. We're running between, as I 
just said, a little less than 2,000 per year, and not 
decreasing at all. We have about 12 percent with PTSD. And we 
are finding exactly what the psychiatrists told us to expect, 
that when you have chronic PTSD, you will develop increasing 
numbers of people with depression. They get depressed because 
their PTSD is not getting better. And so, now we're having to 
rev up to treat a second mental health illness.
    Senator Enzi. Can you also tell me about the difference 
between the fire department program and what the police do with 
their Project COPE.
    Dr. Prezant. Project COPE is a mental health outreach 
program, as well. Because the police department has a much 
greater workforce, and other issues associated with a greater 
barrier, because each one of their officers carries a gun, 
they've decided to completely separate their mental health 
program from their physical health program. And COPE is a sort 
of similar peer-type group that reaches out to policemen, but 
in a completely non-NYPD, nonofficial way. There's a linkage, 
but it's very unofficial. This way, they try to deal with the 
barrier that's much greater in their workforce than our 
workforce, because of the issue of carrying a gun.
    Senator Enzi. Thank you.
    I do have some other questions, but I'll submit those in 
writing.
    I appreciate you letting me go a little longer, there.
    The Chairman. Thank you, Senator Enzi.
    I have a follow-up question for Dr. Melius. There's still 
people who are coming forward now, who you hadn't seen before. 
Now, again, I think some people might say, ``Well, they're 
taking advantage of the program. They're coming into this 
program to get their healthcare needs taken care of.''
    Would there be some reason why people might not have come 
forward before now, who were around Ground Zero, or who may 
have been in that area, in the weeks and months afterward? Is 
there any reason why they might not have come forward before 
now?
    Dr. Melius. I think that there are several reasons. Some is 
knowing about the program. Despite all the publicity, I think 
there are people that are not aware, particularly in other 
parts of the country, I think, more than in New York.
    Second, I think that, as Dr. Prezant just said, people 
don't like to go to the doctor, particularly working men do 
that. And so, they're reluctant to go forward and seek care, 
they don't want to know that they might have a problem. They're 
concerned that it might affect their current job in some way--
lots of excuses. So, they're reluctant to get examined to find 
out. And that's common in general medicine, it's common in this 
program.
    Third, many of them are seeking care through their own 
personal physician. And they discover they're not getting 
better, and--over time--maybe their condition is getting a 
little bit worse. And so, that's the reason they come forward. 
They know about the program. They say, ``Well, I'll finally 
come forward. And, maybe if I go to these special centers, 
maybe they can improve my treatment, and I'll be able to work 
better and feel better.''
    There are others--actually, well, just approached by 
another one of the building trades business agents recently. He 
had a group of veterans. They were operating engineers that 
knew about the program, but felt that--they met, I believe, on 
a monthly basis, as sort of a military veterans group within 
the union--they felt that, really, it was for other people. 
Their patriotic duty was, ``Let it take care of the other 
really sick people first.'' So, here it is almost 9 years 
later, and they're just deciding that, ``Well maybe we really 
should go in and get checked out. Some of us are having 
symptoms, but--and, you know, we'll finally go forward and take 
advantage of this program.''
    It's surprising that we're continuing to see, in the 
General Responder Program, 250 new people come in monthly, 
seeking care. And many of these are sick and need treatment. 
So, it's not a population that's just trying to take advantage; 
they need the program, and it's important to them.
    The Chairman. As a follow-up to that, Dr. Prezant, I have 
one more question, and that is, What factors explain why one 
person got sick and another one didn't? And, in these kinds of 
cases, how do you know that the exposure is the cause of the 
symptoms? And why are people just getting sick now? So, there 
are kind of three. Why are people getting sick now? How do you 
know that it was due to the exposure? And why does one get sick 
and someone else didn't?
    Dr. Prezant. Well, I wish I could tell you why one person 
gets sick and another person doesn't.
    The Chairman. But, you did testify that the severity, I 
think you testified, was that, depending on how near to Ground 
Zero you were in the days, hours, right after.
    Dr. Prezant. Absolutely. We've clearly shown that initial 
arrival day and where you were and duration of work down there, 
are all factors. But, if you match two people with exactly the 
same arrival time, exactly the same duration of exposure, you 
will find that one has gotten sick and one has not.
    That does not dispute the World Trade Center as the cause, 
because--I refer to the same issue with cigarette smoking. We 
know, and we have fully accepted, the major illnesses caused by 
cigarette smoking. But, we all have, thankfully, a relative or 
a friend who has smoked tremendously, and has not gotten ill. 
And we also have, unfortunately, relatives and friends who have 
smoked very little and have gotten ill. There is a genetic/
environmental interaction with every disease. And that doesn't 
negate the environmental interaction. It just, once again, 
tells us that we are human beings. We are not robots.
    Now, in terms of, How do we know this is World Trade Center 
disease? Well, at the fire department, we are lucky to have 
documented exposures on every person. We still have people 
coming in now for treatment, when they haven't before, because 
of their stoicism. But, we know that they were at the World 
Trade Center, and we have cumulative evidence from decades of 
dealing with firefighters--our medical database goes back to 
the early 1980s--and we have not seen these diseases. We have a 
handful of firefighters with asthma each year before 9/11; 
after 9/11, we have overwhelming numbers. We never saw 
pulmonary fibrosis or polymyositis before 9/11; now we do. So, 
that's the basis for us understanding that this is World Trade 
Center-related.
    The Chairman. Dr. Melius.
    Dr. Melius. Yes, just to follow up on that.
    The Chairman. Yes.
    Dr. Melius. I think it's important, as Dr. Prezant said and 
has shown in his studies, but there are also many other 
scientific studies showing that large numbers of people are 
getting sick. I mean, this is not something that's occurring in 
just a few people.
    The Chairman. Right.
    Dr. Melius. It's large numbers.
    Second, I think it's also important--you know, people's 
exposure differs. And even though we see the picture here--what 
happened immediately after--even within the community of people 
living further away, there were people that had very high 
exposures. Their apartments or their workplaces weren't 
cleaned. They lived with that dust, breathed that dust for 
months.
    So, many, many people had long-term and heavy exposures. 
And I think that accounts for what we've seen.
    Dr. Prezant. A major strength is the fact that you have 
essentially four different groups: the fire department, the 
World Trade Center Consortium of New York/New Jersey, the World 
Trade Center Registry, and the Environmental Health Center at 
Bellevue. All of them have slightly different types of 
populations and slightly different types of exposures, and all 
of them are showing the same thing.
    The Chairman. Well, listen. Thank you all very much.
    I would yield to my colleague from the House, not for 
purposes of a question, but for any statement or observation 
that he would want. Again, a distinguished member of the House, 
a senior member of the delegation. And it was in his district 
in which this occurred.
    And then I'd ask Senator Gillibrand if she'd like to also 
close up with any comments or observations.
    Congressman Nadler, welcome.

        STATEMENT OF U.S. REPRESENTATIVE JERROLD NADLER

    Mr. Nadler. Well, thank you very much, Senator, for the 
privilege of allowing me to sit here, and to make a statement, 
and for holding this hearing, at Senator Gillibrand's request.
    Let me say, we've been involved in this for a long, long 
time, since immediately after 9/11. And we've held a number of 
hearings in the House and in New York, and we've seen all of 
this.
    It is unquestionably the case that there is a massive 
exposure, that people have gotten sick, that people who don't 
know they're sick yet, will get sick. We also know--in 
connection with the last question you asked--that certain 
diseases have different latency periods. We've seen most of the 
respiratory diseases. We're starting to see the cancers. We'll 
see the cancers much more. They have latency periods, I 
understand, of 8 to 15 years, generally, so that you wouldn't 
expect people to come in with the cancers. We know there were 
millions of carcinogens in the atmosphere, everything from 
benzene to God knows what. So, we're going to see the cancers. 
We're starting to see a few of the soft-tissue cancers now; the 
blood cancers will come later. So, those are also reasons why 
people didn't come forward earlier.
    This legislation is completely necessary, for any number of 
reasons, one of which is, we cannot depend on the annual 
appropriations process. We have done rather better in the last 
few years, in the appropriations process, than prior to that. 
But, we have still had occasions, within the last few months, 
when some of the institutions have had to send out notices to 
affected populations that, ``You're not going to be served 
after June 30, because the appropriation didn't come through in 
time.'' It's unfair to put people through that. It's unfair to 
rely on who may be sitting in these congressional seats 5 
years, or 6 years, or 8 years from now, to make sure we keep 
getting the appropriations. And we've got to put it on a 
systematic basis.
    We owe a tremendous moral debt, because it wasn't simply 
that the terrorists did this, it's also that the Federal 
Government misled people and told them that it was safe to work 
in these areas, when it wasn't, and enforced the OSHA laws at 
the Pentagon but not in New York. So, there's a tremendous 
moral debt owed to people.
    And finally, God forbid there's another natural disaster or 
another manmade disaster, we have to want first responders to 
be able to go into these and--places, and rescue people, and 
clean up, and--first responders and contractors--and not worry 
about, Will this put their businesses and their families at 
risk 5 and 10 years later?
    So, it's imperative we pass this legislation. I want to 
commend Senator Gillibrand and Senator Harkin. And I want to 
commend all the people who've testified today, who've been 
active in this for so many years.
    I want to commend, in particular, Dr. Howard, who I would 
say has been the one official in the executive branch of 
government--of the Federal Government--who's been responsive.
    And so, thank you.
    [The prepared statement of Mr. Nadler follows:]

            Prepared Statement of Congressman Jerrold Nadler

    Today, I want to join Senator Gillibrand in thanking the 
Senate Committee on Health, Education, Labor, and Pensions for 
considering The 911 Health and Compensation Act.
    Thanks to Senator Gillibrand's hard work and attention to 
this matter, I am pleased that we are making progress on this 
legislation in both the House and the Senate. Just last month, 
the House version of this bill, of which Congressman Maloney 
and I are sponsors, was favorably reported out of the House 
Energy and Commerce Committee. And in July of last year it 
cleared the House Judiciary Committee, of which I am a member. 
All of this movement means that we are now within reach of 
providing justice to the thousands of first responders and 
survivors who are sick because of their unnecessary exposure to 
the toxic dust of 9/11.
    As we all know, the collapse of the World Trade Center 
propelled hundreds of tons of asbestos, nearly half a million 
pounds of lead, and untold amounts of glass fibers, steel, and 
concrete into a massive cloud of toxic dust and smoke which 
blanketed parts of New York City and New Jersey. Fires burned 
for many months, emitting a host of deadly substances into the 
air.
    In the days and weeks after 9/11, thousands of workers and 
volunteers selflessly came from across the country to help. 
They worked harder and longer than they had ever worked before, 
and under unfathomable conditions. And they did not ask 
questions, because there was a critical job to be done.
    We warned then that the air was not safe and that our 
courageous first responders were not being afforded proper 
protection from dangerous toxins as they worked on and around 
the pile. But the Bush administration and the EPA lulled us all 
into a profoundly false sense of security by irresponsibly and 
dangerously declaring that the ``air was safe to breathe.''
    And, devastatingly, as a result, many people toiled for 
months on that toxic pile at Ground Zero without proper 
protection. They were unnecessarily exposed to hazardous toxins 
because of what the government said and did--or did not do.
    And now thousands of them are sick.
    The truth is stark: the government failed its bravest 
citizens. After its own inaction and malfeasance caused 
irreparable harm, the government has failed its citizens for 
8\1/2\ long years, because it has failed to fully pay the debt 
owed to those citizens.
    We must now ensure that the Federal Government provides 
long-term, comprehensive health care and compensation to all of 
the first-responders and survivors affected by 9/11, in a way 
that is not subject to annual politicized fights for budget 
dollars.
    I don't have to tell you that every day that our sick 
responders and survivors have to wait to receive the health 
coverage and financial restitution that they need and deserve 
is one day too many.
    I want to thank the responders and survivors for their all 
of their hard work and patience in this struggle; I want to 
thank Senator Gillibrand for championing this issue in the 
Senate, and Congresswoman Maloney for her continued leadership 
in the House.
    Let's pass this bill.
    Thank you.

    The Chairman. Thank you, Congressman Nadler.
    Senator Gillibrand.
    Senator Gillibrand. I just want to thank you, Chairman 
Harkin, for holding this hearing. This is so important to the 
first responders, to the community survivors, and to everyone 
in New York and throughout the country.
    You know, we have first-responders from every State in the 
Union. And we have people suffering from these grave illnesses 
at every corner of our country. So, just, on all of their 
behalves, thank you for holding the hearing.
    Thank you, Congressman Nadler, for your leadership and 
advocacy throughout this. It's been extraordinary.
    And thank you, to all of you, for testifying and being part 
of developing a record so that we can move this legislation 
forward so that we can finally make sure that families and 
firefighters and first responders have the healthcare and the 
reimbursement for the costs they've suffered that is so 
desperately needed. It is our moral obligation. And because of 
your advocacy, we will find a way there. So, thank you so much. 
Thank you for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gillibrand, and for your 
persistence in working with this committee, and with both 
Senator Enzi and me, to make sure that we had this hearing to 
get the record made. And thank you very much for your 
leadership on this crucial issue here in the U.S. Senate.
    And again, I thank all of our witnesses.
    Lieutenant Fullam, again, thank you. Thank you, thank you. 
I can only hope that your health continues to improve, and you 
get better.
    And, Ms. Garcia, again, same for you. I hope your health 
continues to improve and you enjoy many more years of married 
life to that new husband of yours.
    Ms. Garcia. Thank you so much.
    The Chairman. Thank you all very much.
    The record will be held open for 10 days for additional 
questions.
    And with that, the committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Dodd

    Mr. Chairman, thank you for calling today's hearing and 
allowing the HELP Committee to more closely examine this 
critically important issue. This Nation suffered an 
immeasurable tragedy on September 11, 2001.
    We will never forget the thousands of people who died on 
that day. And we cannot allow ourselves to forget about the 
thousands more--including first responders, area residents, 
workers, students, and others--who still feel the affects of 
those attacks and are sick and getting sicker from exposure to 
the mix of toxins released from the collapse of the World Trade 
Center (WTC) Towers. As today's experts will testify and the 
published, peer-reviewed research in our leading national 
medical journals shows, the rates of asthma, the WTC cough, 
decreased lung function, sinus problems, posttraumatic stress 
symptoms, and many other health effects are on the rise.
    In my own State, thousands of residents dropped what they 
were doing in the days after 9/11 and showed up at the WTC site 
to volunteer in any way they could. Firefighters from 
Connecticut communities nearest to New York, including 
Fairfield, Greenwich, Norwalk and Stamford--responded quickly 
on September 11 and several hundred responders from Connecticut 
were officially sent to help in the rescue and recovery 
efforts. More than 800 residents in my State are enrolled in 
the World Trade Center Health Registry and several dozen are 
participating in either the FDNY WTC Medical Monitoring and 
Treatment Program and the WTC Environmental Health Center at 
Bellevue Hospital Center.
    The Federal Government has an obligation to help the heroes 
of 9/11 as well as all others who were exposed to dust and 
debris, including residents and children. That help should 
include mental and physical health considerations as well as 
access to the Victims Compensation Fund. It is important, 
especially as it pertains to children, that we are properly 
identifying and treating their physical and mental health 
needs. Countless children who were not at the WTC site continue 
to live with the impact of having lost a mother, a father, a 
grandparent or a sibling. Their needs must not be overlooked.
    As the Chairman of the Subcommittee on Children and 
Families and the author of legislation creating the National 
Commission on Children and Disasters, I am particularly 
concerned about the needs of children and ensuring that 
programs receiving Federal resources are adequately monitoring 
and caring for the most vulnerable in our population. In my 
questioning, I look forward to discussing the response of the 
Federal Government and city of New York to children and 9/11.
    For more than 2 years, I was part of a bipartisan HELP 
Committee effort led by former-Senator Clinton that included 
the late-Chairman Kennedy, Ranking Member Enzi, and Senators 
Burr and Coburn. Our purpose was to craft a bipartisan health 
and compensation program for those who are suffering 
potentially life-long health effects of 9/11. I am disappointed 
that this effort did not result in legislation. It is something 
I deeply regret. However, I am a proud cosponsor of Senator 
Gillibrand's legislation, the James Zadroga 9/11 Health and 
Compensation Act of 2009. I hope to see action on this 
legislation soon.

                  Prepared Statement of Senator Casey

    Thank you, Chairman Harkin, for calling this important 
hearing. I would like to thank Senator Gillibrand for her 
testimony, and also extend thanks to all of the panelists for 
their work, their sacrifices, and their testimony here today.
    September 11, 2001, was a day of horror and tragedy for 
America. We still feel the loss of the thousands who died that 
day, in New York, at the Pentagon, and in Pennsylvania. We have 
spent the last 9 years honoring their sacrifice and ensuring 
that their memories will not be forgotten.
    However, we have another commitment that we must remember, 
and that is our commitment to those who still live with the 
scars of that awful day--the rescue workers, the recovery 
workers, and the people who worked, lived, or went to school 
near the World Trade Center. The dangers that they faced that 
day endure. Many of them have suffered health effects since 
that 9/11. Some of them have died as a result; others are 
severely incapacitated. We owe these Americans our gratitude 
and our help.
    The health effects of 9/11 may not follow ``traditional'' 
paths for similar illnesses. Individuals were exposed to many 
different substances, some in large quantities on 9/11, and 
some in smaller doses over the days and weeks and months that 
followed. Fortunately, the programs that were created in the 
immediate aftermath of 9/11 have tracked and monitored the 
health of these individuals, but it is clear more must be done.
    As a cosponsor of Senator Gillibrand's bill, I believe that 
we must guarantee a steady source of support for our valiant 
first responders and community members. I applaud the committee 
for scheduling this hearing and thank the witnesses for their 
testimony today.

  Prepared Statement of Michael R. Bloomberg, Mayor, City of New York
    Thank you Chairman Harkin, Ranking Member Enzi, and the other 
distinguished members of the committee for convening this hearing on S. 
1334, the James Zadroga 9/11 Health and Compensation Act. I also want 
to particularly thank Senator Gillibrand for introducing this 
legislation to establish a sustained, long-term 9/11 health program.
    Passing this bill would, at long last, fully engage the Federal 
Government in resolving the health challenges created by the attack on 
our entire Nation that occurred on 9/11. The destruction of the World 
Trade Center and the attacks on the Pentagon were acts of war against 
the United States. People from every part of the country perished in 
the attack, and people from all 50 States took part in the subsequent 
relief and recovery efforts. And that makes addressing the resulting 
and ongoing health effects of 9/11 a national duty.
    This legislation achieves what WTC responders, area residents, and 
other survivors of the 9/11 terrorist attacks have long been seeking--
sustained funding to treat those who are sick, or could become sick 
because of 9/11; continued research on potential WTC health effects; 
and the re-opening of the Victim Compensation Fund so that those harmed 
as a result of 9/11 are fairly compensated without having to show that 
anyone but the terrorists were at fault.
    Before detailing the virtues of this legislation, I'd like to 
review some essential facts about the scope of this problem and the 
efforts the city has made to address it. Four years ago, as the fifth 
anniversary of 9/11 approached, I directed city agencies to undertake a 
thorough investigation of the health problems potentially created by 
the terrorist attack. The report published 6 months later established 
beyond question that many people suffered physical and mental health 
effects as a result of the World Trade Center attack and its aftermath.
    They include firefighters and police officers, community residents, 
schoolchildren, and owners and employees of neighborhood businesses, 
and also construction workers and volunteers from across America who 
contributed to the heroic task of clearing the debris from the World 
Trade Center site. The report made clear that the ultimate scope of 
these health effects is still unknown; that they must continue to be 
studied; and that those who are sick or could become sick must be 
monitored and treated with the best possible care.
    S. 1334 achieves those aims, but New York City has not waited for 
Federal funds to address this issue. For instance, the city funded the 
launch and expansion of the WTC Environmental Health Center at our 
Health and Hospitals Corporation (HHC) before receiving any Federal 
dollars; and we've launched a number of public outreach campaigns about 
9/11 health problems and how to get help.
         wtc centers of excellence and the wtc health registry
    The Federal Government has been an important partner in this area. 
The annual appropriations that Congress and the President have made 
over the last several years have funded the World Trade Center program 
at Mount Sinai, as well as the longest-running health response to the 
attacks--the FDNY WTC Medical Monitoring and Treatment Program.
    The FDNY Center of Excellence provides monitoring and treatment to 
the firefighters and other FDNY personnel who participated in WTC 
rescue, recovery and clean-up. With the help of Federal appropriations, 
the Program has provided specialized WTC health care to thousands while 
generating leading research on the health impacts of 9/11. Lacking 
long-term funding, however, the Program faces perpetual uncertainty 
about its ability to continue providing clinical services.
    In addition, the HHC WTC Environmental Health Center was awarded in 
2008 a 3-year grant for $10 million a year. This funding is critical to 
allowing the program to continue addressing the physical and mental 
health needs of community members.
    Finally, short-term Federal grants enabled the establishment of the 
WTC Health Registry (WTCHR), which this bill will continue to fund on a 
permanent basis. The Registry is a partnership between the city and the 
Federal Government that is the largest effort of its kind in history. 
It includes more than 71,000 people from every State in the country who 
reported being exposed to the aftermath. Over 20 percent of the people 
in the Registry are from outside the New York Metropolitan region. This 
reflects the number of people from throughout the country who were in 
New York at the time of the attacks or who came to New York soon after.
    Efforts by the Registry, FDNY, Mt. Sinai, the HHC WTC Environmental 
Health Center and the reports generated by the Medical Working Group--
which we convened to keep us all abreast of the newest research and 
resource-needs for 9/11 health issues--are central to the city's core 
approach to this issue: dedicating resources based on the latest 
science and medical research. And the data shows that 9/11 health 
issues continue to be a serious problem.
    Registry data confirm continued high levels of reported post-9/11 
asthma and Post-Traumatic Stress Disorder (PTSD) among Registry 
enrollees 5-6 years after the attacks. Adverse respiratory health 
symptoms, while most frequently reported by rescue and recovery 
workers, have also been reported by Lower Manhattan residents, office 
workers, and passersby on 9/11, and more than 20,000 directly exposed 
adults may have received new asthma diagnoses since the event. PTSD 
levels were high at baseline and remained elevated at the time of the 
last survey in 2006-07.
    The Registry will soon launch the third major health survey of all 
enrollees, 10 years after 9/11. This survey is the only tool that 
gathers critical health information from a diverse group of individuals 
exposed to the WTC disaster--including rescue, recovery, clean-up 
workers, Lower Manhattan community members, office workers and 
children. As has been reported, however, the Registry is facing funding 
shortfalls that threaten its ability to carry out the survey--
highlighting the need for sustained, long-term funding.
    S. 1334 provides for the long-term sustainability of the city's 
Centers of Excellence and the efforts of the WTC Health Registry. It 
would establish much-needed year-in, year-out Federal support for 
monitoring, screening, and treatment of health-
related problems among eligible 9/11 responders and community 
residents. As part of this, the bill would maintain the WTC National 
Responder Program, providing monitoring and treatment for the many men 
and women who came from across the country to help in WTC rescue, 
recovery and clean-up operations.
    In addition, the bill funds essential ongoing medical research, 
including the WTC Health Registry, so that we can better understand 
what the health impacts of 9/11 are, and what resources we need to 
address them. Finally, the bill reopens the Victim Compensation Fund so 
that people who were harmed by the terrorist attacks can get 
compensation fairly and quickly without having to prove that the city, 
the contractors, or anyone else but the terrorists were at fault.
    The bill's provision for the long-term future of the centers of 
excellence is critical. While Federal funds have supported important 
research and treatment efforts, the uncertain and fragmented nature of 
that support has needlessly jeopardized the future of these programs. 
Passage of this bill would make that future secure.
    To ensure that funding goes only to those whose conditions are due 
to 9/11, the legislation includes important controls and cost-
containment standards that the city fully supports. In addition, the 
bill makes the city responsible for paying 20 percent of the cost of 
care provided at our public hospitals and clinics. This is a 
significant obligation, but we accept it. It will give us a powerful 
incentive to work with Federal health officials to ensure that 
expensive and finite medical resources only go to those who truly need 
them.
    Less than 3 months from today, we will observe the ninth 
anniversary of 9/11. Too much time has passed without action on this 
legislation. Let's work together to ensure that those who survived the 
attacks, and those who risked their lives to save others, receive the 
health care that they deserve.
                 Prepared Statement of Ann Warner Arlen
               a personal account of 9/11 health effects
    My name is Ann Warner Arlen. I live a few doors south of Houston 
Street on Sullivan Street, west of SoHo. Before September 11, 2001, the 
World Trade Center was just a short walk south.
    My apartment has a garden, part of an open core at the center of 
our block. On September 11 my back was to the garden when I heard the 
roar of the first plane go over our block, sounding too low, gunning 
its motors, followed by a crash.
    In the street a group of us watched the towers burn. When one of 
the towers turned grey and slid down the horizon, people screamed. A 
man appeared at the edge of the group, eyes red, face chalky with dust, 
trying to speak. Finally he said he had been in a building where people 
jumping from the towers fell so close by he could identify them. He 
wanted to tell the families so they could know. He came to my place to 
call his own family. On the TV the second tower went down.
    The next day the air was filled with the dust. Going to an 
emergency community meeting at Bleecker and West Broadway, I had a 
bandana around my nose and mouth, yet was grinding the dust and grit 
between my teeth. The following day the dust was still in the air. The 
police had Houston Street cornered off. An officer gave me a mask.
    After that the thick black smoke rising from the World Trade Center 
during the day settled as a pall over the Downtown area at night. The 
central core of our block held the smoke in place, allowing it to seep 
into the rear-facing apartments. Every morning for 3\1/2\ months I woke 
to an apartment filled with smoke, head aching with sinusitis and chest 
bubbling with bronchitis. With so much death so close by, it seemed not 
to matter.
    A combustion-scientist friend described the smoke as a combination 
oil fire, crematorium and mass burn incinerator. During the day, when 
the smoke lifted, the smell of burning flesh persisted. It was a relief 
when someone wrote about it or mentioned it. That was rare. I felt that 
we were carrying around inside of us the people who had been vaporized, 
and that it was a good thing.
    Two years later, in October 2003, I did jury duty in the Supreme 
Court building on Foley Square, in a courtroom facing the WTC site and 
still smelling of WTC smoke. Court workers who had offices were running 
air purifiers. As we jurors were seated, our eyes began to redden and 
noses ran. My sinusitis and bronchitis returned and got steadily worse. 
Following jury duty, after many weeks, the bronchitis became acute, and 
my doctor sent me for a chest X-ray. The radiologist made an initial 
diagnosis of obstructive lung disease. My doctor said that such a 
diagnosis was not uncommon in tall people, and that in any case she 
would not recommend a pulmonary function test because there would be 
little to be done about it anyway. She prescribed Mucinex for the 
mucous in my chest, and it helped.
    After that, when I got a cold or sniffle, I often got bronchitis. 
To keep it in control, I worked hard to build my immune system, with 
success.
    However, that was of no avail last December when an uncontrolled 
construction dust situation in our building (an 1875 tenement building 
with lathe and plaster, not wall board) triggered an abrupt attack of 
the bronchitis, sinusitis, and aching chest, which rapidly developed 
into respiratory illness.
    This time I was able to go to the Bellevue World Trade Center 
Environmental Health Center, was given a pulmonary function test and 
relevant lab and other tests. I was impressed with the staff and with 
the facility itself. I was grateful finally to be evaluated by this 
``center of excellence,'' experienced in 9/11 exposures, their 
symptoms, consequences, and treatment.
    The unique experience of these centers seems to me necessary if the 
consequences of 9/11 exposures are to be properly addressed and their 
cascading health consequences prevented.
   Prepared Statement of Joan Reibman, M.D., Associate Professor of 
  Medicine and Environmental Medicine; Director, NYU/Bellevue Asthma 
   Center; Medical Director of Health and Hospitals Corporation, WTC 
                      Environmental Health Center
    Good morning, Chairman Harkin, Ranking Member Enzi, members of the 
committee. My name is Joan Reibman, and I am an associate professor of 
Medicine and Environmental Medicine at New York University School of 
Medicine, Medical Director of the WTC Environmental Health Center, and 
an Attending Physician at Bellevue Hospital, a public hospital on 27th 
Street in NYC. I am a specialist in pulmonary medicine, and for the 
past 18 years, I have directed the NYU/Bellevue Asthma Center. I am 
pleased to be able to testify today on behalf of the local workers, 
residents and students of downtown New York who were exposed to World 
Trade Center dust and fumes.
    I am very pleased to be here today to support S. 1334, the James 
Zadroga 9/11 Health & Compensation Act of 2009, which will provide 
needed long-term funding for the monitoring and treatment for those 
members of the community exposed to toxic substances as a result of the 
9/11 terror attacks. Many of these individuals, unfortunately, have 
become patients with long-term health needs related to respiratory as 
well as other physical and mental health illness.
    First, I would like to thank this committee and the members of the 
Senate who have shown their continuing and extraordinary support for 
our patients and our program, especially Senator Gillibrand and Senator 
Schumer. The efforts in Congress resulted in an RFP, which we applied 
for, and in September 2008, we were awarded funding for a 3-year 
program--$10 million each year, for 3 years.
                          populations at risk
    Our program serves, the local workers, residents and students and 
children exposed to World Trade Center dust and fumes. On the morning 
of 9/11 over 300,000 individuals were at work in the area, or in 
transit to their offices. Many were caught in the falling debris and 
the initial massive dust clouds as the buildings collapsed--these are 
the thousands whom we saw in video and still photographs coated in 
white, running for their lives. In the great outpouring of pride an 
patriotism after 9/11, many local workers returned to work 1 week 
later, the massive WTC clean-up and rescue operation still in full 
force, and not all buildings completely cleaned or decontaminated.
    As you know, Lower Manhattan is also a dense residential community; 
almost 60,000 residents of diverse racial and ethnic backgrounds live 
south of Canal St. (U.S. census data). They are economically diverse; 
some living in large public housing complexes, others in newly minted 
coops. Lower Manhattan is also an educational hub; there are over 
15,000 school children, and large numbers of university and college 
students. Some children were locked in their buildings; others were let 
out and told to run. The dust of the towers settled on streets, 
playgrounds, cars, and buildings. Dust entered apartments, schools and 
office buildings through windows, building cracks, and ventilation 
systems.
    Each of these groups had potential for exposure to the initial 
dust, the resuspended indoor and outdoor dust, and the gas and fumes 
from the fires that burned at least through December 2001.
            initial health effects in community populations
    Exposure assessments inform us as to components of the dust and 
fumes. However, the only way to really assess health risk is to study 
health effects in exposed populations. As pulmonologists in a public 
hospital, we sought to determine whether the collapse of the buildings 
posed a health hazard soon after the event. With funds from the Centers 
for Disease Control, and in collaboration with the New York State 
Department of Health, we looked at the rate of new respiratory symptoms 
in local residents after 9/11. This first such study, and the only 
study with a control population, was completed just over a year after 
9/11 and the results have been reported in three peer-reviewed 
publications (Reibman, et al. The World Trade Center residents' 
respiratory health study; new-onset respiratory symptoms and pulmonary 
function, Environ. Health Perspect. 2005; 113:406-11. Lin, et al. Upper 
respiratory symptoms and other health effects among residents living 
near the world trade center site after September 11, 2001, Am. J. 
Epidemiol. 2005; 162:499-507, Lin, et al., Reported respiratory 
symptoms and adverse home conditions after 9/11 among residents living 
near the World Trade Center. J. Asthma 2007; 44:325-32).
    We surveyed residents in buildings within 1 mile of Ground Zero, 
and, for purposes of control, other lower-risk buildings approximately 
5 miles from Ground Zero. Analysis of 2,812 individuals revealed that 
new-onset and persistent symptoms such as eye irritation, nasal 
irritation, sinus congestion, nose bleed, or headaches were reported by 
43 percent of the exposed residents, more than three times the number 
reported by control residents. An over 3-fold increase in lower 
respiratory symptoms including cough, shortness of breath, and a 6.5-
fold increase in wheeze (10.5 percent of exposed residents versus 1.6 
percent of control residents respectively) was reported. An almost two-
fold increase in unplanned medical visits and use of medications 
prescribed for asthma in the exposed residents compared to the control 
residents was also reported. Residents reporting a longer duration of 
dust or odors or multiple sources of exposure had greater risk for 
symptoms compared to those reporting shorter duration. These data have 
now been replicated and expanded with publications from the New York 
City DOHMH WTC Registry, which has monitored a cohort of over 71,000 
individuals recruited after 2003. The Registry's data document reports 
of new onset, and persistent respiratory symptoms and asthma diagnoses 
in local workers, evacuees, residents and school children, as well as 
in the responders. The data also document reports of extensive mental 
health symptoms in all populations.
    current knowledge about health effects in community populations
    After 9/11, we began to treat residents who felt they had WTC-
related illness in our Bellevue Hospital Asthma Clinic. We were then 
approached by a community coalition and together began an unfunded 
program to treat residents. We were awarded an American Red Cross 
Liberty Disaster Relief Grant in 2005 to set up a medical treatment 
program in residents and responders. A year later, we received 
additional philanthropic funding, and major funding from the city of 
New York to provide evaluation and treatment of individuals with 
potential World Trade Center-related illnesses. This program, now 
called the WTC Environmental Health Center (WTC EHC), was expanded to 
include three sites: Bellevue Hospital, Gouverneur Clinic, and Elmhurst 
Hospital. In September 2008, we received our first Federal funding 
under a grant awarded from the National Institute for Occupational 
Safety and Health (NIOSH) providing 3 years of support. We are 
extremely grateful for the city and Federal funding, but we need 
Federal support to sustain the program over the long term.
    The WTC Environmental Health Center is an interdisciplinary medical 
and mental health program that has evaluated and is treating 
approximately 4,700 patients as of June 2010. We continue to receive 
inquiries each week; whereas most come from local people, we have 
received calls from individuals living in about 23 other States. To 
enter our program, an individual has to have a medical or mental health 
complaint; we are not a screening program for asymptomatic individuals. 
To date, our patients are almost equally men and women and of diverse 
race/ethnicity. Forty-six percent are uninsured. Some have never sought 
medical care before entering the program, others have been unable to 
seek care for lack of insurance, and many have been seeing doctors for 
years since 9/11, with recurrent bronchitis, pneumonia, sinusitis, or 
unexplained shortness of breath.
    As described in our most recent article, these individuals, 
residents, local workers, as well as clean-up workers, have symptoms 
that began after 9/11 and that remain persistent at the time of 
enrollment in the program. Symptoms include persistent rhinosinusitis 
(40 percent), and asthma-like symptoms of cough (47 percent), shortness 
of breath (67 percent) or wheeze (27 percent) for which they continue 
to need care more than 7 years after 9/11 (Reibman, et al. J. 
Occupational and Environmental Medicine, May 10, 2009). One third of 
our population have lung function that is below the lower limit of 
normal; 40 percent have shortness of breath at a level that is 
consistent with significant activity limitation, 10 percent have the 
highest score on a standardized scale of breathlessness used for 
disability assessment. These are people who report that they were 
previously working and functional, and many were highly physically 
active--even training for marathons--and now require daily medication 
to allow them to walk a few city blocks. Over 40 percent of the 
population in the WTC EHC score positive for PTSD symptoms and nearly 
50 percent have complex mental health symptoms, including PTSD combined 
with depression and anxiety.
    The persistence of respiratory and mental health symptoms in WTC-
exposed resident and local worker populations is also supported by 
additional epidemiologic studies: a follow-up of our first resident 
study (Lin, et al., International J. Occupational and Environmental 
Health, 2010;16:44-52), and the most recent publication of the larger 
WTC Registry population (Brackbill, et al., Journal of the American 
Medical Association, 2009;302:502-16).
          how do we assess whether an illness is wtc-induced?
    We are often asked how we know that these people became sick from 
WTC exposures. We have no simple test to determine whether any 
individual illness is related to WTC exposure. We have epidemiologic 
data to suggest adverse health effects, but how do we apply that 
information for an individual. We assess attribution based on the 
presence of exposure, temporal sequence of symptoms, and a particular 
constellation of symptoms. Studies from all the WTC programs, most of 
which show consistent findings, provide us with the larger 
epidemiologic and picture and context that inform our daily clinical 
practice.
                what medical illnesses are we treating?
    We now believe that at this time, the most common, although not 
exclusive illnesses resulting from WTC dust and fume exposure involve 
the upper and lower respiratory tract. The respiratory abnormalities 
have varied patterns. Many patients have chronic rhinosinusitis. Most 
of our patients have irritant-induced asthma, some have unremitting 
cough. Although we can treat this, these individuals may require 
prolonged courses of inhaled corticosteroids and bronchodilators, 
sometimes even oral steroids. Many will require these medications for 
years, if not for life. Others show a process in their lungs that may 
consist of a type of inflammation, a granulomatous process that is like 
an illness called sarcoid. Others have lung diseases that affect not 
only their airways, or breathing tubes, but also the air sacs that 
allow for the exchange of oxygen and carbon dioxide. Some have 
pulmonary fibrosis, characterized as scarring or permanent damage in 
the lungs, and have received, or are awaiting lung transplants.
               how many people in the community are sick?
    We are asked this question repeatedly. We are asked this for health 
information, for budgetary reasons, and for planning issues. We cannot 
answer the question. Our program consists of a self-referred 
population, and so we cannot determine the prevalence of illness in the 
community. Unfortunately, there was no government-sponsored screening 
program for community members in the immediate aftermath of the 
disaster. We are therefore faced with the nagging question of how many 
people are ill. The best information that we can avail ourselves of 
comes from the NYCDOHMH WTC Registry. Estimates of burden of illness 
derived from this program suggest that 3,000 to 9,000 adult community 
members (residents, building occupants, people in transit) have 
developed new onset asthma and 38,000 have developed PTSD (Farfel, et 
al. J. Urban Health 2008; 85: 880). Perhaps this is one of the most 
important lessons we can learn for the future. All potentially exposed 
communities need to be screened if there is a potential risk of adverse 
health effects. If that system had been put in place, we might be 
better able to answer this burning question.
               why are some people sick, and others not?
    The level and type of exposure clearly plays a role in determining 
who will or has become ill. We continue to learn about this from 
ongoing studies. However, there is also a role for individual 
susceptibility. This is similar to tobacco-induced disease: some 
smokers remain healthy, while for others, tobacco causes lung disease, 
cancer, and heart disease. Only through the existence of long-term 
Centers of Excellence will there ever be sufficient data collected to 
attack such medical puzzles.
                 will there be late emergent diseases?
    This is of course the question at the back of everyone's mind. Will 
there be a high rate of cancers in the adult community, will children 
with early life exposure have long-term effects, including cancers. We 
just completed a 2-day meeting with many outside cancer epidemiology 
experts to discuss the best way to examine this question. Without long-
term Centers of Excellence, including Centers that treat community 
members, and without funding for this research, we will never have 
answers.
why do we need s. 1334, the james zadroga 9/11 health and compensation 
                                  act?
    Many peer-reviewed published articles as well as our clinical 
experience, report that large numbers of community members--residents, 
students and local workers were subject to environmental exposures on a 
large and unprecedented scale and that these exposures had measurable 
medical consequences. We now know that all these years later, these 
men, women and children have persistent symptoms and will require 
continued evaluation, treatment, and monitoring for years to come.
    The bill before this committee today provides much-needed long-term 
stability for our program and for our patients. The bill provides long-
term, sustained funding to monitor and treat those who are sick or who 
could become sick because of exposures related to the 9/11 attacks, and 
it funds critical research so that we can understand the long-term 
health impacts of the terrorist attacks. Importantly, the bill includes 
Federal funding to provide long-term monitoring and treatment for 
residents, area workers and community members. The WTC Environmental 
Health Center at the city's Health and Hospitals Corporation is the 
only Center for treatment of this community.
    Support for the WTC Environmental Health Center has been provided 
through philanthropy and New York City, with Federal funds available 
only for the last 2 fiscal years. The short term and uncertain funding 
stream makes fiscal planning difficult and prevents continuity of care, 
the hallmark of quality care for chronic conditions.
    The bill takes care to define eligibility for the community 
program. There are specific geographic areas that people must have 
lived, worked, or attended school in on September 11 or within a 
defined time-period to be eligible for treatment. These boundaries 
reflect the best data currently available, but we also recognize that 
we do not know the full extent of the health impacts of the disaster.
    People who meet these criteria are ``eligible'' for treatment. 
Eligibility is again reviewed by a doctor with experience treating WTC-
related conditions. Using standardized questionnaires and a medical 
assessment, health professionals determine whether or not a patient is 
eligible for federally reimbursed treatment; and even then, that 
decision is subject to review and certification by the Federal WTC 
administrator. These are tough standards but ensure that only those who 
are sick because of 9/11-related exposures will be treated under the 
WTC health program.
    The bill caps the number of responders and community members who 
can get monitoring or treatment and that can newly enter the federally 
supported community program. The bill sets that number at 15,000 
maximum along with the 4,700 current patients. Again, these limitations 
are based on the best available information about how many people could 
potentially seek treatment, and while we think they will be sufficient 
to provide treatment to anyone who may need it, there are reporting 
requirements in the bill so that Congress will be told if those caps 
are approached.
    The bill also mandates the establishment of Quality Assurance and 
Fraud Prevention programs to prevent funds from being used for any 
purpose other than to monitor and treat those affected by the 9/11 
attacks. The city also has its own incentives to contain costs because 
the city has agreed to be responsible for paying a percentage of the 
cost to treat anyone treated at a WTC Environmental Health Center 
serving the community members. Finally, the Federal program will be 
secondary payor to both Workers Compensation payments and to applicable 
health insurance available to an eligible community member with a WTC-
related condition. The program will provide a safety net for 
individuals who have inadequate insurance, or who do not have health 
insurance.
    Research on diseases related to the 9/11 attacks is essential. The 
bill ensures that critical 9/11-related research continues. Long-term 
research is the only way that we're going to be able to develop a full 
understanding of the health impacts of 
9/11. The Centers of Excellence have all contributed to research 
efforts. The research funded in the bill will make it possible for both 
patients and clinicians to have the necessary information to make 
informed decisions about health treatment and to make available the 
best science to determine what conditions qualify for treatment under 
this bill.
    We need the full and predictable sources of Federal funding which 
this bill provides. I urge you to support this bill to help us ensure 
first-rate care for all of those who desperately need it.
    I thank you for the opportunity to submit testimony today.
    Pertinent funding to Joan Reibman, M.D.:

    2001-02: CDC, World Trade Center Residents Respiratory Survey 
(Institutional P.I, Lin P.I.)
    2001-03: NIH, NIEHS, World Trade Center Residents Respiratory 
Impact Study: Physiologic/Pathologic characterization of residents with 
respiratory complaints (P.I.)
    2004-05: CDC, NIOSH WTC Worker and Volunteer Medical Monitoring 
Program (P.I.)
    2005-2007: American Red Cross Liberty Disaster Relief Fund (P.I.)
    2006-011: New York City funding for WTC Environmental Health Center 
(Linda Curtis, Bellevue Hospital, PI)
    2008-2011: CDC, NIOSH World Trade Center Non-Responder Program, New 
York City Health and Hospitals Corporation
Response to Questions of Senator Enzi, Senator Dodd, Senator Casey, and 
                  Senator Franken by John Howard, M.D.
                              senator enzi
    In your verbal testimony, you indicated that, beginning in 2004, 
NIOSH installed procedures to account for how 9/11 health funds were 
spent.
    Question 1a.  Please provide a copy of each version of those 
procedures, and identify their respective effective dates.
    Answer 1a. Beginning in 2004, NIOSH implemented the World Trade 
Center (WTC) Responder Health Consortium program by announcing a 
Request for Applications (see Attachment 1) and awarding eight 
cooperative agreements to support six Clinical Centers and two Data 
Centers. Appropriate procedures to account for expenditure of funds 
were put in place for these awards by placing requirements in the award 
documents (see Attachment 2), which included standard procedures for 
submitting annual progress reports, plans for the next year with a 
budget request, Financial Status Reports that are due 90 days after the 
end of the budget year, and Cash Transaction Reports that are due 45 
days after the end of each Federal fiscal year. There are also 
references in item 8 of Attachment 2 to OMB administrative guidelines, 
HHS Grant Administration Regulations at 45 CFR part 74 and 92, and 
other HHS, PHS, CDC and NIOSH grant administration policy statements, 
which the grantees agreed to comply with as a condition of their 
awards.
    Beginning in 2007, the program was authorized to provide funding 
for the treatment of WTC-related health conditions detected through the 
screening and monitoring exams, and NIOSH added requirements to the 
Notices of Award to implement quarterly reporting of information on 
responders participating in the program (see Attachment 3). After 
discussions between NIOSH and the Consortium members, quarterly reports 
were adopted to provide more information to NIOSH on the number of 
participants and the overall costs of the monitoring and treatment 
components (see Attachments 4 and 5, respectively), which were used to 
evaluate the status of the program.

    Question 1b. Please provide a copy of each cooperative agreement, 
grant, contract or other like instrument between NIOSH and any grantee, 
vendor or other counterparty regarding 9/11 health matters.
    Answer 1b. The latest award documents establish the current 
relationships between NIOSH and all of the components of the WTC 
Program (see Attachment 6).

    Question 1c. Please indicate when Mt. Sinai or another party acted 
as a subgrantor, provide copies of subgrant procedures and agreements, 
and identify their respective effective dates.
    Answer 1c. The Mount Sinai School of Medicine funded the National 
Responder Monitoring Program through a subcontract, within their grant 
budget, from 2005 to 2008. Mount Sinai was responsible for providing 
monitoring services for responders outside of the NY-NJ metropolitan 
area and issued contracts to several clinics and to QTC, Inc. to 
conduct the monitoring exams. Mount Sinai used their institutional 
procedures to establish those contracts, which were required to be in 
compliance with the standard award provisions mentioned in the answer 
to question 1a.

    Question 1d. Please identify and provide contact information for 
the NIOSH employees responsible for administering the procedures and 
agreements.
    Answer 1d. Kelley Durst, MPA, Associate Director for Planning & 
Performance, National Institute for Occupational Safety and Health, 
Centers for Disease Control and Prevention, 1600 Clifton Road, NE, 
Atlanta, GA 30333; Mailstop: E-20; Phone: 404-498-2500; Fax: 404-498-
2573; Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5eee1d0d7d6d1e5c6c1c68bc2cad38b">[email&#160;protected]</a>

    Question 1e. Please identify and provide contact information for 
all grantee, vendor or other counterparty employees responsible for 
administering the procedures and agreements.
    Answer 1e. Contact information for Principal Investigators of the 
grants and the Project Manager of the contract is provided in 
Attachment 7.

    Question 1f. Please provide a detailed breakdown of how the $475 
million appropriated to NIOSH for 9/11 health purposes was spent. If 
you cannot provide a complete answer, please explain each information 
gap, and furnish as complete an answer as you can.
    Answer 1f. Awards for 9/11 health purposes, plus Federal operating 
costs, account for $461 million of the $476 million appropriated, as 
shown in the attached table (see Attachment 8). The remaining $15 
million is unobligated and is available to provide supplemental funds 
to the awards if needed to ensure that the planned objectives are met 
and to cover potential cost increases of patient care. Unobligated 
funds that remain at the end of fiscal year 2010 will be carried over 
to fiscal year 2011.

    Question 2. Please provide a detailed breakdown by grantee or 
vendor of sums that the NIOSH program has recouped from workers 
compensation, disability, private health insurance, public entitlement 
programs and other benefit delivery systems.
    Answer 2. To date, three of the Clinical Centers have recouped a 
total of $136,220 funds from workers compensation as shown in the table 
below. The Community Program has filed claims for recouping funds from 
private health insurance companies, but no funds have yet been reported 
to NIOSH.


------------------------------------------------------------------------
                     Institution                        Recouped Amount
------------------------------------------------------------------------
Mount Sinai School of Medicine.......................           $127,386
City University of New York (Queens).................             $5,812
State University of New York (Stony Brook)...........             $3,022
                                                      ------------------
    Total............................................           $136,220
------------------------------------------------------------------------


    Question 3. Please list all lung transplants and other high-cost 
inpatient procedures performed within the NIOSH program since 2002.
    Answer 3. Two FDNY responders have received lung transplants. No 
other procedures of that high cost have been performed in the program, 
but there have been numerous lower cost inpatient procedures for both 
physical and mental health conditions.

    Question 4. Please list how many patients are being treated for 
what type of 9/11-related conditions within the NIOSH program now. For 
each common condition, please identify the usual treatment regimen and 
itemize the regimen's costs. Please explain whether there are any 
specialized treatments that only the Centers for Excellence can 
provide.
    Answer 4. The number of responders who were treated for 9/11-
related conditions within the past year are displayed in the table 
below. The number of total patients is greater than the sum of the 
patients in the health condition categories because many responders 
have more than one type of health condition. Similar types of health 
conditions have been observed among the 2,629 patients who were treated 
in the Community Program within the past year. No data are currently 
available on the costs associated with these categories because that 
level of detail on cost information was not required as part of the 
quarterly reports. However, starting this year, the grantees have 
agreed to begin developing systems to provide that type of information 
by next year.

 Number of Responders in Treatment from April 1, 2009 to March 31, 2010
------------------------------------------------------------------------
              Health Condition Category
------------------------------------------------------------------------
Upper Airway.........................................              7,201
Lower Airway.........................................              6,592
Gastrointestinal.....................................              6,258
Musculoskeletal......................................              1,009
Mental Health........................................              4,601
                                                      ------------------
    Total Patients...................................             13,260
------------------------------------------------------------------------

    The special aspect of the Centers of Excellence is that they have a 
unique group of doctors who have gained a tremendous amount of 
experience by serving a group of patients who had an unprecedented 
exposure. The doctors understand the needs and concerns of this group 
and are able to work collaboratively in teams to provide more 
comprehensive services, which increases the likelihood of improving the 
health of responders because they know what to do and what not to do. 
Below is a list of the main features of Centers of Excellence.

    <bullet> Utilize an integrated, centralized-provider approach 
instead of a multiple, separate-provider approach to create a 
comprehensive suite of health services to an assembled cohort of 
responders.
    <bullet> Conduct specialized physical and mental health assessments 
designed to identify acute and emergent morbidities associated with the 
unprecedented exposure from the WTC 9/11 attack.
    <bullet> Use scientifically guided treatment approaches to address 
the complex synergy between physical and mental health diseases that 
are exhibited by WTC responders and others affected by the 9/11 
attacks.
    <bullet> Maintain electronic linkage with a Data Center to enable a 
systematic collection of high-quality data for disease tracking and 
surveillance system, analyzing and interpreting the findings, and 
integrating the information into the monitoring and treatment program 
activities.
    <bullet> Communicate with patients in numerous languages.
    <bullet> Assist with workers' compensation, insurance, pension and 
disability claims.
                              senator dodd
    Question 1. How many residents of CT are participating in the WTC 
National Responder Health Program to monitor and treat responders 
outside of the NYC metropolitan area? Can you provide the committee 
with State-by-State data of participants?
    Answer 1. As of June 2010, out of over 4,000 responders who are 
enrolled in the National Program, 3,279 are currently participating and 
the distribution of these responders by State is given in Attachment 9. 
There are 40 responders from Connecticut who are participating.

    Question 2. How many participants in the WTC Response Program are 
children?
    Answer 2. No children are enrolled in the WTC Responder Program, 53 
are enrolled in the WTC Community Program, and nearly 3,000 children 
and adolescents participated in the baseline survey of the WTC Health 
Registry.

    Question 3. It is my understanding that there are very small 
numbers of children receiving treatment or monitoring the national 
program or at the Centers of Excellence in New York. Why is that? What 
is being done to track longitudinally the physical, and in particular 
the mental health of children who were at Ground Zero or affected by 
the loss of a loved one because of 9/11? Why has so little research 
been done on children?
    Answer 3. In an effort to promote the pediatric services offered at 
the WTC Environmental Health Center (EHC) in New York City (the lead 
Center in the Community Program), the WTC Health Registry has sent 
information about these services to all of its enrollees. In addition, 
the WTC EHC and the NYC Department of Health and Mental Hygiene 
recently sent information about how to get care for 
9/11-related pediatric care to more than 15,000 downtown parents. The 
WTC EHC provides possible reasons (see below) to explain why so few 
parents of WTC-exposed children have enrolled them in 9/11-specific 
health care program of the WTC EHC, despite extensive outreach efforts.

    <bullet> The WTC EHC is the only program that is able to treat 
children affected by the collapse of the World Trade Center towers. The 
six Centers of Excellence in New York (Fire Department of New York, 
Mount Sinai School of Medicine, State University of New York at Stony 
Brook, City University of New York at Queens, New York University at 
Bellevue, and University of Medicine and Dentistry of New Jersey) and 
the National Program focus on adult rescue workers and responders and 
were developed from occupational clinics for adults.
    <bullet> Parents with private health insurance may prefer to 
initiate or continue their children's care with a community 
pediatrician. It may be that children eligible and in need of WTC EHC 
services are far more likely to be insured than adults would be. Having 
insurance means that the child is likely to be under the continuing 
care of a local pediatric provider--be that a pediatrician, child 
health clinic, school health clinic, or a community health center. Many 
of these pediatric providers may not recognize the presence of a WTC-
related illness in their patients. As such, the provider does not see 
the benefit of referring the child to the WTC EHC.
    <bullet> In the months and years following 9/11, many families 
moved out of Lower Manhattan. Children in schools may have transferred 
or graduated. Identifying and locating these children is challenging.

    The World Trade Center Health Registry enrolled nearly 3,000 
children and adolescents under the age 18 in its 2003-4 baseline 
survey. Findings from the survey were reported in the following 
publication: Thomas PA, Brackbill R, Thalji L, DiGrande L, Campolucci 
S, et al., Respiratory and Other Health Effects Reported in Children 
Exposed to the World Trade Center Disaster of 11 September 2001. 
Environ Health Perspectives 2008; 116:10. The investigators reported 
that half (53 percent) of the children had at least one new or worsened 
respiratory symptom at some time after 9/11, including shortness of 
breath, cough, sinus problems, throat irritation, or wheezing (5.7 
percent has new asthma diagnoses). Additionally, eye irritation or eye 
injury on 9/11 was reported in 22 percent of children, and injuries 
(sprains, lacerations, burns, broken bones, or concussions) were 
reported for 3 percent. In 2008 the Registry completed its second 
survey of the physical and mental health conditions among 2,000 
children and adolescents who remained under age 18; analysis is 
currently underway. The Registry plans a third survey of children and 
adolescents in 2011.
    There are several barriers to conducting research among children, 
including:

    <bullet> In order to do research on children, parental consent 
would have to be granted. Parents want to protect their children from 
further harm by excluding them from research studies. Parents want 
their children to move past 9/11.
    <bullet> Parents believe their children are healthy and therefore 
there is no reason for them to participate in studies.
    <bullet> Several schools refused to participate in the study, not 
wanting to perpetuate the focus of 9/11.
                             senator casey
    Question. How have the 9/11 World Trade Center programs in 
existence helped to track, and provide care for, children and youth who 
were affected that day? What sort of long-term commitment needs to be 
made to understand how children and youth have been impacted; how do 
the 9/11 programs discussed today help to do that?
    Answer. The WTC Environmental Health Center (EHC) in the Community 
Program has a pediatric component dedicated to the assessment and 
treatment of WTC-related conditions in children and adolescents. 
Children who enroll in the EHC program enter it as a treatment patient. 
That is, the child has a WTC-related medical, developmental, and/or 
mental health problem requiring treatment. All new pediatric patients 
undergo an initial medical and mental health screening, which is 
different from the adult program because it is enhanced to include 
pediatric needs. The EHC offers a wide range of pediatric services 
including assessment and care by a pediatrician with WTC expertise, a 
pediatric pulmonologist, or a developmental pediatrician. In addition, 
children can undergo psychotherapy or psychopharmacologic evaluation 
and treatment, as needed, with pediatric psychologists or 
psychiatrists. The recruitment of specialists with these skills who are 
able to work together in a coordinated manner is a major advantage to 
treatment. The EHC also offers art therapy and child life services to 
pediatric patients.
    Because there were so many unknowns in the pediatric population, 
the EHC expanded their inclusion criteria to include children whose 
mothers were pregnant during the above-referenced time period. Also 
included are children of sickened responders/rescue workers and/or 
children who lost a parent, both parents, or other custodial care taker 
on 9/11. Although the WTC EHC offers a comprehensive program that 
includes medical treatment, mental health and developmental treatment 
programs, there has been a low response to date. However, as news of 
the program spreads and local pediatricians gain trust in the program, 
it is anticipated that the program will continue to grow.
    The WTC Health Registry does not provide direct healthcare 
services, but the Registry does the following activities related to 
children: (1) routinely surveys the health of children and adolescents 
enrolled in the Registry to determine if changes in their health may be 
attributable to 9/11; (2) disseminates its health findings and 
recommendations to enrollees, and to the public and policymakers; (3) 
informs enrollees of 9/11-related services, resources and health 
promotion programs; (4) develops and provides data resources for, and 
responds to inquiries from, enrollees and the public; and (5) developed 
and disseminated Clinical Guidelines for Children and Adolescents 
Exposed to the World Trade Center Disaster to physicians and parents in 
New York City and to college health centers throughout the Northeast.
                            senator franken
    Question. Dr. Howard, in your testimony, you discuss the mental 
health needs of survivors of the 9/11 tragedy, noting that the effects 
can linger for years. What type of mental health infrastructure do we 
need to have in place to respond appropriately to the acute and long-
term effects of such events?
    Answer. CDC/NIOSH is committed to providing programs and services 
to help meet the on-going and long-term health needs of those directly 
exposed to smoke, dust, debris and psychological trauma in the 
September 11, 2001 WTC attacks. NIOSH currently addresses the 
psychological trauma and mental health needs of program participants 
via the WTC Health Program, NYC Police Foundation's Project COPE and 
the Police Organization Provided Peer Assistance (POPPA).

    <bullet> The WTC Program provides monitoring and treatment for both 
physical and mental health conditions attributed to WTC exposures and 
embraces a comprehensive model to address the issues that influence 
long-term recovery of those affected by this disaster. The WTC Clinical 
Centers work to identify program participants who are suspected of 
having mental health conditions related to WTC exposures and intervene 
as early as possible to minimize adverse health impacts over time. 
Program participants complete standardized mental health symptom 
surveys as part of their (annual) medical monitoring exam process. The 
surveys are scored and reviewed by health care staff and used to guide 
decisions about further mental health evaluation or referral for mental 
health treatment services. A program participant may also be referred 
for mental health treatment services as part of the treatment program, 
should such health complaints or requests be presented to the program 
provider (physician, nurse or social worker). The WTC Program gathers 
information to describe the rates and trends of conditions experienced 
by program participants. Analysis of individual case reports, data from 
monitoring programs and the WTC Health Registry report that certain 
mental health conditions are cited consistently: anxiety, depression or 
post-traumatic stress disorder (PTSD).
    <bullet> The NYC Police Foundation's Project COPE and the Police 
Organization Provided Peer Assistance (POPPA) also provide mental 
health services, such as counseling and support groups, to the police 
responder population.

    NIOSH and CDC recognize that mental health conditions can be 
persistent in a small percentage of the WTC Health Program cohort, and 
may require long-term monitoring and treatment.
                          list of attachments
    1. Request for Applications for the World Trade Center Responder 
Health Consortium in fiscal year 2004
    2. Terms and Conditions for procedures in the first-year awards for 
six Clinical Centers and two Data Centers
    3. Additional Terms and Conditions that established Quarterly 
Reporting
    4. Quarterly Monitoring Report
    5. Quarterly Treatment Report
    6. Award documents for all current components of the WTC Program: 
NYC Responders, National Responders, NYC Community members, and WTC 
Health Registry
    7. Contacts for each cooperative agreement, grant, and contract 
that make up the WTC Program
    8. Table of funds spent by fiscal year for each cooperative 
agreement, grant, and contract that make up the WTC Program
    9. Table of participants by State in the National Responder Health 
Program
                                 ______
                                 
                            Attachments \1\
---------------------------------------------------------------------------
    \1\ [Editor's Note: Due to the high cost of printing, previously 
published materials will not be reprinted in the hearing record. Please 
refer to the Web site provided to access those documents.]
---------------------------------------------------------------------------
  Attachment 1.--Request for Applications for the World Trade Center 
     Responder Health Consortium in fiscal year 2004 [See: http://
          grants.nih.gov/grants/rfa-files/RFA-OH-04-004.html.]
  Attachment 2.--Cooperative Agreement Terms and Conditions of Award 
                            for 2004 to 2009
    The cooperative agreement is an award instrument establishing an 
``assistance'' relationship (in contrast to an ``acquisition'' 
relationship) between NIOSH and a recipient, in which substantial NIOSH 
scientific and/or programmatic involvement with the recipient is 
anticipated during performance of the activity. The purpose of NIOSH 
involvement is to support and/or stimulate the recipient's activity by 
acting as a ``partner'', while avoiding a dominant role, direction, or 
prime responsibility. The terms and conditions below, elaborate on 
these actions and responsibilities, and the awardee agrees to these 
collaborative actions with the NIOSH Scientific Program Administrator 
to achieve the project objectives. It is anticipated that these terms 
and conditions will enhance the relationship between the NIOSH staff 
and the principal investigator(s), and will facilitate the successful 
conduct and completion of the study. These agreements will be in 
addition to, and not in lieu of, the relevant NIOSH procedures for 
grants administration.
    1. The awardee(s) will have lead responsibilities in all aspects of 
the study, including any modification of study design, conduct of the 
study, quality control, data analysis and interpretation, preparation 
of publications, and collaboration with other investigators, unless 
otherwise provided for in these terms or by action of the Steering 
Committee.
    2. The NIOSH Scientific Program Administrator will serve on the 
Steering Committee as non-voting members; he/she or other NIOSH 
scientists may serve on other study committees, when appropriate, but 
if other NIOSH scientists are identified, they will also be non-voting 
members. The NIOSH Scientific Program Administrator (and other NIOSH 
scientists) may work with awardees on issues coming before the Steering 
Committee and, as appropriate, other committees, e.g., recruitment, 
intervention, follow-up, quality control, adherence to protocol, 
assessment of problems affecting the study and possible changes in 
protocol, interim data and safety monitoring, final data analysis and 
interpretation, preparation of publications, and development of 
solutions to major problems such as insufficient participant 
enrollment.
    3. Awardee(s) agree to the governance of the study through a 
Steering Committee. Steering Committee voting membership shall consist 
of the Principal Investigators (i.e., cooperative agreement awardees), 
and the Chairperson. Meetings of the Steering Committee will ordinarily 
be held by telephone conference call or in the metropolitan New York 
Area.
    4. Awardees will retain custody of and have primary rights to their 
data consistent with current HHS, PHS, and NIOSH policies. The 
collaborative protocol and governance policies will call for the 
continued submission of data centrally to the coordinating centers for 
collaborative databases, one for the firefighter and one for the other 
responder cohort; the submittal of copies of the collaborative datasets 
to each principal investigator upon completion of the study; procedures 
for data analysis, reporting and publication; and procedures to protect 
and ensure the privacy of medical and genetic data and records of 
individuals. The NIOSH Scientific Program Administrator on behalf of 
NIOSH, will have the same access, privileges and responsibilities 
regarding the collaborative data as the other members of the Steering 
Committee.
    5. Awardees are encouraged to publish and to publicly release and 
disseminate results, data and other products of the study, concordant 
with study protocols and governance, and the approved plan for making 
data and materials available to the scientific community and to NIOSH.
    6. The NIOSH reserves the right to terminate or curtail the study 
(or an individual award) in the event of (a) failure to develop or 
implement a mutually agreeable collaborative protocol, (b) substantial 
shortfall in participant recruitment, follow-up, data reporting, or 
quality control, (c) major breach of the protocol or substantive 
changes in the agreed-upon protocol with which NIOSH cannot concur, or 
(d) human subject ethical issues that may dictate a premature 
termination.
    7. Payment for health screenings will be based on an email from the 
Data and Coordinating Center, DCC approving the submitted data. These 
emails must be retained for the annual audit of the health screenings 
charges and must be maintained for the annual audit review. No other 
documentation shall be required to justify the health screening 
charges.
    8. These special terms of award are in addition to and not in lieu 
of otherwise applicable OMB administrative guidelines, HHS Grant 
Administration Regulations at 45 CFR part 74 and 92, and other HHS, 
PHS, CDC and NIOSH grant administration policy statements.
Attachment 3.--Additional Cooperative Agreement Terms and Conditions of 
                         Award for 2007 to 2009
    Additionally, the Reporting Requirements have been augmented as 
follows:

    Principal investigators for this program are required to provide a 
quarterly report on patient and conditions. The report shall be 
submitted to the Data and Coordination Center (DCC) and the Center for 
Disease Control (CDC), Grants Management Office, noted below. The 
content of the report will be defined by the DCC and NIOSH no later 
than close of business Tuesday, November 14, 2006. The report due dates 
are as follows:

    Due Date: February 1, 2007
    Covering the period: October, November, and December

    Due Date: May 1, 2007
    Covering the period: January, February, and March

    Due Date: August 1, 2007
    Covering the period: April, May and June,

    Due Date: November 1, 2007
    Covering the period: July, August, and September
               Attachment 4.--Quarterly Monitoring Report

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               Attachment 5.--Quarterly Treatment Report

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Attachment 6.--Award Documents for All Current Components of the WTC 
 Program: NYC Responders, National Responders, NYC Community Members, 
                      and WTC Health Registry \2\
---------------------------------------------------------------------------
    \2\ [Editor's Note: Due to the volume of documents submitted with 
this attachment and the high cost of printing these documents were not 
printed in the record, but are maintained in the committee files.]
---------------------------------------------------------------------------
  Attachment 7.--Contacts for the Cooperative Agreements, Grant, and 
                 Contract That Make Up the WTC Program

                             Senator Enzi: 1-e, Grantee/Contract Contact Information
----------------------------------------------------------------------------------------------------------------
                                                                                 Principal
       Grantee/Contractor               Program              Address           Investigator/        Telephone
                                                                                  Contact
----------------------------------------------------------------------------------------------------------------
Fire Dept. City of New York.....  Clinic Center......  Office of Medical    Kelly, Kerry J.
                                                        Affairs, Rm. 2-E4,  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a8a6afafbaa8a983a5a7adbaedadbaa0eda4ac">[email&#160;protected]</a>    718-999-1933.
                                                        9 Metrotech          v.
                                                        Center, Brooklyn,
                                                        NY 11201.
Fire Dept. City of New York.....  Data Center........  Office of Medical    Prezant, David J.
                                                        Affairs, Rm. 4W-1,  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0b0b2a5baa1aea480a6a4aeb9eeaeb9a3eea7af">[email&#160;protected]</a>    718-999-2696.
                                                        9 Metrotech          v.
                                                        Center, Brooklyn,
                                                        NY 11201.
Mount Sinai School of Medicine..  Clinic Center......  One Gustave L. Levy  Crane, Michael
                                                        Place, Box # 1057,  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1855717b70797d74367b6a79767d58756b6b7536">[email&#160;protected]</a>    212-808-7625.
                                                        New York, NY 10029-  edu.
                                                        6574.
Mount Sinai School of Medicine..  Data Center........  One Gustave L. Levy  Landrigan, Philip,
                                                        Place, Box # 1057,  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="75251d1c195b19141b11071c12141b3518060618">[email&#160;protected]</a>    212-824-7018.
                                                        New York, NY 10029-  .edu.
                                                        6574.
Research Foundation at SUNY,      Clinic Center......  W. 5510 Melville     Luft, Benjamin J.
 Stony Brook.                                           Library, Stony      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7f5dbc2d1c3f7d9d8c3d2c499d4d499c4c2d9ce">[email&#160;protected]</a>    631-444-8219.
                                                        Brook, NY 11794-     sb.edu.
                                                        3362.
UMDNJ--Robert Wood Johnson        Clinic Center......  170 Frelinghuysen    Udasin, Iris G.         732-445-0123
 Medical School.                                        Road, Room 115,     <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1d4d2c0d2c8cfe1c4cec9d2c88fd3d4d5c6c4d3">[email&#160;protected]</a>           x 612.
                                                        Piscataway, NJ       s.edu.
                                                        08854.
Queens College of CUNY..........  Clinic Center......  230 W. 41st Street,  Markowitz, Steven
                                                        New, York 10036.     B.                    718-670-4184.
                                                                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f5869894879e9a829c818fb58496db96809b8cdb">[email&#160;protected]</a>
                                                                             edu.
New York University Medical       Clinic Center......  550 First Ave., New  Harrison, Denise
 Center, Bellevue.                                      York, NY 10016.      Joy                   212-562-4572.
                                                                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1551707b7c66703b7d7467677c667a7b557b6c60">[email&#160;protected]</a>
                                                                             mc.org.
Logistics Health Incorporated     National responder   328 Front Street     Sarah Parins            866-284-8788
 (LHI).                            Contract.            South, La Crosse,   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbc8cbdac9d2d5c8fbd7d4dcd2c8cfd2d8c8d3de">[email&#160;protected]</a>          x 1116.
                                                        WI 54601.            alth.com.
POPPA, INC......................  Police Resiliency    26 Broadway, Rm.     Genet, William W.
                                   Support Program.     1640, New York, NY  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680509180a01040428090704460b070546464646">[email&#160;protected]</a>    212-298-9111.
                                                        10004.
NY City Police FDN, INC.........  Project COPE.......  345 Park Ave., New   Roberts, Gregg          212-751-8170
                                                        York, NY 10154.     <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180d101d1a0d0b0c3f11061c0f1013161c1a19">[email&#160;protected]</a>            x-11.
                                                                             oundation.org.
NYC Dept of Health and Mental     Registry...........  125 Worth Street,    Farfel, Mark R.
 Hygiene.                                               RM 623 CNR, New     <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="137e75726175767f537b76727f677b3d7d6a703d">[email&#160;protected]</a>     212-442-2401
                                                        York, NY 10013.      gov.
NYC Health and Hospitals Corp...  Community Program..  125 Worth Street,    Reibman, Joan
                                                        Room 514, New       <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4fedbd5da9ac6d1ddd6d9d5daf4dacdc1d9d79a">[email&#160;protected]</a>    212-263-6479.
                                                        York, NY 10013.      org.
----------------------------------------------------------------------------------------------------------------

Attachment 8.--Table of funds spent by fiscal year for each cooperative 
      agreement, grant, and contract that make up the WTC Program

                                         WTC Awards & Program Operations
----------------------------------------------------------------------------------------------------------------
               Grantee                       Fiscal Year               Obligated               Expenditures
----------------------------------------------------------------------------------------------------------------
Fire Department of NYC (CC)
                                       FY04...................               $3,574,116               $3,574,116
                                       FY05...................                3,591,898                3,591,898
                                       FY06...................                5,110,214                5,110,214
                                       FY07...................                3,629,079                3,629,079
                                       FY08...................                5,631,557                5,631,557
                                       FY09...................               39,616,678               25,513,854
                                       FY10...................               29,436,738                        -
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $90,590,280              $47,050,718
----------------------------------------------------------------------------------------------------------------
Fire Department of NYC (DCC)
                                       FY04...................               $1,229,874               $1,229,874
                                       FY05...................                1,133,923                1,133,923
                                       FY06...................                1,165,716                1,165,716
                                       FY07...................               14,232,731               14,232,731
                                       FY09...................                4,851,185                1,981,119
                                       FY10...................                3,313,199
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $25,926,628              $19,743,363
----------------------------------------------------------------------------------------------------------------
Mount Sinai School of Medicine (CC)
                                       FY04...................               $5,225,000               $5,225,000
                                       FY05...................                4,924,647                4,924,647
                                       FY06...................                6,001,477                6,001,477
                                       FY07...................               22,256,212               22,256,212
                                       FY08...................               24,000,000               24,000,000
                                       FY09...................               40,494,173               22,664,296
                                       FY10...................               30,608,606
----------------------------------------------------------------------------------------------------------------
    Total............................                                      $133,510,115              $85,071,632
----------------------------------------------------------------------------------------------------------------
Mount Sinai School of Medicine (DCC)
                                       FY04...................               $3,525,414               $3,525,414
                                       FY05...................                3,778,242                3,778,242
                                       FY06...................                3,923,973                3,923,973
                                       FY07...................                3,974,515                3,974,515
                                       FY08...................                6,099,937                6,099,937
                                       FY09...................                5,100,000                3,067,675
                                       FY10...................                6,850,861
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $33,252,942              $24,369,756
----------------------------------------------------------------------------------------------------------------
Research Foundation of Stony Brook
                                       FY04...................               $1,300,000               $1,300,000
                                       FY05...................                1,200,001                1,200,001
                                       FY06...................                1,200,000                1,200,000
                                       FY07...................                3,720,794                3,720,794
                                       FY08...................               11,421,282               11,421,282
                                       FY09...................                6,744,826                2,980,323
                                       FY10...................               11,806,362
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $37,393,265              $21,822,400
----------------------------------------------------------------------------------------------------------------
UMDNJ--Robert Wood Johnson Med.
 School
                                       FY04...................                 $422,125                 $422,125
                                       FY05...................                  383,250                  383,250
                                       FY06...................                  383,250                  383,250
                                       FY07...................                1,872,807                1,872,807
                                       FY08...................                2,960,987                2,960,987
                                       FY09...................                2,326,807                1,744,029
                                       FY10...................                3,146,697
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $11,495,923               $7,766,448
----------------------------------------------------------------------------------------------------------------
Queens College of City University of
 NY
                                       FY04...................                 $716,914                 $716,914
                                       FY05...................                  621,404                  621,404
                                       FY06...................                  621,144                  621,144
                                       FY07...................                1,714,239                1,714,239
                                       FY08...................                2,336,371                2,336,371
                                       FY09...................                2,006,172                  699,217
                                       FY10...................                2,672,346
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $10,688,590               $6,709,289
----------------------------------------------------------------------------------------------------------------
NYU School of Medicine, Bellevue
                                       FY04...................                 $762,409                 $762,409
                                       FY05...................                  706,355                  706,355
                                       FY06...................                  572,855                  572,855
                                       FY07...................                1,295,337                1,295,337
                                       FY08...................                  775,715                  775,715
                                       FY09...................                1,385,008                  370,595
                                       FY10...................                2,010,394
----------------------------------------------------------------------------------------------------------------
    Total............................                                        $7,508,073               $4,483,266
----------------------------------------------------------------------------------------------------------------
Logisitics Health Incorporated (LHI)
                                       FY08...................              $11,000,000               $9,434,495
                                       FY10...................                5,200,000
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $16,200,000               $9,434,495
----------------------------------------------------------------------------------------------------------------
Project COPE/NYC Police Foundation
                                       FY06...................               $1,000,000               $1,000,000
                                       FY07...................                1,000,000                1,000,000
                                       FY08...................                1,000,000                1,000,000
                                       FY09...................                  792,000                  467,513
                                       FY10...................                  934,000
----------------------------------------------------------------------------------------------------------------
    Total............................                                        $4,726,000               $3,467,513
----------------------------------------------------------------------------------------------------------------
POPPA/Police Resiliency Maintenance
 Program
                                       FY06...................                 $500,000                 $500,000
                                       FY07...................                  500,000                  500,000
                                       FY08...................                  500,000                  500,000
                                       FY09...................                  375,000                  148,006
                                       FY10...................                  556,653
----------------------------------------------------------------------------------------------------------------
    Total............................                                        $2,431,653               $1,648,006
----------------------------------------------------------------------------------------------------------------
NYC Health & Hospitals Corporation
                                       FY08...................              $10,000,000               $2,829,628
                                       FY09...................               10,000,000
                                       FY10...................               10,000,000
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $30,000,000               $2,829,628
----------------------------------------------------------------------------------------------------------------
WTC Health Registry
                                       FY06...................               $1,956,025               $1,956,025
                                       FY07...................                4,575,896                4,575,896
                                       FY08...................                2,999,792                2,285,328
                                       FY09...................                3,437,594                1,891,230
                                       FY10...................                3,437,594
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $16,406,901              $10,708,479
----------------------------------------------------------------------------------------------------------------
NYS Dept. of Health Fatality
 Investigation
                                       FY06...................                 $165,023                 $165,023
                                       FY07...................                  197,414                  197,414
                                       FY08...................                  201,634                  201,634
                                       FY09...................                  121,827                    3,603
----------------------------------------------------------------------------------------------------------------
    Total............................                                          $685,898                 $567,674
----------------------------------------------------------------------------------------------------------------
(New) National Responder Contract
                                       FY10...................              $10,000,000
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $10,000,000                       $-
----------------------------------------------------------------------------------------------------------------
Assoc. Occupational & Environmental
 Clinics
                                       FY07...................                  $49,549                  $49,549
----------------------------------------------------------------------------------------------------------------
    Total............................                                           $49,549                  $49,549
----------------------------------------------------------------------------------------------------------------
Mount Sinai Contract: 2002 & 2003*
                                                                            $15,861,734              $15,861,734
----------------------------------------------------------------------------------------------------------------
    Total............................                                       $15,861,734              $15,861,734
----------------------------------------------------------------------------------------------------------------
TOTAL Awards                                                               $446,727,551             $261,583,950
Program Costs                                                                14,013,420
Unobligated Funds                                                            15,064,854
----------------------------------------------------------------------------------------------------------------
    Grand Total......................  All Years..............             $475,805,825            $261,583,950
----------------------------------------------------------------------------------------------------------------
* For Health screening of WTC responders before the current monitoring and treatment program.

attachment 9.--table of participants by state in the national responder 
                             health program

                    WTC National Responder Locations
------------------------------------------------------------------------
                           State                                Number
------------------------------------------------------------------------
Alabama....................................................          26
Alaska.....................................................          19
Arizona....................................................          56
Arkansas...................................................          17
California.................................................         226
Colorado...................................................          50
Connecticut................................................          40
Delaware...................................................          11
Florida....................................................         604
Georgia....................................................          91
Hawaii.....................................................          11
Idaho......................................................           7
Illinois...................................................          98
Indiana....................................................          39
Iowa.......................................................          12
Kansas.....................................................          13
Kentucky...................................................          20
Louisiana..................................................          13
Maine......................................................          16
Maryland...................................................          84
Massachusetts..............................................         145
Michigan...................................................          33
Minnesota..................................................          21
Mississippi................................................           9
Missouri...................................................          31
Montana....................................................           8
Nebraska...................................................          18
Nevada.....................................................          32
New Hampshire..............................................          25
New Jersey.................................................          38
New Mexico.................................................          30
New York...................................................         447
North Carolina.............................................         154
North Dakota...............................................           4
Ohio.......................................................         106
Oklahoma...................................................          13
Oregon.....................................................          31
Pennsylvania...............................................         155
Rhode Island...............................................          27
South Carolina.............................................          64
South Dakota...............................................           5
Tennessee..................................................          34
Texas......................................................         109
Utah.......................................................          20
Vermont....................................................          12
Virginia...................................................         121
Washington.................................................          48
West Virginia..............................................          14
Wisconsin..................................................          21
Wyoming....................................................           3

Armed Forces Europe........................................           2
British Columbia...........................................           1
District of Columbia.......................................          15
New Foundland..............................................           1
Ontario....................................................           2
Puerto Rico................................................          19
Quebec.....................................................           2
Virgin Islands.............................................           6
------------------------------------------------------------------------
    Total..................................................       3,279
------------------------------------------------------------------------

         Response to Questions of Senator Dodd, Senator Casey, 
             and Senator Franken by Jim Melius, M.D., DrPh
                              senator dodd
    Question 1. Do you believe residents should be included in any 
health program authorized by Congress to treat individuals and families 
suffering physical or mental health effects of 9/11?
    Answer 1. Yes, people living, working, and going to school in the 
area around the World Trade Center were exposed to the same WTC dust 
and smoke as the rescue, recovery, and cleanup workers at the WTC site. 
Some of these residents, workers, and students had very intense 
exposures to the so-called dust cloud at the time when the buildings 
collapsed. Others spent weeks and months in workplaces or residents 
that were never properly cleaned and, as a result of this, were exposed 
to significant amounts of dust. Maintenance workers in downtown 
buildings often had to try to clean these buildings without proper 
respiratory protection and were often exposed later when doing 
maintenance work in areas of their buildings that still hadn't been 
cleaned even many months later.
    In general, studies have found a higher rate of illnesses in these 
residents, workers, and students similar to those found in the rescue 
and recovery workers. These illnesses include asthma and other 
respiratory diseases. Acute symptoms such as eye irritation, cough, and 
other respiratory symptoms were reported to be significantly elevated 
in these residents in the time period immediately after the attack. 
Later studies conducted by the NYC Department of Health and by Bellevue 
Medical Center staff reported on many downtown residents (including 
children) and workers with serious respiratory disease including asthma 
as a result of their WTC exposures. Studies by the NYC Department of 
Health and other academic institutions have also documented a high rate 
of Post Traumatic Stress Disorder (PTSD) among downtown residents after 
9/11. For many of these people, these symptoms are chronic and require 
intense medical treatment.

    Question 2. According to the 2009 WTC Medical Working Group of NYC 
Annual Report on 9/11 Health, ``Few studies addressed the impact of WTC 
exposure on child and adolescent health, especially physical health.'' 
Why is that?
    Answer 2. There are several reasons why there are few studies 
available addressing the effects of WTC exposure on child and 
adolescent health. Most of the early studies focused on the health of 
the rescue and recovery workers who, in general, had the highest 
exposures to the WTC dust and smoke and thus very high rates of 
respiratory disease and other illness. More scientific effort has 
recently shifted to focus on the community near the World Trade Center 
including children and adolescents. The WTC Registry operated by the 
New York City Department of Health has reported on their initial survey 
results on children and is currently planning a follow-up survey. The 
Bellevue Program for WTC residents and workers has also expanded their 
services to include pediatric services.
    There are also difficulties conducting research on children and 
adolescents. Many of the children exposed in 2001 have now moved to 
other areas to attend college and for other reasons. This makes it more 
difficult to track them and enroll them in studies. There are also 
additional ethical safeguards in place for research involving children 
which adds to the time required to conduct studies of children and 
adolescents. Despite these difficulties, I expect that more studies on 
children and adolescents will be conducted over the next few years.
                             senator casey
    Question 1. For those who rely on 9/11 World Trade Center health 
programs, how would the legislation introduced by Senator Gillibrand 
help to guarantee that they are taken care of not just today but 
tomorrow? Has our country made a long-term commitment to helping the 
people served by these programs? What are the benefits of funding these 
programs not just for 1 year but for several years at a time?
    Answer 1. Senator Gillibrand's legislation would provide stable 
long-term medical care for people who have become ill as a result of 
their exposures following the WTC terrorist attacks in 2001. Many of 
them have developed serious chronic diseases including respiratory 
illnesses and Post Traumatic Stress Disorder (PTSD) which will require 
many years of monitoring and treatment. In addition, we do not know 
what other illnesses such as cancer may emerge among this population. 
This legislation will ensure that they receive long-term high quality 
medical care that will help to reduce the long-term effects of these 
illnesses on them and their families.
    Immediately after September 11, President Bush and Congress stated 
their commitment to help everyone harmed by this terrorist attack. 
Unfortunately, the funding for the WTC medical programs has been 
intermittent. Often it was only included in emergency appropriations. 
While long-term support for the program has been stated, supporters of 
the program have struggled from year to year to obtain the necessary 
funding.
    A long-term funding commitment would ensure that the programs can 
provide high quality medical care to these patients over the longer 
term. The institutions will be able to commit to hiring the medical 
staff needed for the programs. This has been difficult with just year 
to year budgeting. Administration functions will also be improved with 
more stable funding and staffing. The legislation also includes 
provisions for improving the administrative efficiency of the program 
through better funding mechanisms for the medical care and improved 
ability to utilize long-term contracts for pharmaceutical coverage and 
other medical expenses. Most importantly, the patients being cared for 
in this program will be assured that their medical care will continue 
to be available.

    Question 2. From a health care systems perspective, in your opinion 
does investing in the World Trade Center health programs--which as many 
of the panelists have testified are tailored to meet the needs of those 
harmed by 9/11--offer a better return on investment than just providing 
funding to individuals directly to seek out care from providers who are 
not specialists in this area? If so, how?
    Answer 2. My initial training and experience was in primary medical 
care, and I understand the benefits of using primary care practitioners 
for general medical care. However, this is a special situation where 
much of the medical care for these WTC patients is specialized. More 
importantly, their illnesses are not routine. Their illnesses do not 
always respond to medical treatment in the expected manner, and we 
don't know what future illnesses might occur among these patients. For 
these reasons, there is considerable benefit to provide their medical 
care by a more concentrated group of providers who focus on just these 
WTC patients and thus have more experience in the diagnosis, 
management, and treatment of these patients.
    While there may need to be some adjustments for patients living in 
other parts of the country, I believe that limiting most medical care 
to these Centers of Excellence will provide higher quality medical care 
that will benefit these patients. We also know from experience that 
most primary care physicians are uncomfortable treating these patients 
and often have difficulty when trying to do so. Many of the patients 
recently enrolling in the program do so because their health has 
continued to get worse while under the care of their primary care 
provider. This is not necessarily the fault of the provider but rather 
a reflection of the difficulty of diagnosing and treating these 
patients.

    Question 3. Can you comment on how many people who live outside of 
New York City are being helped by the 9/11 World Trade Center health 
programs?
    Answer 3. Currently, over 4,000 rescue, recovery, and clean-up 
workers living outside of the NYC area have received monitoring exams, 
and approximately 1,000 have received medical treatment through this 
program including over 675 in the last year. The program for rescue and 
recovery workers living outside of the NYC area was slow in getting 
implemented. Now that a more comprehensive program is available, I 
expect that the number of people obtaining care through this program to 
continue to increase especially as many of the older patients retire 
and move out of the New York City area.
                            senator franken
    Question. Would it be correct to summarize Senator Gillibrand's 
bill, S. 1334, as providing for the extension and coordination of 
existing programs to ensure they are administered most efficiently and 
effectively? Would it also be correct to say that the legislation 
doesn't create any new categories of beneficiaries and that it has 
adequate safeguards to prevent fraud and abuse?
    Answer. Yes. In establishing the medical programs as long-term 
monitoring and treatment programs, the legislation also helps to 
improve their administrative efficiency. The program administrator 
(NIOSH) will have to establish standardized procedures for enrollment 
and for approval of treatment for WTC-related medical conditions. There 
will also be better criteria and procedures for adding additional 
providers to the program. Better quality assurance programs will be 
required, and there will be better oversight of the medical programs. 
Long term funding will also enable the Federal Government and the 
Centers of Excellence to establish longer term contracts for 
pharmaceuticals and other medical services for the programs. These 
longer term contracts should be more cost-effective.
    The legislation does not create any new categories of 
beneficiaries. The enrollment criteria and treatment criteria mirror 
those currently in place for the responder and community medical 
programs. Under their current funding agreements with NIOSH, the 
Centers of Excellence could expand the list of covered conditions. The 
legislation restricts changes to enrollment criteria to require that 
the program administrator approve all changes and also limits additions 
to the list of covered conditions.
    The legislation also includes provisions to prevent fraud and 
abuse. All of the Centers of Excellence are required to have in place 
internal safeguards against fraud and abuse and must institute quality 
assurance programs. The Centers must also utilize treatment protocols 
developed for the program, and only treatments that are deemed 
medically necessary can be reimbursed. These and other provisions 
should safeguard against fraud and abuse.
      Response to Questions of Senator Casey and Senator Franken 
                         by David Prezant, M.D.
                             senator casey
    Question. Why is it that, after 9 years, there are people who 
haven't yet been given assistance?
    Answer. At the FDNY program, we have offered assistance in terms of 
monitoring and treatment to 100 percent of our cohort and over 95 
percent have accepted it in one form or another (monitoring or 
treatment or both). For a voluntary program such a high rate of service 
is unheard of. The only thing that prevents continued high rates is the 
uncertainty raised by year-to-year funding.
                            senator franken
    Question 1. EMS workers are the backbone of our emergency response 
system in this country. How does the Center of Excellence communicate 
with health care providers to ensure that survivors are getting the 
care they need?
    Answer 1. Our outreach to FDNY EMS has been as successful as to 
FDNY fire. The services they receive are identical. Mt. Sinai and the 
national program are responsible for other EMS personnel. Our service 
to them has been to publicize our results and findings and treatment 
protocols so that everyone can benefit from our experience.

    Question 2. Can you also please discuss whether there's a deadline 
for monitoring the long-term effects of the 9/11 exposure and treatment 
these workers receive--in other words, what do you think EMS workers' 
health needs may be 10, 20, or even 30 years from now?
    The timeline for EMS should be no different than for others with 
exposure. Asthma and PTSD are early outcomes but cancer and 
interstitial lung diseases like asbestosis and pneumoconiosis (from 
dust) take 10 to 30 years to develop. Therefore the follow up should be 
at least 30 years.
        Response to Question of Senator Casey by Margrily Garcia
    Question. You spoke about your experiences on 9/11--and the 
challenges that you faced that day and in the months and years that 
have followed. What are your greatest fears related to your health at 
this point? How do the 9/11 health programs help you minimize or face 
those fears?
    Answer. My greatest fears related to my health at this point are 
the probable and continual deterioration of my life from now on. I'm 
afraid of just getting by and not improving, of having to always visit 
a specialist for one medical problem or another. I fear of falling into 
that small but fatal percentile where a procedure, surgery, or 
prescription side effect may go wrong and make me feel or get worse.
    Thus far I've had three operations to fix my pacemaker/
defibrillator which the leads came out twice within 6 months when I was 
advised that it would be about 10 years for me to change my battery or 
be otherwise operated on. My life depends on a battery-operated machine 
inside of me that can malfunction at any time. What happens to me if I 
don't reach the hospital in time?
    I had the sinus operation in late February to remove nasal polyps 
completely blocking my nasal airways, and was promised to feel relief 
for at least 5 years only to be recently informed that I have nasal 
polyps again 3 months later which means sinus congestion and horrible 
constant headaches. I have to suffer with a nasty odor that exists in 
my nose from the polyps if I don't rinse it and have to use a nasal 
steroid (Nasonex or Flunisolide) to find temporary relief. This also 
means more uncomfortable experiences at the ENT clinic where the 
doctors fill my nose with bad tasting fluids (local anesthetics and 
decongestants) to numb my nose and throat while they stick a tube with 
a camera to see deep inside my very sensitive nose. I force myself to 
go to listen to their advice to take the medicine that I need that 
would avoid having another surgery. I sit there very nervous thinking 
that if I sneeze while the tube is in my nose that perhaps it may 
puncture something inside which is connected closely to my brain.
    Every time I visit the WTC clinic and their affiliated doctors I'm 
afraid of what news I will receive, but I am also relieved because if 
anything is wrong I have trust that they will proceed with caution and 
expertise. In assistance, I observe and try to keep track of any 
changes in my body to report in case something else is wrong and we can 
detect it early before it becomes too late. I wonder who lives like 
this. Who worries about their lives daily like I do? I hate feeling so 
tired everyday as if I were an old lady whose body is about to give 
out. I'm a recently married woman who wants to have kids and form a 
beautiful family. My life is crucial because I am significant and 
precious and worthwhile to my family and country.
    I keep my family together. I am the loving leader who my siblings 
look up to and my mother depends on to help her with everything. I make 
my job run smoother because I perform my job with diligence and 
excellence. Something I am very proud of and yet my job is another one 
of my greatest fears. I have my Family Medical Leave Act, (FMLA) form 
promptly filled out yearly but that isn't enough to ease my concerns of 
losing my job, never getting a promotion because of my absenteeism, or 
looking for a new job because who wants to hire a sick person? Due to 
my illness I sacrifice personal time or paid time off (PTO) from work 
for medical appointments and when I don't have PTO available then I 
don't get paid for the day which I must miss for my well-being and 
therefore I miss out financially as well. This isn't fair to my 
employers or me. I'm still responsible for my bills so I feel 
shortchanged somehow.
    Not to mention that when I first discovered that my illnesses were 
WTC-related no attorneys would help me. They said I wasn't first 
responders or belonged to the recovery crew that I wasn't a police 
officer or firefighter and so they could not help me. I felt worthless 
and alone. Sometimes I still do because I don't know how I could 
survive without the help and specialized care of the WTC program. They 
didn't turn me away when I called them for help and, in fact, the 
doctors and staff embraced me as a patient and continues to help me get 
better each day. I'm not saying that I'm cured although I wish I were 
but I am truly grateful to rely on such superior care.
    I used to cough consistently and roughly which caused me much 
distress at work and health wise because I disturbed my co-workers with 
my asthma and coughing. They thought I was contagious and I can see 
their apprehension when my co-workers were near me. They wouldn't even 
disguise their hostility when I first started at my current job. I was 
and still am quite miserable. I was always wheezing and suffered from 
chest pains, back pains and headaches. It is very difficult to 
concentrate in front of a computer all day and try to control a massive 
continuous headache almost every day. My eyes also hurt in conjunction 
with the headaches, and allergies, and I can't stand it. I'm also seen 
by a neurologist who advised me to keep a headache journal to describe 
when my headaches occur, how often and how painful.
    I visited the clinics and emergency rooms quite often in a year 
which made my employers frown and uncomfortable. I felt ashamed of my 
cough which would never go away. Today it's more manageable thanks to 
the care that I receive at the WTC program at Bellevue Hospital. Life 
feels more manageable but I'm not out in the clear. The WTC program 
helps give me hope that there are doctors who know how to treat me and 
understand my symptoms and diseases even when I don't fully understand 
them, although I keep myself informed so that I can ask the right 
questions for the treatment provided and alternatives available for 
options. I don't know what I will ever do without the WTC program 
should it ever not be available to me and thousands of others who need 
this program to survive. I hope we never have to find out.
    I need help to exist and I'm no longer ashamed to seek it. I am no 
longer invincible and I need assistance for my body to match the 
strength of my soul and spirit.
    I thank you Senator Casey for your question and concerns. If I may 
be of more service to you please do not hesitate to ask.
                                 ______
                                 
                           Letters of Support
                     Congress of the United States,
                                 Washington, DC 20515-3214,
                                                     June 29, 2010.

    Chairman Harkin, Ranking Member Enzi, members of the committee: I 
want to thank you for holding this hearing today on S. 1334, the James 
Zadroga 9/11 Health and Compensation Act, introduced by Senator 
Gillibrand and Senator Schumer. I am proud to work with Senator 
Gillibrand to champion the health needs of World Trade Center 
responders and survivors. As the sponsor of the House counterpart, H.R. 
847, I am pleased to see movement on this side of the Capitol.
    On September 11, 2001, thousands of people tragically lost their 
lives. Nearing 9 years later, we know that thousands more have lost 
their health.
    Within hours of the collapse of the World Trade Center, fire 
fighters, police officers and EMTs labored alongside construction 
workers, volunteers, and others without regard for their own health or 
safety. All were told by the government that the ``air was safe to 
breath.''
    Unfortunately, we now know better. The cloud they worked in was a 
poisonous cocktail of thousands of tons of coarse and fine particulate 
matter, pulverized cement and glass, asbestos, lead, and other toxic 
pollutants. To the mix were added 24,000 gallons of burning jet fuel 
and plastics which created a dense plume of black smoke containing a 
specific combination of toxins probably never seen before and hopefully 
that we will never see again.
    And all of this went into the mouths, throats, and lungs of tens of 
thousands of first responders and survivors.
    Although most of these people live in the New York/New Jersey area, 
at least 10,000 people came from across the country to help in the 
aftermath of the attacks. They hail from every State in the Union and 
nearly every congressional district.
    Now, nearly 9 years later, we continue to see the deadly effects of 
those toxins. There are numerous peer-reviewed, scientific studies 
showing that the exposures at Ground Zero are causing people to become 
very ill. Their illnesses include respiratory and gastrointestinal 
conditions such as asthma, interstitial lung disease, chronic cough and 
GERD (gastroesophageal reflux disease), and mental health conditions 
such as post-traumatic stress disorder.
    S. 1334 helps the sick by improving medical monitoring and 
treatment to WTC responders and survivors who were exposed to Ground 
Zero toxins. To do this, it will build on the existing monitoring and 
treatment programs by delivering expert medical care for these unique 
exposures at Centers of Excellence. The bill also provides compensation 
for those who suffered economic loss by reopening the September 11 
Victims Compensation Fund (VCF).
    Press reports this morning indicated that Senator Enzi will say 
that the existing programs to help the WTC responders and survivors are 
enough and that we do not need this bill.
    Nothing could be further from the truth. Our bill would authorize 
these programs into law and ensure that they have guaranteed funding. 
The bill would eliminate gaps in coverage in the current program that 
have too often resulted in 9/11 first responders and others getting 
notices that their care is coming to an end, as we saw last year in New 
Jersey and this year with New York City's program to provide mental 
health care for those affected by the attacks.
    The solutions we have offered in H.R. 847 are neither easy nor 
inexpensive, but they are part of our country's moral obligation, as 
the wealthiest country in the world, to care for those who respond to 
an act of war. We must take care of the people who took care of us 
following 9/11. It is the least we can do as a grateful nation.
    Thank you.
                                        Carolyn B. Maloney,
                                          House of Representatives.
                                 ______
                                 
                       David A. Paterson, Governor,
                                         State of New York,
                                         Executive Chamber,
                                                Albany, NY,
                                                     June 29, 2010.
Hon. Thomas Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
S-428 Dirksen,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
S-835 Hart,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Enzi: I write to thank you 
for convening a hearing to consider the James Zadroga 9/11 Health and 
Compensation Act of 2009 and express my strong support for this 
critical legislation. The importance of the continued monitoring and 
treatment of the World Trade Center responders cannot be overstated. 
This bill will guarantee a Federal commitment to funding for the long-
term health and mental health care needs that many of the affected 
individuals now require.
    Immediately following the attacks on our country on September 11, 
2001, our Nation made a commitment to ensure that those responders from 
around the country who were directly affected by the events of 9/11 get 
access to the care they need, making this legislation not only a New 
York priority, but a national priority. It is critical to continue the 
much-needed research into World Trade Center-related illnesses.
    I commend Senator Gillibrand for her determination in securing a 
hearing for this crucial piece of potentially life-altering, 
legislation. It is with utmost sincerity that I reiterate my support 
for the James Zadroga 9/11 Health and Compensation Act of 2009.
            Yours truly,
                                         David A. Paterson.
                                 ______
                                 
            The United States Conference of Mayors,
                                      Washnigton, DC 20006,
                                                     June 28, 2010.
Hon. Tom Harkin, Chairman,
Health, Education, Labor, and Pension Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Health, Education, Labor, and Pension Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairmen: On behalf of the United States Conference of 
Mayors, I am writing in support of S. 1334, James Zadroga 9/11 Health 
and Compensation Act of 2009. This legislation is a critical first step 
to providing long-term and sustainable funding for a permanent 
monitoring and treatment system for thousands of first responders and 
others who became sick and are getting sicker from exposure to toxins 
released in the aftermath of the 9/11 attacks.
    During our 78th Annual Meeting in Oklahoma City, the mayors of this 
Nation unanimously supported a policy resolution calling for 
legislation that would permanently fund a monitoring and treatment 
program for Americans who can prove they were exposed to the WTC (World 
Trade Center) disaster and to permanently fund WTC-related health 
research to ensure appropriate use of Federal funds for monitoring and 
treating WTC-exposed Americans. In addition, the mayors called for 
legislation that would re-open the September 11th Victim Compensation 
Fund.
    We applaud Senator Gillibrand for her commitment to this issue and 
believe this legislation is a necessary measure to ensure that 9/11 
rescue and recovery workers who risked their lives will receive the 
proper long-term medical care and support they deserve.
    If you have any questions, please feel free to contact conference 
staff Crystal Swann at 202-861-6707 or via email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b3a3a7b1bebe90a5a3bdb1a9bfa2a3febfa2b7fe">[email&#160;protected]</a> We appreciate your consideration and thank you for 
your support.
            Sincerely,
                                               Tom Cochran,
                                          CEO & Executive Director.
                                 ______
                                 
                                              July 7, 2010.

    Dear Senators: On June 29, 2010, it was my honor to travel to 
Washington, DC and watch the HELP Committee hearing entitled 
``Examining the Continuing Needs of Workers and Communities Affected by 
9/11.'' I am a patient at the World Trade Center Environmental Health 
Center at Bellevue Hospital and would like to submit my profile 
(attached to this email) to be part of the record of that hearing.
    I survived the attack on the World Trade Center on 9/11 and 
strongly support continued funding of the Centers of Excellence which 
provide medical and mental health treatment for those affected by the 
9/11 attack.
    I hope that, when you read my story, you will agree that all 
efforts must be made to ensure that those impacted by 9/11 are 
guaranteed care well into the future.
    Thank you for your hard work and consideration.
            Sincerely,
                                                Susan Herr.
                                 ______
                                 
    World Trade Center Environmental Health Center Patient Profile: 
                               Susan Herr
    ``I can't walk and carry a balloon at the same time,'' says Susan 
Herr, who survived the collapse of the World Trade Center on September 
11, 2001 but who, almost 9 years later, finds it difficult to do many 
of the things that most people take for granted.
    Susan, a Long Island commuter, worked as a computer programmer on 
the 68th floor of the south tower. She decided to evacuate not long 
after the first plane hit even though building management had announced 
that it was safe for workers who had been leaving to return to their 
desks. The elevator got her as far down as the 43d floor, where she 
entered the stairwell. ``But I had a panic attack and couldn't walk 
down any further than the 19th floor so I got back into an elevator.''
    Susan was descending to the lobby when United Airlines Flight #175 
slammed into the building. ``At first it was impossible to get out 
because of the surge of people pushing back inside who were trying to 
protect themselves from the falling debris.''
    Once she was able to exit onto the plaza, a policewoman instructed 
Susan to run east. After cutting her leg on fallen debris, Susan headed 
uptown. Two other details about her terrifying journey that morning 
still stick in her mind: ``I couldn't believe it when I heard someone 
say the Pentagon had been hit, and all around me people were throwing 
their cell phones down on the street.''
    Susan made contact with her family for the first time around 1 p.m. 
when she finally arrived, covered in a light coating of dust, at her 
sister-in-law's office in the Madison Square Garden building. Her 
parents and her brother and sister had no idea if she was OK or not. 
She found out that her brother, an off-duty NYPD cop, was trying to get 
back into the city to help. ``The Long Island Railroad had stopped 
running so I didn't get home until much later that evening.''
    Working from home and staying in touch with a close-knit group of 
colleagues helped Susan make it through the next few weeks. Although 
she didn't have to return to work in Lower Manhattan for more than a 
year, her nerves and recurring nightmares prevented her from sleeping 
well. Her family physician prescribed sleeping pills.
    Susan began to have other health problems in 2002. She learned 
always to bring water or candy with her everywhere she went to soothe a 
cough that just wouldn't go away. ``Any excitement or over exertion 
would set it off,'' she says. Walking, even breathing, became 
increasingly difficult although she never had smoked. And when her 
parents decided to move, she decided she couldn't face living alone 
after what she had been through, so she relocated with them to upstate 
New York.
    Around the time things got really bad in 2008, Susan, who now works 
for the U.S. Military Academy in West Point, received a mailing from 
the World Trade Center (WTC) Health Registry about the WTC 
Environmental Health Center's services for people who worked or lived 
in Lower Manhattan. She made an appointment.
    Doctors at the WTC Environmental Health Center diagnosed Susan with 
asthma and prescribed medications that have reduced the frequency of 
her coughing and made it easier to breathe. But what really worries 
Susan is the future. ``I'm going to be 54 soon,'' she says. ``What will 
happen when I'm 64? We just don't know how being down there that day is 
going to affect our health in the years to come.''
    Susan feels so strongly about the importance of the health 
monitoring and treatment offered by the WTC Environmental Health Center 
that she's willing to make a two-hour drive each way. ``Based on what 
they're seeing in other patients''--more than 4,600 Lower Manhattan 
community members have sought care at the WTC Environmental Health 
Center--``my doctors know what to look for in me.''
    Unlike many of the patients served by the WTC Environmental Health 
Center, Susan has private insurance. This means that her health care 
would continue even if Federal funding for the program ends, but she 
would have to rely on local providers who may not have the expertise 
necessary to treat WTC-related respiratory illness or identify emerging 
conditions.
    That's why Susan plans to visit members of Congress with a strong, 
but simple message of support for the 9/11 Health and Compensation Act: 
``Even though I wasn't a first responder, I was still a victim.'' My 
country let me down once by letting the World Trade Center get hit. I 
hope it won't let me down again by closing the clinic.
                                 ______
                                 
                                    Kathy GopiChan,
                                      Ocala, Florida 34473,
                                                      July 8, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S.1334/H.R.847 ``The James Zadroga 9/11 Health & Compensation Act 
of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: I am Kathy Gopichan 
and I currently reside with my family in Florida, where I am now 
working as a nurse. On 9/11, I was living in Queens with my husband and 
two young children. At that time, I was working for Time Warner Cable 
and attending school at Borough of Manhattan Community College (BMCC), 
5 blocks North of Ground Zero. When the second plane hit, I had been 
inside Fiterman Hall, a school building directly adjacent to the WTC, 
for a class. As the building shook violently and the ceiling started to 
collapse in on us, I ran outside. Then I saw bodies flying out of the 
WTC, debris falling, people screaming and running, and choking on air 
full of airplane fuel and horrible smelling smoke. I was disoriented by 
the crowds, dust and smoke. I spent the next 2 hours ``in shock'' as I 
tried frantically to get to my baby, who was at the babysitter's on 23d 
Street.
    I was so traumatized that I had to cancel my semester and was 
unable to work. I was also unable to sleep, ``jumping awake'' in our 
apartment which was right near LaGuardia Airport, where we heard planes 
overhead around the clock. This had never been a problem before 9/11.
    Soon after 9/11, I was diagnosed by a local doctor with heart 
palpitations and anxiety. Although I had no previous respiratory or 
other health problems, by April 2002, my health had deteriorated. I 
started wheezing, which progressed to bronchitis and then pneumonia. I 
have also been plagued by migraines and insomnia, eventually I was 
diagnosed with sleep apnea and irregular heartbeat.
    Several years ago, when my husband had been laid off, our family 
moved to Florida, hoping for better work prospects. Both he and I were 
able to find jobs, but I later lost mine due to too much time sick. I 
was unable to use my husband's benefits because the insurance company 
deemed my conditions to be pre-existing. We have been paying all 
medical expenses out-of-pocket until we simply could no longer afford 
to do so. It was my husband who learned about the WTC EHC from a friend 
whose union held an information session. I usually spend some of the 
year with my extended family in Queens, NY so I made an appointment. I 
was diagnosed and am now being treated for WTC-related asthma, 
headaches and PTSD. The family is considering a move back to New York, 
so that I can continue to receive the right kind of care. I am trying 
to visit soon for a follow-up appointment.
    The treatment I received at the WTC EHC was very good. The doctors 
are experts in recognizing the 9/11 health problems and knowing the 
right medications for the overlap of symptoms from the type of 
exposures that I had. No one else understood or connected the dots of 
my health symptoms. I get care for my body and my mind. After 9/11, I 
struggled for years with improper care and struggled trying to have a 
decent life for myself, my husband and my children. I feel very lucky 
that I FINALLY have this program.
    9/11 survivors like me are asking for your help to protect the 
program which enables us to get our lives back.
            Gratefully,
                                            Kathy GopiChan.
                                 ______
                                 
                                              July 8, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847 ``The James Zadroga 9/11 Health & Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On September 11, 2001 
my daughter Alexia, who was 1\1/2\ years old, was at my mother's house 
in Lower Manhattan, on Mulberry Street between Houston and Prince 
Streets. At that time, my mother was my main source of childcare and 
though I left for work that day, I never made it there because my 
supervisor called me to tell me that I shouldn't come in to work. As 
the terrible events began to unfold, a crowd had gathered at the corner 
of Lafayette and Prince from where the towers could be plainly seen.
    When the towers collapsed, the dust rolled into our neighborhood, 
and the air reeked of fumes from the WTC fires as they burned for many, 
many weeks.
    Throughout the year my mother continued to be my main source of 
childcare, with my daughter often spending the night at her house. We 
had been told that the whole area was safe. Within a few months of 9/
11, however, Alexia started to develop symptoms of asthma for the first 
time. It seemed that every time she had a cold, it would turn into 
difficulty breathing. The first few times the doctors said that she was 
too young for them to diagnose her with asthma. By the time she was 3 
years old, she was given that diagnosis and we ended up at the 
pediatrician's office every few months because she was having 
difficulty breathing.
    Alexia started Pre-K at 4 years old and unfortunately missed many 
weeks of school either because she'd had an asthma attack or because 
the cold weather put her at risk for one. At that time, I got a call 
from the school district--the staffer said she was very concerned about 
Alexia's attendance and then suggested I take her out of school and not 
re-enroll her until she was 6 years old, and legally required to be in 
school. I was horrified at this suggestion, Alexia had missed a lot of 
school but she had also made important strides, had friends and loved 
school. I didn't take her suggestion. Alexia struggled through although 
she continued to miss school.
    The worst crisis occurred when Alexia was in the first grade--she 
was hospitalized for an entire week with asthma and pneumonia. It was 
terrifying. Afterwards she was put on Singulair year-round. Other 
parents I was friendly with expressed concern that they thought 
Singulair was only a seasonal drug for allergies but when I raised this 
with the pediatrician, my concerns were brushed aside. The doctor 
described it as ``a great pill that had hardly any side effects.''
    A year and a half later, the Singulair suddenly stopped working, 
and Alexia had several severe bouts of asthma. At the same time she was 
having nightmares and although I never made the connection at the time, 
when I was researching Singular online later, I found out that other 
parents were reporting nightmares, depression and suicidal behavior 
while their children were taking Singulair. I got Alexia off the 
medication and we struggled with her asthma day by day. We were once 
again in and out of the offices of overbooked pediatricians who had 
little time to do more than triage.
    I knew that my child's troubles began after 9/11, so when I heard 
about the Bellevue WTC Pediatric Program, I brought Alexia in. It was 
such a life-saver. Finally we had a doctor someone who thoroughly 
examined Alexia, and understood the origins of her asthma. And I found 
out that the drug Prednisone was not supposed to be given more than a 
couple of times a year. She had gotten it more than a couple of times 
just in the past few months. Now Alexia has ongoing care from doctors 
familiar with her condition and has preventive medicine which keeps her 
healthy and doesn't cause side-effects.
    I urge you to do everything in your power to preserve this 
essential program for my child and for so many children who, like her, 
have experienced serious health problems from breathing the toxic 9/11 
dust and smoke.
    Thank you for your consideration.
            Sincerely,
                                             Maria Muentes,
                                                     New York City.
                                 ______
                                 
                                              July 9, 2010.
Hon. Tom Harkin,
731 Hart Senate Office Building,
Washington, DC 20510.

Hon. Mike Enzi,
379A Russell Senate Office Building,
Washington, DC 20510.
    Dear Chairman Harkin and Ranking Member Enzi: My name is Lillian 
Bermudez. I am a Lower East Side resident and am now a senior police 
administrative aide with the New York Police Department. I have two 
children who developed chronic respiratory illnesses as a result of the 
9/11 disaster.
    On 9/11/01 we were living at 296 Delancey Street (where we still 
reside) which is in Lower Manhattan near the Williamsburg Bridge. My 
son, who was 12 years old on 9/11, had no prior respiratory problems.
    In October 2001, he had been home from school for 2 days, suffering 
with a cold, or so I thought. When he was not better on the third day, 
I brought him to the Bellevue ER. When the triage nurse measured his 02 
blood level, it was so low that my son was immediately admitted to the 
Bellevue ICU. He remained there for 3 days, as doctors struggled to get 
his breathing under control with IV medications.
    I was truly shaken when the doctors told me that if any more time 
had been lost getting Mitch medical attention, Mitch could have died. 
The doctors questioned me extensively about dust, pets and smoking in 
our apartment. I told them we had no pets and no one smoked and I 
always kept the apartment clean. My kids had seen a pediatrician every 
year and both had always been healthy.
    What had changed at home and in our neighborhood was the smoke and 
dust from 9/11. The doctors said, no, that wasn't it, because ``the EPA 
said the air was safe.'' (For the same reason, the only cleanup our 
building got was when the NY City Housing Authority wiped the window 
sills.)
    Mitch was released from the ICU but they kept him in the hospital 5 
additional days so his condition could be monitored. He was given a 
diagnosis of asthma and sent home. Although he continued to take the 
asthma medicine they prescribed, he continued to get severe asthma 
attacks that were so bad that he had to be admitted to the hospital 
several more times. I was getting desperate.
    Also, my daughter, Amanda, had been affected. She was 9 years old 
on 9/11. She had no prior respiratory problems. A number of months 
after 9/11, I had to take Amanda to the ER, where she was first 
diagnosed with a sinus infection and put on antibiotics. A few months 
later, the same thing happened. This time, the ER doctor gave Amanda a 
pump, but she always ended up getting bad sinus infections whenever she 
got a cold.
    Then, in 2007, I contacted the office of city council member Alan 
Gerson and his staff told me about the Bellevue WTC Clinic. I brought 
Mitch and Amanda to Bellevue and they were thoroughly evaluated. They 
got breathing tests and for the first time, they were put on the right 
set of medications.
    I credit the Bellevue WTC doctors with giving my kids the kind of 
treatment they need to lead normal lives. My son and daughter have been 
doing great. Now, they can live like kids again. If the program is 
ended, where will they go? If my children have any more asthma or sinus 
problems, the doctors at Bellevue WTC are there for them. They know my 
children's history from 9/11, they know what to look for and how to get 
them well.
    Please do everything you can to make sure that this essential 
program will be there for the people whose health was harmed at such a 
vulnerable age, and for all the sick survivors of the 9/11 attacks.
            Sincerely,
                                          Lillian Bermudez,
                                                     New York City.
                                 ______
                                 
                                  Barbara Caporale,
                                        New York, NY 10009,
                                                      July 9, 2010.

    Dear Esteemed Senators Harkin and Enzi: My name is Barbara 
Caporale, and I am a Lower Manhattan resident and the parent of a child 
entering the 8th grade in the fall. For the past 13 years, we have 
lived on East 5th Street in the Lower East Side, approximately 2 miles 
from the World Trade Center site, inside the original ``frozen zone,'' 
set up by the police and the National Guard to secure downtown in the 
weeks after 9/11.
    On 9/11, I was walking my daughter to her first day at a daycare/
preschool when we heard what we thought was an incredibly loud 
backfire. After dropping her off, I returned home, where I watched the 
buildings collapse from the roof of my building. I filled the bathtub 
with emergency water, scrambled to buy supplies at the grocery for 
myself and my parents, and then picked up my child in a taxi. She rode 
on top of our supplies.
    The air in the Lower East Side of Manhattan quickly became thick 
with smoke and grit and smelled like a mixture of an electrical and 
chemical factory fire and crematorium. Cars, buildings and playground 
equipment were coated in dust, and were never cleaned in our area.
    Two days later, I was forced to return to work when the mayor 
declared the zone from 14th street to Houston Street re-opened. As a 
parent, I was extremely anxious about sending my child back to her 
daycare and about my own return to my worksite, but I couldn't afford 
to lose my job. It was evident that things weren't ``back to normal'' 
as the Mayor deemed them to be, nor was the environment safe as the EPA 
declared.
    Like many others in my community, I did not have the means to take 
my child out of the city to escape the smoke and the dust.
    In a semblance of normalcy, and to relieve stress, the children 
played in the neighborhood playground, where they cheered the rescue 
vehicles from many States, coming and going, all coated with debris. It 
was surreal. There was dust and grainy grit on the playground equip. My 
daughter and I wore little cowgirl bandannas to cover our noses and 
mouths.
    We live on East 5th Street, in the Lower East Side, four blocks 
above Houston Street on the top floor facing south towards the World 
Trade Center site. The smoke and dust plume would infiltrate our 
apartment. My daughter and I could not breathe in our apartment for 
most of the 3 months while the fires burned, particularly at night with 
the atmospheric inversions. We would wake up every few hours, coughing. 
It was much worse for my child.
    Over the months, she began to develop mold and extreme chemical and 
smoke sensitivity. She also started to suffer from migraines which 
forced her to be immobile due to the pain and nausea. To this day, 
migraines that are often crippling make it impossible for her on many 
days to do homework.
    She also developed shortness of breath. In 2002, my daughter was 
diagnosed with ``respiratory syndrome'' by her pediatrician and was 
prescribed Singulair and Flonase.
    My daughter was a participant in a Pediatric Respiratory Study of 
children enrolled in daycare centers below 14th street, which was 
conducted by epidemiologists from the New York Academy of Medicine, 1 
year post 9/11. It showed that in an age range of population with an 
expected asthma rate of 7 percent of asthma, approximately 40 percent 
of parents reported their child either having respiratory syndrome, 
coughs and wheezing without ever having an asthma diagnosis, or 
reported their child having asthma with increased intensity.
    Our area never got a proper environmental cleanup. After the months 
of running our air conditioner after 9/11, I saw that it was 
contaminated with WTC dust, and I never used it again, though I could 
not afford to replace it.
    Before 9/11, my daughter had no health problems. After 9/11, my 
daughter who was an early dancer, active and dexterous, began to 
exhibit an obvious lack of spatial awareness, and would bump into 
things and people. My child had been a very early speaker and is very 
intelligent with an amazing memory. But I began to notice as her school 
career was advancing, that she was not able to focus as well on her 
work. and that she was experiencing memory problems. After a series of 
neurological tests revealed some cognitive issues, we were advised to 
make her an appointment for a developmental evaluation at the WTC 
Environmental Health Center.
    She gets sick more often since 9/11. After a recent illness, which 
kept her out of school for a week, and another recent prior one, she 
was given an inhaler last month, to see if this would help her 
headaches and coughing.
    She is stressed by the constant ``war on terror'' reports on TV, 
from which I try to shield her, (but now that she is older, she needs 
to watch current events). She experiences anxiety when we encounter 
subway stations closed for ``police activity, and hear the NYPD's 
`backpacks are subject to search' announcements.'' Otherwise she is a 
creative, beautiful, and lovely child, who suffers bouts of sadness and 
feeling overwhelmed.
    So many children continue to suffer health problems as a result of 
the 9/11 attacks. Please help our children get proper diagnosis and 
treatment by fully funding the World Trade Center Environmental Health 
Center Pediatric Survivors program.
    Thank you.
            Respectfully,
                                          Barbara Caporale.
                                 ______
                                 
                                      Mary Perillo,
                                       New York, NY, 10006,
                                                      July 9, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847 ``The James Zadroga 9/11 Health & Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: I am a resident of 
the closest residential building to the World Trade Center (WTC)--we 
are right across the street. From the beginning, in the first days 
after September 11, the EPA, incredibly, was saying that the air was 
safe, but my neighbors and I knew that it couldn't possibly be safe to 
be inside our apartments.
    In our building where the most windows had blown out, we had 
massive piles of WTC debris, which was composed of items ranging from 
seven-foot pieces of metal down to dust particles measurable in microns 
or fractions of microns. Four tenants had dust samples taken from their 
apartments tested for asbestos, and it was found in all of the four 
apartments. The amounts were between 1.8, and 3.3 percent by bulk 
analysis--all exceeded the EPA's safety threshold.
    At that point, I start trying to get to any government agency that 
would help us, to test indoor air in our building in hopes that that 
would effect an asbestos clean up for the building. I was also hoping 
to find some official guidance, or even a set of standards for safe re-
occupancy. Finally, someone from the New York City Department of 
Environmental Protection (DEP) came to the building and met with a few 
of us tenants and representatives from the building's management 
company. He said he was coming to the building to do some tests, but he 
did none. He wouldn't tell us why, he just said he ``wasn't allowed.''
    So then I called, wrote and/or visited FEMA, HUD, NYC DOH, NYS DEC, 
EPA, OSHA, the New York State attorney general's office Bureau of the 
Environment, Pace Environmental Law Clinic and NYCOSH. This was 
essentially my full-time job for 6 weeks. After that, I did this for a 
few hours a day, and after that for a few months and sporadically 
through summer 2002. None of these agencies or organizations could or 
would test our homes.
    We fell through the cracks. We are not first responders, our 
apartments are not public spaces, and we don't own our apartments. 
There was nobody to protect us or even provide us with accurate 
information about the toxic dust and debris sitting in our homes, 
several feet deep in places.
    At one point I had a conversation with an inspector at the 
Department of Health and asked him, ``So what you're telling me is that 
the EPA won't test because they know what they'll find?'' And he said 
yes.
    So as you can see, by that exchange, sometimes individuals at these 
agencies tried to help, at least by speaking the truth off the record. 
But EPA and other agencies would not allow them to give us the help we 
needed. So the pattern was that they would make an appointment--the 
first one took 6 weeks to make--and then at 4:55 p.m. the night before, 
somebody else would call from the relevant agency or department and 
cancel the appointment, telling me they were not allowed to do any 
testing.
    My next appointment--yes, I kept trying anyway--was for the 30th of 
November. At that time they sent me an e-mail canceling and stating: 
``Upon further review, it was determined that the address in question 
is located in the hot zone.'' Of course, I've been telling them that 
from day one. And that New York City Office of Emergency Management 
(OEM) would ``coordinate re-occupancy,'' and that an inspection would 
not be conducted ``until the building is cleared for re-occupancy.'' 
And who would clear us?
    All this time, my neighbors and I were spending long hours in our 
apartments searching for important keepsakes and personal belongings, 
cleaning up by literally shoveling the WTC dust into plastic bags--and 
many of us were experiencing scary symptoms we had never had before. 
For me, it started with nosebleeds and breathing problems.
    So following the letter about OEM, I turned to whatever individuals 
I could catch on the phone or in person, at any agency, who would talk 
to me. Individual OSHA workers were probably the most helpful and 
ending by truthfully acknowledging that the conditions in our homes 
were a threat to our health but always stating ``But you didn't hear 
that from me!'' Looking at the OSHA and NYCOSH's Web sites I found 
workers instructions because I figured if I'm spending 8 hours cleaning 
up in there, I am a worker.
    I went out and bought my P-100 respirator, because of what I had 
been reading in the press, and what I had known from the tests we had 
done in our building. There was knee deep debris in my apartment which 
testing showed was nearly 2 percent asbestos and an OSHA person had 
told me I need a respirator to be in THE NEIGHBORHOOD at all.
    After 5 months of one agency passing me off to the next to the next 
to the next, just to make sure that things hadn't improved, I tried it 
again in February 2002.
    First I called the EPA Region II offices. I was connected by the 
receptionist to somebody in Air Quality who told me that I had to speak 
to somebody in the City Department of Health. They gave me the numbers 
of the city Department of Health--which were new numbers. EPA didn't 
used to give me numbers, then at the DOH Environmental Inspection 
Bureau, an Inspector Stable told me I had to call the DEP. At DEP I 
left three messages--with three different people, asking for a callback 
about questions about standards.
    After about six visits to my apartment, I would wake up coughing 
the morning following the visit. I headed to the doctor and was told 
that I had something that could be described as ``spontaneous asthma'' 
and was given one of those inhalers. A week after that, I coughed 
myself into an emergency room in St. Vincent's. In subsequent years I 
developed GERD and still get out of breath coming up the subway stairs.
    But in 2001, once I got proficient with NYCOSH and OSHA's 
recommendations for workers and bought the P100 respirators the 
reaction subsided somewhat. But what that meant is every time we walked 
into my apartment, I'd need to don a Tyvex suit with hood and boots, 
latex gloves, respirator and goggles. And I'd need to see if I could 
use the wash station at the site, on the way out to try not to track 
this where I was staying. But I couldn't afford to get new Tyvek each 
day. My studio and equipment was destroyed, I had no source of income. 
I finally found out in 2002, that I wasn't changing the cartridges on 
the respirators frequently enough.
    Anyway, to try to save the possessions, to try to save our artwork, 
to try to save our livelihoods, we had to be amateur Tier II OSHA 
workers.
    We went to try to get professional help cleaning the apartments. 
Estimates were $19,000 to $26,000 for EACH apartment. This is not 
something most of us could afford. The Red Cross offered us between 
$1,000 and $2,000 for cleaning an apartment that required asbestos 
remediation which costs approximately $20,000.
    The landlord wanted us back in and paying rent and wanted us to 
sign a wavier that named clearance levels for moving back into the 
building--but, as I said, we couldn't get any State or Federal agency 
to give us numbers. The city was telling us to clean up with wet mops 
and wet rags. It was unconscionable.
    Finally some brave souls took up our cause. Between Congressman 
Nadler who brought the EPA Ombudsman Hugh Kaufman to hold a hearing in 
NYC in 2002 and shine a light on the EPA leaving the residents and 
workers and responders in Lower Manhattan in the dust, and State 
Assembly Speaker Sheldon Silver, who forced the agencies and utilities 
to sit down and meet with us to come up with a plan to get us back home 
(not to mention, what I understand to have been closed door meetings 
between an unnamed State assistant attorney general and lawyers for 
EPA), EPA was forced into doing a proper testing and remediation for 
our building using DEP contractors.
    But what about the rest of the neighborhood? What about all of 
Lower Manhattan? What about 10 years of heavily contaminated Deutsche 
Bank next door? Rooftops that were NEVER cleaned? What about the 
schools in the area whose kids came back way too soon?
    And what was the motive of Christine Todd Whitman, and other top 
officials in the EPA for lying to the public and for not doing their 
job? Now is the time to make this terrible betrayal right. The Federal 
Government needs to take responsibility for abandoning us after we were 
attacked at home by terrorists on that horrible morning.
    Thanks to Senator Gillibrand we have a new champion in Washington 
who does see that we should not be abandoned by our own government and 
that we should have access to health care for our WTC-related 
illnesses.
    We are now turning to you to make sure that the federally funded 
WTC health programs needed by responders and survivors are there for us 
now and in the future.
            Sincerely,
                                              Mary Perillo.
                                 ______
                                 
                                              July 9, 2010.
Hon. Tom Harkin,
731 Hart Senate Office Building,
Washington, DC 20510.

Hon. Mike Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Enzi: As a 9/11 survivor, I 
am writing to state my strong support for S. 1334, the``James Zadroga 
9/11 Health and Compensation Act of 2009,'' that would provide medical 
monitoring, treatment and compensation for responders and survivors 
whose health has been impacted by the 2001 terrorist attack on the 
World Trade Center (WTC) and its aftermath.
    I strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 
9/11.
    H.R. 847, the House of Representatives' version of this bill, has 
passed both the House Judiciary and Energy and Commerce committees, 
which is a significant step towards achieving justice for the survivors 
and responders of 9/11.
    I live three blocks south of the World Trade Center (WTC) site. On 
September 11, I was caught in the dust cloud. After 5 months of being 
displaced from my building, I moved back into my apartment. Even after 
being away, I saw upon our return that there were many reservoirs of 
toxic dust from 9/11 that permeated my home, my building and my 
neighborhood. The EPA conducted no testing of our building, in spite of 
the fact that it had deemed buildings in the immediate vicinity (where 
conditions seemed identical to ours) to be contaminated. To this day I 
am not certain of the degree to which my apartment and the rest of my 
building have been cleaned of World Trade Center dust. I still worry 
about reservoirs of dust in behind my heater and in the air ducts.
    Although I had pre-existing asthma, my asthma became more severe 
after 9/11. Subsequent tests at the Bellevue WTC Clinic showed that my 
lung capacity was only 43 percent of normal. During this time I also 
suffered from severe acid reflux. I am now on five medications for my 
ailments. I am very fortunate to be getting specialized treatment at 
the World Trade Center Environmental Health Center (WTC EHC) at 
Bellevue, from doctors trained in recognizing and treating WTC 
illnesses.
    The director of the WTC EHC, Dr. Joan Reibman has established the 
only center of excellence to treat Lower Manhattan residents, area 
workers and students who are now sick from their 9/11 exposures. Dr. 
Reibman was one of the first in the medical profession to establish a 
link between the 9/11-related exposures of inhabitants who were not 
first responders, and their subsequent illnesses. The WTC EHC is 
consistent and thorough in its methods for treating all illnesses 
related to 9/11, both psychological and physical, and currently depends 
on limited funds from the city's coffers.
    Today there is no cure for my condition, and it is medically 
necessary for me to be properly monitored and maintained on medication 
in order for me to stay healthy. In addition, it is essential that 
those of us who are sick have the benefit of being followed by doctors 
at centers of excellence who will be able to recognize any trends among 
the population of WTC-affected non-responders.
    The bottom line is that unless the Federal Government is willing to 
fund WTC-related health care for residents, I will one day cease to get 
the care I need from Bellevue.
    The events of 9/11 have made me a victim of a crime. The negligence 
of the EPA, and its failure to tell the public about the true nature of 
the toxic smoke and dust from the WTC disaster, meant that those in 
proximity were subject to ongoing health risks that could have and 
should have been prevented. Now my health is suffering. I ask the 
Federal Government to provide this much-needed support for those of us 
who were harmed as a result of this attack on our Nation.
    I am sincerely grateful for your time and attention in support of 
this bill.
            Sincerely,
                                           Esther Regelson,
                                                New York, NY 10006.
                                 ______
                                 
                                             June 25, 2010.
Hon. Tom Harkin,
U.S. Senator,
Hart Senate Office Building,
Washington, DC 20510.

    Dear Senator Harkin: Thank you and your distinguished members of 
the Senate for allowing me an opportunity to tell my 9/11 story and to 
let me express the importance of passing the James Zadroga Bill (H.R. 
847) with bipartisan support by the ninth anniversary of 9/11.
    My name is Marvin Bethea, and I was a healthy NYC Paramedic 
dispatched to the World Trade Center (WTC) on September 11, 2001. 
Everyone in this room remembers exactly where they were when first 
hearing about 9/11. I arrived after the second tower had been struck. 
There was total chaos at the scene.
    I was a block away treating patients in a bank. As I was about to 
evacuate the patients from the bank, someone yelled, ``the tower the 
tower!'' As I looked up, I saw, and then heard the rumble of the tower 
beginning to fall. I told everyone to take cover in the bank. I knew I 
was going to die. I just asked God to let it be quick. In my 23 years 
in Emergency Medical Service (EMS), I have had a gun put to my head 
twice and been shot at once. Nothing compares to the tower falling 
down, NOTHING!!!!
    We went from day to night. Normally at night, you can see a little. 
Imagine being completely blind, hearing this loud noise getting closer 
and closer to you until the noise was on top of you while being hit 
with debris from all over and having dirt (which we know now was toxic) 
being poured down your throat. Everyone was able to finally get out of 
the bank and head north. Damn, I would have loved to have joined them, 
but I knew I had a job and duty to do, so that is what I did with 
honor.
    Finding my paramedic partner after the first tower collapse, I 
assisted him in loading injured people in our ambulance. I stayed at 
the scene to treat other injured people. A woman came out of the second 
tower bleeding and crying. She collapsed in front of me. As I helped 
her, I told her, ``you are going to make it.'' At that point, I heard 
the rumble again; it was the second tower collapsing. Luckily for us, 
the Hilton Millennium was right in front of us. As we dove into the 
hotel, we were covered in debris. Again I asked God to let it be quick. 
Once again my life was spared. As a black man, you couldn't tell what 
race I was due to all the dust that had covered me.
    I could go on and on about what we saw that day, but I am sure all 
of you have heard numerous horror stories about that day. I was healthy 
and happy before 
9/11. After losing 16 people I knew from the police, fire and EMS 
departments that day, I am not healthy and I am not happy. You see, the 
stress of 9/11 became too much, and on October 16, 2001 at 41 years 
old, I suffered a major stroke which left me paralyzed. I said if I can 
survive the collapse of two towers, I can beat a stroke. I recovered 
and went back to full duty as a paramedic 3 months to the day.
    I was taking two medicines (for ulcerative colitis) before 9/11. 
Now I currently take between 10-15 medicines depending on how I feel. 
My diagnoses are Post Traumatic Stress Syndrome (PTSD), major 
depression, asthma, sinusitis and sleep apnea. I had to stop working 
January 2004.
    I pray to God every day I don't develop any other health problems 
because if I do, the workers comp systems will make my life ``A Living 
Hell'' about the claim. If you found what I just said offensive then 
maybe you will get the sense that myself and so many of the people here 
(at the hearing) find it offensive the way we are being treated.
    You called us ``Heroes and Treating Us like Zeroes.'' Our elected 
officials and government said ``We Will Never Forget'' and yet we 
constantly see a case of what I refer to as Political Blindness. For 
those of you who don't know what ``Political Blindness means--Look the 
Other Way.'' Tell me if I am wrong, but I feel like so many other 
responders do, that the government and the workers comp system want us 
to die so they can say ``Well We Just Got Rid of Another One of Them.'' 
At times, I wish I had died on 9/11 so I wouldn't have to be victimized 
twice by this horrific event.
    Opening the 9/11 Fund will not give me my health back, hell it 
won't even make me whole. I want the fund to assist my fellow 
responders who are trying to get their lives and families back. Give us 
back some of our dignity. Do you have any idea what stress does to a 
person who can't provide for his or her family, let alone themselves? I 
was fortunate to have received something from the fund initially. 
However, I am incurring medical expenses that are not covered by my 
insurance (dental work). Believe me, I am grateful that I have 
insurance, but you must remember that it is no fault of my own that I 
am unable to work anymore. I don't have the option of, if I need 
something, just working a few extra shifts to get it. I have to just 
make do. Fortunately, I have friends who have helped me get some of the 
things I needed done. Not everyone has that option.
    It would be great to just be able to receive the benefits we are 
entitled to. I did not say ``entitlement'', as some Members of Congress 
have referred to the fund, as if 9/11 victims will be receiving 
something we do not deserve. When I personally witnessed a Member of 
Congress refer to H.R. 847 with such a negative spin, I felt worse than 
someone calling me the N word. Why not just kick me to the curb and 
spit on me? I am not here politically grandstanding either.
    This reminds me of when I was trying to obtain my workers 
compensation benefit. The lawyer representing my employer's insurance 
carrier said to the administrative law judge, ``Your Honor, how do we 
know that Mr. Bethea was actually down there and if he was, what was he 
doing there?'' Mind you, my employer had already acknowledged I was 
down there because, in May 2002 for National EMS Week, myself and five 
others from my department were presented plaques from St. John's 
Hospital of Queens (Division of St.Vincent's Hospital my employer) and 
a citation from NYC City Council for our heroic work on 9/11. The event 
was on television and in the newspaper, so how do you come to court to 
raise an issue that you know is false? The rage I had at that moment I 
just wanted to climb across the table and do my best to stomp the 
attorney and to spit in his face. That type of rage troubles me because 
I am not a violent person, but you can only be pushed so far.
    I urge the government to instruct all agencies, State and Federal, 
to work with us to help us get what benefits we are entitled to and to 
stop trying to find every sleazy way not to give us our benefits. I 
could go on and on about the James Zadroga 9/11 bill H.R. 847, but I 
won't.
    I just want to say this; it has been almost 9 Years. Can you 
imagine the outrage this country would have had if it took me 9 years 
to respond to the WTC? Not only would the public have wanted my job and 
my medical certification, they would have wanted me charged criminally 
for breach of duty and to prosecute me to the fullest extent of the 
law. Those were the standards I was held to every day, so why shouldn't 
our government be held to the same standards? Were the men and women of 
9/11 any less heroic than our soldiers fighting overseas today? The 
answer to that is NO. As a matter of fact, many of the soldiers I have 
met say they enlisted because of what happened to us on 9/11.
    Put your political parties and differences aside and let's unite as 
one as we did on 9/11. As John Lennon said, ``Come together right now 
over me''. Thank you for giving me this opportunity to speak. God Bless 
each and everyone one of you and God Bless the United States of 
America.
            Sincerely,
                                          Marvin E. Bethea,
                                                     NYC Paramedic,
                                     St. John's Hospital of Queens.

                                 ______
                                 
                      Community Advisory Committee,
                                             June 25, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re: S. 1334/H.R. 847 ``The James Zadroga 9/11 Health & Compensation Act 
of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On behalf of the 
Community Advisory Committee (CAC) of the World Trade Center 
Environmental Health Center (WTC EHC), we write in strong support of S. 
1334, the James Zadroga 
9/11 Health and Compensation Act of 2009, a bill that would provide 
medical monitoring, treatment and compensation for responders and 
survivors whose health has been impacted by the 2001 terrorist attack 
on the World Trade Center (WTC) and its aftermath.
    We strongly urge you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest possible 
protections for the survivors of 
9/11. H.R. 847, the House of Representatives' version of this bill, has 
now passed both the House Judiciary and Energy and Commerce committees, 
a significant step towards achieving justice for the survivors and 
responders of 9/11.
    As we know you recognize, 9/11 was an attack on our Nation that 
targeted civilians, many of whom were exposed to toxic dust and smoke 
from the collapse and burning of the WTC. In addition, along with many 
9/11 responders, many people who lived, worked, or attended school in 
Lower Manhattan at the time of the attacks have become ill as a result 
of the Federal Government's false assurances that ``the air is safe'' 
and its failure to provide proper environmental cleanup. It is 
therefore imperative that our Federal Government help to provide WTC-
specialized care for all whose health was harmed as a result of the WTC 
disaster.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized WTC-related medical programs. The continued availability of 
specialized medical care at these programs from health professionals 
who have developed expertise in treating 9/11-related illnesses is 
critical.
    The WTC EHC is the center of excellence serving the health needs of 
non-
responder survivors of the 9/11 attacks. It was formed in direct 
response to the emergence of serious 9/11 health effects in the 
community.
    In 2007, the Community Advisory Committee of the WTC EHC was 
formalized. It is made up of representatives of advocacy and community-
based organizations, labor unions, three New York City community 
boards, individual patients at the WTC EHC and advocates for those who 
were affected by the WTC attacks and who were exposed to environmental 
contaminants in its aftermath. A broad base of over 30 organizations is 
currently represented on the CAC. Many of those organizations have 
separately submitted letters of support for S. 1334 as well.
    We therefore especially ask that, as you consider S. 1334, that you 
protect the ``Survivor Program,'' currently based at the WTC EHC, so 
that it can continue to meet the needs of more than 4,700 residents, 
area workers, and students, including people now residing in 23 States, 
who survived 9/11 but who are now sick as a result of their WTC 
exposures. Many survivors, including children, are now struggling to 
recover their health, and others may develop WTC-related illnesses in 
the future. They urgently need your help.
    It is particularly important to remember that the concentration of 
a group of affected patients in one program facilitates the 
identification and treatment of 9/11-related illnesses and provides a 
special base of knowledge not duplicated elsewhere. The survivor 
program offers a window on the health conditions suffered by those in 
the survivor community and insights on the unmet health needs of these 
populations.
    The WTC EHC CAC strongly urges you to do all you can to ensure that 
this important legislation passes your committee, the Senate as a whole 
and is brought to President Obama for signature.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                            Kimberly Flynn,
                                                Community Co-Chair.

                                            Robert Spencer,
                                                    Labor Co-Chair.

                                 ______
                                 
                  City of New York Fire Department,
                                   Brooklyn, NY 11201-3857,
                                                     June 25, 2010.
U.S. Congress,
Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Re: S. 1334--James Zadroga 9/11 Health and Compensation Act of 2009

    Dear Senate Committee Members: I am grateful for the opportunity to 
submit this letter on behalf of the New York City Fire Department 
(FDNY) in support of S. 1334. This bill provides absolutely essential 
long-term funding for the monitoring and treatment of our members who 
took part in the rescue and recovery at the World Trade Center (WTC) 
site following the terrorist attacks of 9/11.
    In the months following the attacks, nearly every FDNY member 
suffered significant and repeated exposures to WTC dust and chemicals, 
risking their life and health. For almost a decade since, the FDNY 
World Trade Center Medical Monitoring and Treatment Program has allowed 
the Department to provide vital treatment to and monitoring of our 
affected members. Because we are the only group with pre-9/11 baseline 
health data, the FDNY is uniquely capable of measuring the effects of 
WTC exposure on our members.
    Congressional funding has been the linchpin of these efforts. It 
has allowed us to continue our monitoring and treatment, and also to 
analyze our results, develop treatment protocols and share this 
information with other healthcare providers caring for patients facing 
similar exposures. But without legislation ensuring sustained funding, 
the program's future remains uncertain.
    On a personal note, I was at Ground Zero at the time of both 
collapses. Many friends and co-workers of mine lost their lives that 
day. Many others continue to suffer with respiratory illness and other 
conditions--both mental and physical--
requiring ongoing, extensive treatment. I know first-hand how our 
members responded on 9/11, how they have been affected, and how 
critically important our treatment and monitoring programs have been to 
them.
    Our first responders demonstrated their commitment to serve the 
public on 9/11. Now, we need Congress and the President to make a long-
term commitment to them. As always, we sincerely appreciate all of your 
past efforts and your support of our members.
    I strongly urge you to support S. 1334.
            Sincerely,
                                      Salvatore J. Cassano,
                                                 Fire Commissioner.
                                 ______
                                 
                                     June 27, 2010.

    Dear Senator Gillibrand: I am writing with regard to my husband 
Kevin J. Cassidy. I am Rose Cassidy. The two of us met in 1970. Kevin 
had recently returned from service with the U.S. Army. He had taken the 
test to become a NYC Firefighter in 1972. A goal of his since childhood 
and that is all I heard him talk about doing. The list was then frozen 
for 5 years. He almost gave up but in the fall of 1977 he was called to 
Join the Fire Department.
    He worked in the Bronx for 13 years. Most of his time was spent in 
Ladder Company 48. Due to his promotion to Lieutenant he transferred to 
work in Brooklyn with Ladder Company 104. While going into work the 
evening of May 31, 1991 he responded to a fire call (while still off 
duty) and saved a mother and her three children. This was done without 
the aid of a mask, radio, or hose line.
    On March 10, 1998, Kevin was promoted to Captain. He eventually 
settled into Engine 320 in Bayside, Queens. On September 11, 2001 I 
arrived at work and the girls told me to watch what was happening on 
TV. The first Tower was on fire. I immediately called Kevin at home. He 
just jumped into his car and was off to help. He made the last bus to 
take staff down to the site. They made it there before the collapse of 
Tower 1. The rest is history. We heard almost nothing from him that 
week as they struggled with events they never had to deal with. My 
daughter Jean who was living at home wouldn't sleep until her dad was 
home.
    Kevin was a healthy and fit man. It was in 2003 on a routine Fire 
Department physical that they detected microscopic blood in his urine. 
At first they thought they were Kidney stones but the CT showed a mass. 
Kevin had a nephrectomy on his right side. His tumor was a mix of renal 
cell carcinoma papillary and collecting duct type. Collecting duct type 
is a rare and usually aggressive cancer. In November 2007 Kevin had a 
change on his CT of his Chest. There were two enlarged lymph nodes. 
This is one of the most common metastatic sites for Renal Cancer. It 
was through the out-of-the box thinking of his oncologist that Kevin 
had Chest surgery to remove these nodes. There is no known chemotherapy 
to date to treat this type of cancer. This bought him time until on 8/
30/2009 he lost the battle with this disease.
    I know the emotional and physical impact dealing with cancer has on 
a family. I have lost my life partner, my girls their father, his 
mother wondering why her son died before her, and many others in the 
family affected by the loss. Just a few days before Kevin passed away 
we were consulting with an oncologist in Chicago. We were looking for 
that needle in the haystack that might make a difference. When that 
oncologist said to him, I guess with what we know now you would have 
done things differently. Kevin quickly replied, `` Absolutely not, we 
had brothers and people down there that needed help.''
    I am requesting that the victims from 9/11/01 be allowed to be 
treated and compensated for the many ailments the exposure to such 
toxic dust and fumes from that day caused. We know that some of the 
ailments were immediate such as Asthma but many others do not show up 
until years later as in asbestos exposure. My concern is for all who 
were at Ground Zero.
            Sincerely,
                                              Rose Cassidy.

                                 ______
                                 
                             Community Board No. 1,
                                             June 28, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: We are writing in 
strong support of S. 1334, the ``James Zadroga 9/11 Health and 
Compensation Act of 2009,'' that would provide medical monitoring, 
treatment and compensation for responders and survivors whose health 
has been impacted by the 2001 terrorist attack on the World Trade 
Center (WTC) and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    9/11 was an attack on our Nation that targeted civilians. In 
addition, many 9/11 responders and New Yorkers have become ill as a 
result of the Federal Government's false assurances in the aftermath of 
the attack that the air was safe and its failure to provide proper 
environmental cleanup. It is therefore imperative that our Federal 
Government provide specialized care for everyone whose health was 
harmed as a result of the WTC disaster, responders and survivors alike.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as the heroic responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    On behalf of Community Board One, which represents the Lower 
Manhattan community in which the World Trade Center site is located, we 
urge you to protect the ``Survivor Program,'' currently based at the 
World Trade Center Environmental Health Center (WTC EHC), so that it 
can continue to meet the needs of the more than 4,700 residents, area 
workers, and students, including people now residing in 23 States, who 
survived 9/11 but who are now sick as a result of their WTC exposures. 
Many survivors, including children, are now struggling to recover their 
health, and others may develop WTC-related illnesses in the future. 
They urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                               Julie Menin,
                                                       Chairperson.

                                    Catherine McVay Hughes,
                                                  Vice Chairperson.

                                 ______
                                 
                  Community Board No. 2, Manhattan,
                                   New York, NY 10012-1899.
                                                     June 24, 2010.

Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

    Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and 
Compensation Act of 2009''
    Dear Chairman Harkin and Ranking Member Enzi: We are writing to 
state our organization's strong support for S. 1334, the ``James 
Zadroga 9/11 Health and Compensation Act of 2009,'' that would provide 
medical monitoring, treatment and compensation for responders and 
survivors whose health has been impacted by the 2001 terrorist attack 
on the World Trade Center (WTC) and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    As we know you recognize, 9/11 was an attack on our Nation that 
targeted civilians. In addition, along with many 9/11 responders, many 
New Yorkers have become ill as a result of the Federal Government's 
false assurances that ``the air is safe'' and its failure to provide 
proper environmental cleanup. It is therefore imperative that our 
Federal Government provide WTC-specialized care for all whose health 
was harmed as a result of the WTC disaster, responders and survivors 
alike.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as the heroic responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    Our organization represents Lower Manhattan, from 14th Street to 
Canal Street, 4th Ave/Bowery to the Hudson River, an area that was 
impacted by the dust cloud and was for many days under the plume 
emanating from the fires at Ground Zero, but was nonetheless excluded 
from the Environmental Protection Agency's 2002-03 clean up. Scientists 
from the University of California at Davis took readings from the roof 
of the Federal Building at 209 Varick Street in our district and found 
higher concentrations of particulates than in their reading from the 
Kuwait oil fires during the Gulf War.
    As representatives of the Lower Manhattan community, we especially 
ask that you protect the ``Survivor Program,'' currently based at the 
World Trade Center Environmental Health Center (WTC EHC), so that it 
can continue to meet the needs of the more than 4,700 residents, area 
workers, and students, including people now residing in 23 States, who 
survived 9/11 but who are now sick as a result of their WTC exposures.
    Many survivors, including children, are now struggling to recover 
their health, and others may develop WTC-related illnesses in the 
future. Lives have been restored and saved by the uniquely qualified 
and knowledgeable medical team at the survivor's Center of Excellence 
that began at Bellevue, under Dr. Joan Riebman's medical direction and 
leadership, and that has expanded to include Gouverneur and Elmhurst 
hospitals. They urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                               Jo Hamilton,
                                Chair, Manhattan Community Board 2.

                                           Jason Mansfield,
     Chair, Environment, Public Safety and Public Health Committee,
                                       Manhattan Community Board 2.

                                 ______
                                 
                                    Concerned Stuyvesant Community.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On behalf of 
Concerned Stuyvesant Community, I am writing to state my organization's 
strong support for S. 1334, known as the James Zadroga 9/11 Health and 
Compensation Act of 2009, that would provide medical monitoring, 
treatment and compensation for responders and survivors whose health 
has been impacted by the 2001 terrorist attack on the World Trade 
Center (WTC) and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    As we know that you recognize, 9/11 was an attack on our Nation 
that targeted civilians. In addition, along with many 9/11 responders, 
many New Yorkers have become ill as a result of the Federal 
Government's false assurances that ``the air is safe'' and its failure 
to provide proper environmental cleanup. It is therefore imperative 
that our Federal Government provide WTC-specialized care for all whose 
health was harmed as a result of the WTC disaster, responders and 
survivors alike.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as the heroic responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    Our organization represents parents of students, students, and 
faculties of Lower Manhattan schools who were exposed during this 
disaster and its aftermath, many continuously through today.
    Reminder that as Students/Faculty--They had no option but to return 
to their school after as short as a 3-week stay elsewhere--after false 
reassurances of safety, due to inaccurate reports on the cleanup. A 
toxic brew of materials both in schools through the ventilation system 
and outside with a hazardous debris barge dumping operation of the 
discarded material right next to the schools continued the dust and 
debris exposures through nearly the end of that school year. That 
churning of toxic dust was constant over 9 months and was not properly 
cleaned to this day.
    As a Lower Manhattan community-based organization, we especially 
ask that you protect the ``Survivor Program,'' currently based at the 
World Trade Center Environmental Health Center (WTC EHC), so that it 
can continue to meet the needs of the more than 4,700 residents, area 
workers, and students, including people now residing in 23 States, who 
survived 9/11 but who are now sick as a result of their WTC exposures. 
Many survivors, including children, are now struggling to recover their 
health, and others may develop WTC-related illnesses in the future. 
They urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                             Lori Pandolfo.
                                 ______
                                 
                         9/11 Environmental Action,
                                        New York, NY 10025,
                                                     June 25, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re: S.1334/H.R.847 ``The James Zadroga 9/11 Health & Compensation Act 
of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On behalf of 9/11 
Environmental Action (EA), I write in strong support of S. 1334, the 
James Zadroga 9/11 Health and Compensation Act of 2009, a bill that 
would provide medical monitoring, treatment and compensation for 
responders and survivors whose health has been impacted by the 2001 
terrorist attack on the World Trade Center (WTC) and its aftermath.
    We strongly urge you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest possible 
protections for the survivors of 
9/11. H.R. 847, the House of Representatives' version of this bill, has 
now passed both the House Judiciary and Energy and Commerce Committees, 
a significant step towards achieving justice for the survivors and 
responders of 9/11.
    As we know you recognize, 9/11 was an attack on our Nation that 
targeted civilians, many of whom were exposed to toxic dust and smoke 
from the collapse and burning of the WTC. In addition, along with many 
9/11 responders, many people who lived, worked, or attended school in 
Lower Manhattan at the time of the attacks have become ill as a result 
of the Federal Government's false assurances that ``the air is safe'' 
and its failure to provide proper environmental cleanup. It is 
therefore imperative that our Federal Government help to provide WTC-
specialized care for all whose health was harmed as a result of the WTC 
disaster.
    9/11 Environmental Action is the community-based organization of 
residents, school parents and occupational safety and environmental 
health advocates that formed in April 2002 to spearhead the downtown 
community's fight for full disclosure of WTC hazards, and proper 
testing and cleanup of WTC indoor contamination by the EPA. In 
addition, 9/11 EA has long advocated for federally funded medical 
monitoring and health care for everyone whose health was harmed by WTC 
dust and smoke.
    In the course of our work downtown, we can attest that in the weeks 
and months after 9/11, residents, school parents and others were left 
to struggle on their own to protect themselves and their children from 
unprecedented toxic exposures, including hazards that had contaminated 
homes, schools and offices. Moreover, as people became sick from those 
exposures, they had no access to accurate environmental health 
information, appropriate health guidance or proper medical evaluation 
or care.
    The ``Survivor Program'' based at the WTC EHC is the center of 
excellence serving the health needs of non-responder survivors of the 
9/11 attacks. The concentration of experience and expertise in tracking 
and treating WTC conditions at WTC EHC has enabled this program to 
achieve and maintain a standard of effectiveness that is impossible to 
reproduce elsewhere. This excellence, combined with its reach into the 
affected community, establishes the Center as by far offering the best 
use of Federal 9/11 treatment dollars.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized WTC-related medical programs. The continued availability of 
specialized medical care at these programs from health professionals 
who have developed expertise in treating 9/11-related illnesses is 
critical.
    We therefore especially ask that, as you consider S. 1334, that you 
protect the ``Survivor Program,'' currently based at the WTC EHC, so 
that it can continue to meet the needs of more than 4,700 residents, 
area workers, and students, including people now residing in 23 States, 
who survived 9/11 but who are now sick as a result of their WTC 
exposures. Many survivors, including children, are now struggling to 
recover their health, and others may develop WTC-related illnesses in 
the future. They urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                            Kimberly Flynn.
                                 ______
                                 
                                                     June 28, 2010.
Hon. Kirsten Gillibrand,
478 Russell Senate Office Building,
Washington, DC 20510.

    Senator Gillibrand: The events of 9/11 caught everyone by surprise. 
Men and women from all over the area, rushed in to help those who had 
been impacted by the planes, the fires and the collapses. The workers 
who stayed, those who spent days and weeks and months on the site of 
the horror, have been and are continuing to show a variety of terrible 
health symptoms from exposure to the site. These people did not 
hesitate to help when they were needed, and stayed to show the world 
that they believed in our country and the future of our way of life. 
They are now being punished by the toxins they were exposed to for 
their noble efforts.
    My husband, Lt. Peter J. Farrenkopf, spent 30 years loving his job 
with the FDNY, and on that horrible day, he was on duty at the Marine 
Division at the Brooklyn Navy Yard, and with the fire boats was one of 
the first responders. He continued to return to the site for weeks. 
there was not even a question about his being there, because in his 
heart it was the right thing to do. He was diagnosed in July 2009 with 
glio blastoma, a brain cancer which is like a freight train . . . very 
fast and just impossible to stop. He was dead in 3 months. After 
watching my dear husband become ill and die at the age of 56, I would 
do anything to help people who find themselves in the same or a similar 
position.
    The fact that men and women from the tri-State area (and many 
points elsewhere, remember how they kept coming??!!) are only NOW 
becoming ill from the toxins released on that day is strong statement 
that we need to continue to provide for these heroes. They were on the 
front lines for our people, our city and our country, when it counted. 
We canNOT allow the funds for their monitoring, diagnosis and 
treatments be stopped. We must make sure our commitment to this cause 
is for the long haul, and that the WIC 9/11 ZADROGA BILL is passed.
    Thank you for your time.
            Sincerely,
                                 Janet Bellusci Farrenkopf,
                                             Ulster Park, NY 12487.

                                 ______
                                 
      Federal Law Enforcement Officers Association,
                                      Lewisberry, PA 17739,
                                             June 28, 2010.
Hon. Kirsten E. Gillibrand,
U.S. Senate,
Washington, DC 20510.
    Dear Senator Gillibrand: As the National President of the 26,000 
members of the Federal Law Enforcement Officers Association (FLEOA), as 
well as your New York State constituent, I am writing to express our 
members' sincere appreciation for your introducing the James Zadroga 9/
11 Health and Compensation Act of 2009. Our membership is unified in 
its support for this important bill, and we are optimistic that you 
will make all efforts to move this legislation forward.
    FLEOA has met with numerous Members of Congress to support H.R. 
847, and we are encouraged by its favorable vote out of full committee. 
In working with our New York Coalition partners, in particular the 
Sergeants Benevolent Association, we stand ready to educate any 
reluctant members of the Senate on the importance of your bill. Our 
message is clear: there are 50 stars on our flag, and an attack on one 
of them is an attack on all of us.
    In addition to those of us still working in New York, FLEOA has 
numerous members who were first responders to Ground Zero and are 
currently residing in other States. Indeed, this is a nationwide 
problem, and with the passage of your bill, all first responders will 
have access to medical screening and treatment. It is painfully clear 
that the harmful toxins we were exposed to are finally taking their 
lethal toll on our health. We are counting on you to champion our 
cause, and we are prepared to support you with our full resources. 
Please do not hesitate to contact me, or Andy Quinn, our Washington, DC 
representative, at 202-680-0447.
            Respectfully,
                                                  J. Adler,
                                                National President.
                                 ______
                                 
                                     Patricia Hess,
                                     Stone Ridge, NY 12484,
                                                     June 26, 2010.
Hon. Kirsten Gillibrand,
478 Russell Senate Office Building,
Washington, DC 20510.
    Dear Senator Gillibrand: I have a story that should be told, in 
fact, that needs to be told. My name is Patricia Hess and I am a widow. 
I lost my husband Robert Hess just 2 months ago. We had been married 
for 18 years and we had four wonderful children together. Our daughter 
Kimberly--17, our twin sons Robert & Brian--12, and our joyful youngest 
Connor--9, were the pride and joy of Rob's life. The hole left by his 
absence is still gapping and raw and I'm not sure how I will fill it.
    Rob was a New York City Fireman for almost 25 years. He worked his 
way up through the ranks, achieving the grade of Lieutenant. He loved 
the FDNY. It was his second family and he was proud to serve the city 
he had called home. I was the wife of a New York City Fireman and so I 
was always prepared for the worst; that call in the middle of the 
night, the knock on the door by men dressed in blue with somber faces. 
It was a reality I dealt with, always prepared for the worse and 
praying for the best each time I heard about a terrible blaze or a 
fireman killed in the line of duty.
    Rob responded on the morning of September 11, 2001. To be honest, I 
had thanked God every day that he was not among the first on site or 
our family would not have had him to love for all the years since that 
horrible day. He arrived at Ground Zero just after the collapse of 
Tower Two and remained on scene for the next 20 hours. He was there to 
witness Building Seven crumble to the ground. We lost many fine people 
that day, many friends, and Rob carried that loss with him in the 
ensuing years.
    For the next 2 months he worked in midtown Manhattan, riding on 
Engine 26. This engine had been on site during the collapse of both 
towers and was covered with a thick coat of dust and some debris. It 
was miraculous that the driver of Engine 26 survived and was rescued. 
Over the course of the first 2 weeks of Rob's tour in midtown, Engine 
26 remained covered in the dust of the once grand World Trade Center. 
He, like all the other proud and loyal FDNY members did not know that 
this dust would later cause them much hardship; he only knew he had to 
help.
    When the World Trade Center Monitoring Program began, Rob, being a 
prudent person, registered right away. Over the past 4 years he was 
screened for any emerging health issues. He had semi-annual cat scans 
of his lungs. In February 2010 when he went for the first of his two 
annual scans it was discovered that he had a carcinoid tumor in his 
right lung airway. On April 23 he went to NYU hospital to have it 
removed, along with \2/3\ of his lung. We were told it was a fairly 
routine surgery and had every confidence in the doctors and the 
outcome. Four days after the surgery Rob began having difficulty 
breathing. It was determined he had pneumonia and he was placed on a 
respirator. On Sunday May 2, despite heroic efforts from the medical 
team at NYU that went on for nearly 35 minutes, my husband died at 6:07 
p.m. of coronary arrest. His death has been attributed to his service 
during the response to the terrorist attacks on the World Trade Center.
    I am writing to you to say that without the World Trade Center 
Monitoring Program my husband would have likely died a horrible cancer-
related death, never understanding how 9/11 had impacted his health. 
Rob was one of the fortunate ones, he acted quickly and he was able to 
register to receive the screenings. Had he not, the tumor would have 
grown and spread. It is sad to say that other first responders, as well 
as residents from the neighborhoods surrounding Ground Zero, have not 
been as fortunate to receive this kind of monitoring. It is also sad to 
think that many who have become, or who will become ill, will never 
know if the events of September 11th are the real culprit.
    The James Zadroga 9/11 Health and Compensation Act of 2009 can help 
ensure that these people--fathers, mothers, sons and daughters--are 
given the same chance at life that my husband Robert Hess was. While 
one can never really understand why someone survives or not after a 
life altering surgery, the fact of the matter remains that the 
monitoring program helped to identify the cancer and gave Rob a 
fighting chance. Every first responder as well as the people who lived 
and worked surrounded by a cloud of toxic dust, and every man and woman 
who spent months doing cleanup at Ground Zero should be given this same 
opportunity.
    The James Zadroga 9/11 Health and Compensation Act will do exactly 
that, provide screenings and treatments to those impacted and adversely 
affected by the events of September 11, 2001. It will also help those 
who suffer with the emotional and stress related problems that we often 
see in soldiers who experience combat. I know of no one who experienced 
first hand the World Trade Center's destruction that wouldn't say they 
had been in a combat zone. As we protect our military, so too should we 
protect all of our citizens.
    My husband never hesitated to answer the call to duty, he served 
with pride and honor. He valued what he did and he brought value to the 
FDNY through his presence. My family is left with a void. My children 
will not have their father at birthdays and graduations. Our holidays 
will be less joyful without his booming laughter. My daughter will not 
have her father to walk her down the isle on that so special day. And 
me, well I will go to sleep at night with an empty space beside me and 
an even emptier space in my heart.
    Please Senator, for my family and all the others who might be 
facing this terrible situation in the years to come, please pass the 
James Zadroga 9/11 Health and Compensation Act.
            Thank you,
                                             Patricia Hess.
                                 ______
                                 
                                 Jennifer McNamara,
                                Blue Point, New York 11715.

    Thank you Senator Gillibrand, and all the co-sponsors of this bill 
for giving me the opportunity to submit a statement today and for the 
fight you have taken up on behalf of sick 9/11 Responders.
    My name is Jennifer McNamara and I am the widow of FDNY Firefighter 
John F. McNamara. On August 9, 2009, John, only 43 years old, died of 
colon cancer. John worked over 500 hours at Ground Zero, had no genetic 
predisposition to cancer, did not smoke, and drank only socially. He 
was strong and in good health--just look at the pictures. When he was 
diagnosed, we were expecting our first child, Jack, who is now 3\1/2\.
    Upon diagnosis in June 2004, John's cancer was considered to be end 
Stage 4. It had infiltrated other organs, and there was little chance 
he would survive. John had no warning that he was sick--just sudden and 
severe stomach pain one day. I firmly believe, as did John, that if his 
health had been monitored, he would have had a chance at surviving the 
cancer.
    From almost the first moment he was diagnosed, John became an 
advocate for other sick 9/11 Responders. He teamed up with John Feal 
and also helped to found the NYC Firefighter Brotherhood Foundation. He 
knew that without medical monitoring and medical assistance, many 
people who responded on 9/11 and in the days after would get sick and 
die. He knew many would be unable to afford the proper medical 
treatment. He knew this because he met these people--ironworkers, 
construction workers, private EMS workers; all who never knew their own 
bodies had betrayed them until it was too late.
    Until the day he died, no matter how sick he was, John advocated 
for proper medical care for 9/11 Responders. He believed in the Zadroga 
bill. He attended press conferences in the rain after chemo sessions, 
allowed videos to be made of him in the hospital, traveled to 
Washington, and talked to any reporter who asked.
    John's message was clear--9/11 Responders need medical monitoring 
and care; nobody else should die because of a late diagnosis or because 
they can't pay for medications. I can't say it more clearly; this bill 
must be passed before there are more widows like me and more children 
without a parent.
    I have taken up John's battle because I promised him on his 
deathbed I would. I have taken up his battle because I must now be the 
voice for my dead husband. I beg you to listen to the stories of sick 
9/11 Responders. Understand the hell that they and their families go 
through. Understand the heart-wrenching choices they may sometimes have 
to make because they have no access to medical monitoring and care. 
Most of all, understand that the fear you hear in their voices is real. 
They have seen what happens to people who don't have medical monitoring 
and care. Just as nobody in this country should go hungry, no 9/11 
Responder should be sick or die because they didn't have medical 
access.
    Vote on this bill and pass it quickly, for there is little else you 
can do to thank those Americans who, being told it was safe, toiled in 
the weeks and months after 9/11. They took care of this country, now is 
the time to take care of them.
            Sincerely,
                                      Jennifer K. McNamara.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
National Association of Police Organizations, Inc.,
                                 Alexandria, VA 22314-3501,
                                                     June 24, 2010.
Hon. Kirsten E. Gillibrand,
U.S. Senate,
531 Dirksen Senate Office Building,
Washington, DC 20510.
    Dear Senator Gillibrand: On behalf of the National Association of 
Police Organizations (NAPO), representing 241,000 rank-and-file law 
enforcement officers from across the United States, I would like to 
advise you of our support for the ``James Zadroga 9/11 Health and 
Compensation Act of 2009,'' S. 1334. This important legislation would 
ensure that first responders and community workers who risked their 
lives responding to the 9/11 terrorist attacks on the World Trade 
Center (WTC) receive medical monitoring and treatment so they can 
maintain, or regain, their good health.
    Nearly 9 years after the attack on our Nation, we continue to mourn 
the 84 Port Authority personnel, including 37 members of the Port 
Authority Police Department, 23 New York City Police Department 
officers, 11 New York State and Federal Law Enforcement Officers, 343 
fire fighters, and over 2,200 civilians who lost their lives. While the 
Nation remembers those we lost, those who responded to the WTC continue 
to suffer from the physical and mental traumas endured that day and in 
the days following. According to the Mount Sinai Medical Center study 
on 9/11 health effects, 70 percent of the first responders at Ground 
Zero suffer from chronic lung ailments.
    As the health risks associated with exposure to the WTC site become 
more manifest, it is imperative to ensure that workers in the rescue 
and recovery effort are properly monitored and treated for exposure-
related diseases. By establishing the World Trade Center Health Program 
within the National Institute for Occupational Safety and Health, S. 
1334 would make certain that there is a federally funded program to 
give medical monitoring and treatment to WTC responders, who were 
exposed to the toxins at Ground Zero. Additionally, this legislation 
would provide for research into conditions, such as cancers, that may 
be related to the WTC site.
    NAPO appreciates all you are doing to support those who have fallen 
ill due to their response and subsequent exposure at the WTC. We look 
forward to working with you to fight for the passage of this bill. If 
you have any questions, please feel free to contact me, or NAPO's 
Government Affairs Director, Andrea Mournighan, at (703) 549-0775.
            Sincerely,
                                        William J. Johnson,
                                                Executive Director.
                                 ______
                                 
    New York Committee for Occupational Safety and 
                                   Health (NYCOSH),
                                   New York, NY 10038-3331,
                                                     June 25, 2010.
Senator Tom Harkin, Chairman,
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Senator Michael Enzi, Ranking Member,
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Re:  S. 1334/H.R. 847, James Zadroga 9/11 Health and Compensation Act 
of 2009

    Dear Chairman Harkin and Ranking Member Enzi: We are writing in 
support of S. 1334 which would provide medical monitoring, treatment, 
and compensation to rescue and recovery workers as well as to local 
workers and residents who are ill as a result of exposure to the toxic 
substances released in the aftermath of the attack on the World Trade 
Center on September 11, 2001.
    Tens of thousands of workers responded to the emergency and were 
exposed to a wide variety of toxic substances, including carcinogens, 
as were additional thousands of people who lived, worked, and attended 
schools in the area surrounding the World Trade Center. People were 
exposed to WTC-derived toxic substances outdoors and indoors, on that 
day and for uncounted months afterwards.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce committees, which are significant 
steps towards achieving justice for the survivors and responders of 9/
11.
    NYCOSH is a non-governmental membership organization representing 
200 labor unions and over 350 safety and health activists and legal and 
health professionals dedicated to the right of every worker to a safe 
and healthful workplace. For 9 years, we have been working with workers 
who worked on and under the pile at Ground Zero, workers who worked to 
clean up the adjacent community, and residents whose health has been 
adversely impacted as a result of their exposure to these toxic 
substances. Clinically diagnosed conditions include lower and upper 
respiratory illnesses, gastrointestinal problems, and psychological 
trauma. We are also greatly concerned about the prospect of late-
emerging diseases such as cancers.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as to the responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    Passage of S. 1334 would provide on-going funding for the World 
Trade Center Medical Monitoring and Treatment Program, the World Trade 
Center Environmental Health Center, and the FDNY WTC Medical Monitoring 
and Treatment Program, which have provided vital and expert services to 
those who suffered toxic exposures after the attack on the World Trade 
Center. We attest to the capabilities of these medical ``centers of 
excellence'' to provide needed medical services to the affected 
communities. We strongly support Federal funding over the long term for 
these essential medical services.
            Respectfully,
                                        Joel Shufro, Ph.D.,
                                        Executive Director, NYCOSH.
                                 ______
                                 
                    Organization of Staff Analysts,
                                        New York, NY 10010,
                                                     June 25, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847 ``The James Zadroga 9/11 Health & Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On behalf of the 
Organization of Staff Analysts (OSA), I write in strong support of S. 
1334, the James Zadroga 9/11 Health and Compensation Act of 2009, a 
bill that would provide medical monitoring, treatment and compensation 
for responders and survivors whose health has been impacted by the 2001 
terrorist attack on the World Trade Center (WTC) and its aftermath.
    We strongly urge you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest possible 
protections for the survivors of 
9/11. H.R. 847, the House of Representatives' version of this bill, has 
now passed both the House Judiciary and Energy and Commerce Committees, 
a significant step towards achieving justice for the survivors and 
responders of 9/11.
    Nearly 9 years after the attacks on the WTC, the Federal Government 
has yet to make an appropriate long-term, consistent commitment to the 
health care of responders and survivors.
    As we know you recognize, 9/11 was an attack on our Nation that 
targeted civilians. In addition, along with many 9/11 responders, many 
New Yorkers have become ill as a result of the Federal Government's 
false assurances that ``the air is safe'' and its failure to provide 
proper environmental cleanup. It is therefore imperative that our 
Federal Government provide WTC-specialized care for all whose health 
was harmed as a result of the WTC disaster, responders and survivors 
alike.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized WTC-related medical programs. The continued availability of 
specialized medical care at these programs from health professionals 
who have developed expertise in treating 9/11-related illnesses is 
critical.
    OSA is a union representing 4,700 active and 1,500 retired 
professionals in the public service, all of whom work in some capacity 
for the city of New York in 1 of the more than 50 mayoral agencies or 
in one of the city's affiliated employers, including the NYC Health & 
Hospitals Corporation and the NYC Housing Authority.
    The vast majority of our members perform central office functions 
for their employers and, since the vast majority of city agency central 
office locations are in Lower Manhattan, OSA members were exposed to 
the dust cloud on the way to work, at work, or while evacuating from 
work locations on 9/11. In addition, many were recalled to their work 
locations in buildings downtown within weeks of 9/11, some as early as 
a few days later. Some of our members were also enlisted in cleanup 
activities, whether their own offices or, as in at least one case we've 
been told of, volunteering to move dust-encrusted vehicles from Lower 
Manhattan locations to piers on the Hudson River. And, they have also 
suffered mental health impacts from the trauma of 9/11.
    For these reasons, since 2001, we have taken an active interest in 
the provision of adequate healthcare for those impacted by 9/11, 
especially those who fall into the category of survivors, as do our 
members as area workers.
    We therefore especially ask that you protect the ``Survivor 
Program,'' currently based at the WTC Environmental Health Center (WTC 
EHC), so that it can continue to meet the needs of more than 4,700 
residents, area workers, and students, including people now residing in 
23 States, who survived 9/11 but who are now sick as a result of their 
WTC exposures. Many survivors, including children, are now struggling 
to recover their health, and others may develop WTC-related illnesses 
in the future. They urgently need your help.
    OSA has participated in the WTC EHC's Community Advisory Committee 
since its inception. It is especially important to remember that the 
fact that a concentrated group of affected patients is being seen in 
one program facilitates the identification and treatment of 9/11-
related illnesses and provides a special base of knowledge not 
duplicated elsewhere, offering a window on the health conditions 
suffered by those in the survivor community and insights on the unmet 
health and mental health needs of these populations.
    OSA therefore encourages you to do all you can to ensure that this 
important legislation passes your committee, the Senate as a whole and 
is brought to President Obama for signature.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                            Robert Spencer,
                     Director of Media Services and Labor Co-Chair,
                                      Community Advisory Committee,
                    World Trade Center Environmental Health Center.
                                 ______
                                 
                             Lori Halpern Pandolfo,
                                   Brooklyn, NY 11218-4314,
                                                     June 27, 2010.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: As a parent of an 
affected Stuyvesant HS Alumna, and former PA co-president along with 
Linda Lam, I felt it my duty to speak not only on behalf of Concerned 
Stuyvesant Community, but also on behalf of myself in this matter here 
today. I have remained active by attending meetings and maintaining 
membership on community advisory to the NYC Department of Health WTC 
Health Registry studies and activities. With that participation, I 
gained knowledge of the programs and the needs of affected students, 
residents and workers.
    My own daughter is a cancer survivor who escaped the area along 
with her classmates during one of her first days of high school and was 
returned to attend school in the area, much too soon, and continuously, 
after only a short 3-week break with false assurance that the school 
was cleaned properly and the area was safe for health. It turned out 
differently for her and all other local students, including BMCC, a 
college nearby. As you can easily imagine, I am overly concerned about 
health, having experienced the turmoil and anguish caused by life 
threatening highly aggressive pediatric cancer treatment of my young 
child, prior to the events of 9/11. Having been exposed to any sort of 
toxins still is a tremendous source of anxiety to me and my family. 
That is why monitoring and treatment, available to all those affected 
by 9/11 is of paramount importance to me. Both the organization I 
represent on the community advisories and I myself, support the 
survivor treatment programs to be funded by the proposed Zadroga bill.
    This group is especially vulnerable to being overlooked as they 
were adolescents and are now young adults. While their exposures should 
be considered within the pediatric guidelines, their care and 
monitoring happen as young adults--without specialized attention to 
this group, the link to 9/11 can easily be lost over even the short 8 
years already passed. It bears repeating that ``they don't know what 
they don't know.'' If these students have used denial as an effective 
healthy tool to move forward from this experience, they may not, and 
most importantly, their doctors will not, know about associating 
illnesses that crop up over a lifetime with their exposures in this 
event if there is no real data gathered or disseminated.
    Adults are more likely to continue care under the original/same 
practitioners they were seeing at the time of the event, while these 
students will be sure NOT TO since they age/aged out of the care of 
their original pediatricians. This loss of coordination may lead to 
misdiagnoses and improper care in our population, especially over the 
longer term. I am hoping and believe that the programs being funded 
will capture this transition and account for it at every point of 
change, leading to better coordination of care.
    The 10-year limit and limit on the number of treatment slots 
remains a concern while the bill moves forward and is reconciled.
    I appreciate your help in strengthening and supporting the bill as 
it evolves to become law and will serve our community.
    Thank you for the opportunity to express my views.
            Very truly yours,
                                             Lori Pandolfo.
                                 ______
                                 
Port Authority Police Benevolent Association, Inc.,
                           Englewood Cliffs, NJ 07632-1805,
                                                     June 28, 2010.
Hon. Kirsten E. Gillibrand,
U.S. Senate,
531 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Gillibrand: On behalf of the 1,558 members of the Port 
Authority Police Benevolent Association, I would like to advise you of 
our support for the ``James Zadroga 9/11 Health and Compensation Act of 
2009,'' S. 1334. This important legislation would ensure that first 
responders and community workers who risked their lives responding to 
the 9/11 terrorist attacks on the World Trade Center (WTC) receive 
medical monitoring and treatment so they can maintain, or regain, their 
good health.
    As a first responder to the World Trade Center myself, I know 
firsthand the conditions that we were exposed to as we worked on the 
pile, day after day, week after week and month after month. I have 
personally suffered health impacts and it seems like another one of my 
members develops a new health condition clearly related to our work at 
the site every week.
    As the health risks associated with exposure to the WTC site become 
more manifest, it is imperative to ensure that workers in the rescue 
and recovery effort are properly monitored and treated for exposure-
related diseases. By establishing the World Trade Center Health Program 
within the National Institute for Occupational Safety and Health, S. 
1334 would make certain that there is a federally funded program to 
give medical monitoring and treatment to WTC responders, who were 
exposed to the toxins at Ground Zero. Additionally, this legislation 
would provide for research into conditions, such as cancers, that may 
be related to the WTC site.
    Again, on behalf of all of our members, I thank you for supporting 
this bill to provide relief to our members who are suffering as a 
result of their work in the rescue effort and cleanup of the WTC site. 
If there is anything that we can do to support this effort, please feel 
free to contact me at (201) 871-2100.
            Very truly yours,
                                             Paul Nunziato,
                                                         President.
                                 ______
                                 
                       Public Employees Federation,
                              AFL-CIO Division 199,
                                   New York, NY 10008-1212,
                                                     June 25, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: I am writing to state 
my division's strong support for S. 1334, the ``James Zadroga 9/11 
Health and Compensation Act of 2009,'' that would provide medical 
monitoring, treatment and compensation for responders and survivors 
whose health has been impacted by the 2001 terrorist attack on the 
World Trade Center (WTC) and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives version of this bill, has passed both the House 
Judiciary and Energy and Commerce Committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    9/11 was an attack on our Nation that targeted civilians. Along 
with many 9/11 responders, many people who lived, worked, or attended 
school in Lower Manhattan at the time of the attacks have become ill as 
a result of the Federal Government's false assurances that ``the air is 
safe,'' and its failure to provide proper environmental cleanup. It is 
therefore imperative that our Federal Government help to provide WTC-
specialized care for all whose health was harmed as a result of the WTC 
disaster.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as the heroic responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    My union, the New York State Public Employees Federation, AFL-CIO, 
is the union that represents the 59,000 professional, scientific, and 
technical employees of the government of New York State. About 500 of 
our members came from all over the State and responded to Ground Zero 
and the aftermath of 9/11. Several thousand of our members work in 
offices adjacent to or within walking distance of the World Trade 
Center site. My union is one of many that represent non-responder State 
workers whose health has been and continues to be negatively impacted 
by the events of 9/11. Most of the members of my division work at 90 
Church Street, an office building next to Ground Zero.
    As members of the Lower Manhattan community, we especially ask that 
you protect the ``Survivor Program,'' currently based at the World 
Trade Center Environmental Health Center (WTC EHC), so that it can 
continue to meet the needs of the more than 4,700 residents, area 
workers, and students, including people now residing in 23 States, who 
survived 9/11 but who are now sick as a result of their WTC exposures. 
Many survivors, including children, are now struggling to recover their 
health, and others may develop WTC-related illnesses in the future. 
They urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
    Thank you.
            Very truly yours,
                                           Ilanye Longjohn,
                                  Council Leader, PEF Division 199.
                                 ______
                                 
                     Partnership for New York City,
                                             June 28, 2010.
Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: On behalf of New York City's business community, 
we are writing to urge your favorable action on S. 1334, the James 
Zadroga 9/11 Health and Compensation Act of 2009. This legislation 
would provide a comprehensive long-term solution to address the serious 
health problems that WTC responders and survivors are facing as a 
result of 9/11 hazardous exposures.
    The Partnership is a nonprofit organization that represents 
international business leaders who are headquartered in the New York 
City metropolitan region. Our members are responsible for 7 million 
jobs throughout the country and contribute more than $740 billion to 
the national GDP.
    The terrorist attack of 9/11 was an unprecedented act of war 
against this country, targeting both our economic and political 
capitals. The impact for those who were directly exposed to the attack 
or participated in emergency response and recovery is still 
reverberating, with tens of thousands of Americans suffering physical 
and mental consequences.
    In November 2001, we issued a study that quantified the immediate 
cost of the attack for New York City, in economic terms, at $83 
billion. The Federal Government and the insurance industry combined to 
cover most of these losses, allowing for the recovery and rebuilding of 
the areas of Lower Manhattan that were destroyed or damaged in the 
attack. New York City was grateful that the American public recognized 
that this was a national challenge that required and deserved Federal 
assistance.
    Tragically, there are significant additional costs that continue to 
mount as a result of the direct consequences of the attack on the 
physical and mental health of rescue workers, construction crews, and 
people who lived and worked in the area that was contaminated as a 
result of the attack. Our Partnership offices are a few blocks from the 
World Trade Center and we, like most New Yorkers, were committed to 
reopening America's financial district quickly so that the country 
would not suffer the economic blow that the terrorists hoped to 
inflict. At the time, we were not aware of how toxic the residue of the 
attack would be.
    People from all over the country who participated in rescue, 
recovery and early rebuilding efforts were exposed to contaminants that 
have and will result in premature death and lives of suffering. We urge 
you to enact S. 1334 and insure that victims of the fallout from the 
attack will be properly monitored and receive the best health care that 
this country can deliver.
            Sincerely,
                                             Kathryn Wylde,
                                                   President & CEO.
                                 ______
                                 
                                    Valery Roberts,
                                         Mahopac, NY 10541,
                                                     June 25, 2010.
Hon. Kirsten Gillibrand,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Gillibrand, My name is Valery Roberts. My husband 
Tommy was a member of The New York City Fire Department for 29 years. 
He worked in Washington Heights and Harlem. The Fire Department was his 
life and he looked forward to every tour. He said ``It was the best job 
in the world.'' When 9/11 happened he worked tirelessly at the site 
with his men never taking his own health into consideration. The 
trauma, depression, sadness and loss of lives were overwhelming but 
still they kept searching. He lost many friends that day.
    In January 2007 Tommy retired from the department he loved and 
looked forward to a long and happy retirement. We looked to the future 
to enjoy and do all the things we put on hold when he was working. He 
kept his hand on the job by becoming a peer counselor to help and guide 
men and women on the job.
    In September 2008 Tommy was diagnosed with esophageal cancer with 
metastasis to the lymph nodes and liver. Our world was shattered. This 
was a man who was never ill, ran two marathons and had NO history of 
cancer in his family. His parents are 90 and 91 with no major health 
concerns. He went for his physicals annually and was always given a 
clean bill of health. His last physical was April 2008. The prognosis 
was with palliative treatment, we could go on indefinitely. We were 
thankful for the health care we had knowing that he would receive the 
best care and would not have to worry about ``how are we going to pay 
for this.'' The effect of his illness on our family was daily. We have 
three daughters 32, 27, and 26 who faced the prospect of loosing their 
father. The father who was always there for them, who they idolized and 
loved with all their heart. For me the thought of not having the love 
of my life by my side, not realizing our hopes and dreams was 
devastating. His illness took its toll. The tests and treatments were 
grueling but he faced them with dignity praying for a cure.
    Tommy lost his battle August 12, 2009. He was 58. Our family's 
hearts are broken and dreams shattered. He will never see his girls get 
married, never know his grandchildren and never enjoy the retirement he 
worked so hard for. My life partner is gone and my days are empty.
    If not for the health plan coverage we had, our days would have 
been filled with worry as to how to pay for his care instead of 
focusing on enjoying what time we had left and treasuring everyday. The 
costs would have been prohibitive and insurmountable. That is why I 
respectfully ask you to vote for and pass the 9/11 Health and 
Compensation bill, so that every other family faced with a devastating 
illness receives the best medical care possible and spend every minute 
without worrying how to pay for it.
            Respectfully,
                                            Valery Roberts.
                                 ______
                                 
  Southbridge Towers Parent and Youth Association, 
                                              Inc.,
                                        New York, NY 10038,
                                                     June 24, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions, U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: On behalf of South 
Bridge Parents and Youth Association, I am writing to express our full 
and continued support of the H.R. 847 bill, S. 1334 and the ``Survivor 
Program.'' The World Trade Center Environmental Health Center (WTC 
EHC). We appreciate your past and future support of long-term, 
consistent Federal funding so that the Center can meet the growing 
health needs of Lower Manhattan residents, families and children, 
exposed to toxic smoke and dust on and after 9/11.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    South Bridge Parent and Youth Association is a not-for-profit 
advocacy organization that serves the many families residing at 
Southbridge Towers, a nine-building complex with 1,690 apartments, and 
also families in the adjacent Seaport and Financial District 
neighborhoods. Our mission is ``To Enhance the Childhood Experience and 
Maximize the Quality of Life for All,'' and our focus is on issues and 
events centered around education, health, community and recreation that 
directly affect our community.
    Many New Yorkers (students, residents, office workers and 
responders) have become ill as a result of the Federal Government's 
failure to provide proper environmental cleanup and its false 
assurances that ``the air is safe'' upon the attack on our Nation's 
innocent civilians. It is therefore imperative that our Federal 
Government provide WTC-specialized care for all whose health was harmed 
as a result of the WTC disaster, responders and survivors alike.
    9/11 had a massive, lasting impact on our area. As the terrifying 
events unfolded, the first thought for many of us was how to get to our 
children. Many of the kids in our area, as well as adults, arrived back 
home coated in white dust. Because there was no real evacuation in our 
neighborhood, most residents remained in our buildings, which had been 
totally engulfed in the dust clouds when the Towers collapsed. We had 
no power, water or phones but at daybreak on September 12th when the 
sun shone brightly again, we could see that the interior of our home 
was also covered in that same thick white dust. Health officials soon 
told us that it was safe to remove. With no truthful information on the 
dangers of inhaling that dust, we, like countless numbers of residents, 
embarked on our own cleanup.
    The experience of my own family was typical. In the days 
immediately following 9/11, I myself cleaned our apartment, along with 
my elderly father, who vacuumed up what we now know was toxic WTC dust, 
without the right kind of vacuum filter. At 8 months pregnant with my 
third child, I got down on my hands and knees and pulled up the 
contaminated carpet in my children's room.
    It was not until 2003 that the Environmental Protection Agency 
(EPA) offered residents a cleanup on a voluntary basis. Many people did 
not even know any cleanup was happening because the program was so 
poorly publicized. And the cleanup was so late in coming and so 
haphazard, that participation was low. My apartment's ``professional'' 
EPA clean up didn't occur until March 2003. Everyone knows that just 
cleaning a fraction of apartments in a building means that it probably 
won't take long for recontamination to occur. The whole building 
cleanups we all needed to clear out the toxic dust once and for all 
were never carried out.
    After being forced to deal with the WTC environmental fallout 
ourselves, we found that we were likewise on our own to struggle with 
the health effects. Speaking for my own family, we had to search long 
and hard to find specialists, including a pediatric pulmonologist, who 
could correctly diagnose and treat the health problems we developed as 
the result of our WTC-related exposures.
    All three of my children, including the baby born just 1 month 
after 9/11, were prescribed daily treatments including Zyrtec, Allegra, 
Singulair, Asmonex, Albu-
terol, Rhinocort, Q-Var and Advair for allergy, sinusitis and asthma-
related symptoms. Additionally, all three have been prescribed Prevacid 
for GERD. We keep steroids, a nebulizer and associated medications on 
hand in the event that any of the children should reach the red level 
of their ``asthma action plans.'' They miss more school than average 
healthy children in their age groups. At 5 years old, my youngest knew 
how to load the nebulizer with treatment and to administer that 
treatment to herself.
    For years, I struggled to shoulder the costs for my family's 9/11 
health care, which averaged $840 a month, on top of what our insurance 
covered. Like so many others in our neighborhood, my family is 
staggering under the burden of WTC medical expenses, for which the 
Federal Government should bear responsibility.
    Those who are sick as the result of 9/11 need and are entitled to 
the right kind of care. As the Center of Excellence for non-responders, 
the WTC EHC provides optimum, specialized care with a commitment to 
continue to meet the medical needs of the community as those evolve. 
Because its patients are being closely tracked over time, any new 
patterns of disease will be detected, making possible the early 
intervention needed to maximize the chances of recovery. This effort 
requires and must receive sustained Federal support.
    Moreover, early detection is crucial when it comes to children, who 
are especially vulnerable to the effects of environmental pollutants, 
and who may develop different health problems than adults. Thousands 
and thousands of children, including very young children, were exposed 
to WTC smoke and dust in their homes, schools and playgrounds--wherever 
they turned. Therefore it is critical that the Bellevue WTC Pediatric 
Program receive the funding it needs in order to meet the needs of 
affected children, now and going forward.
    Our community has the strongest possible stake in the preservation 
and expansion of the WTC EHC so that it will always be there for our 
children, our families and our neighbors. We wish to thank you for all 
your efforts to ensure that the people of Lower Manhattan, as well as 
all the brave responders, get the help they need to recover from 9/11.
            Sincerely,
                                             Mariama James,
                                                        Chairwoman.
                                 ______
                                 
            105 Duane Street Residents Association,
                                             June 25, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi: I am writing on 
behalf of 105 Duane Street Residents Association to state our strong 
support for S. 1334, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009,'' that would provide medical monitoring, treatment and 
compensation for responders and survivors whose health has been 
impacted by the 2001 terrorist attack on the World Trade Center (WTC) 
and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce Committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    Our building is a 52-story residential high rise located seven 
blocks north of the World Trade Center site. On 9/11 toxic dust from 
the collapsing towers entered our homes through windows and through the 
ventilation system. In the months following the attack, smoke-borne 
contaminants from the fires that burned at the World Trade Center site 
polluted the air and continued to enter our homes. The air smelled bad 
and the dust made us cough but the Government assured us that our homes 
were safe and that we would suffer no long-term health effects.
    Yet in the almost 9 years that have passed since the attack on the 
World Trade Center, it has become clear that many of the people who 
lived and worked in the surrounding communities have developed long-
term respiratory and other health effects as a result of exposure to 
World Trade Center dust, fumes, and smoke. In the months and years 
following the attacks, as more and more WTC-impacted residents and 
workers required medical care, we found that our illnesses were often 
not properly diagnosed or treated by our physicians. We received 
antibiotics for irritant-
induced bronchitis, or inhalers for breathing problems that required 
additional therapies. It was not until the WTC Environmental Health 
Center opened in 2007 that residents and local workers who survived the 
attacks could receive specialized and effective medical care from a 
team of physicians who understood the range and complexity of the 
physical health effects we incurred as a result of our exposures.
    As we know you recognize, the attack on the World Trade Center was 
an attack on our Nation that targeted civilians. It is therefore 
imperative that our Federal Government help to provide WTC-specialized 
care for all whose health was harmed as a result of the WTC disaster.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the people who lived, worked or attended school in the area, as 
well as the heroic responders who came to their rescue, for their 9/11-
related illnesses. The continued availability of medical care from 
health professionals who have developed expertise in treating 9/11-
related illness is critical.
    As residents of Lower Manhattan, we especially ask that you protect 
the ``Survivor Program,'' currently based at the World Trade Center 
Environmental Health Center (WTC EHC), so that it can continue to meet 
the needs of the more than 4,700 residents, area workers, and students, 
including people now residing in 23 States, who survived 9/11 but who 
are now sick as a result of their WTC exposures. Many survivors, 
including children, are now struggling to recover their health, and 
others may develop WTC-related illnesses in the future. They urgently 
need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                                 Jo Polett,
                            105 Duane Street Residents Association.
                                 ______
                                 
                                                StuyHealth,
                                                     June 29, 2010.

Re:  S. 1334/H.R. 847, the ``James Zadroga 9/11 Health and Compensation 
Act of 2009''

    Dear Chairman Harkin and Ranking Member Enzi, On behalf of 
StuyHealth, I am writing to state my organization's strong support for 
S. 1334, the ``James Zadroga 9/11 Health and Compensation Act of 
2009,'' that would provide medical monitoring, treatment and 
compensation for responders and survivors whose health has been 
impacted by the 2001 terrorist attack on the World Trade Center (WTC) 
and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee, with the strongest 
protections possible for the survivors of 9/11. H.R. 847, the House of 
Representatives' version of this bill, has passed both the House 
Judiciary and Energy and Commerce Committees, which is a significant 
step towards achieving justice for the survivors and responders of 9/
11.
    As we know you recognize, 9/11 was an attack on our Nation that 
targeted civilians. In addition, along with many 9/11 responders, many 
New Yorkers have become ill as a result of the Federal Government's 
false assurances that ``the air is safe'' and its failure to provide 
proper environmental cleanup. It is therefore imperative that our 
Federal Government provide WTC-specialized care for all whose health 
was harmed as a result of the WTC disaster, responders and survivors 
alike.
    The Zadroga Act would guarantee 10 years of Federal funding to 
specialized medical programs that provide the right kind of treatment 
for the 9/11-related illnesses of not only the heroic responders, but 
for people who lived, worked or, like ourselves, attended school in the 
area. The continued availability of medical care from health 
professionals who have developed expertise in treating 9/11-related 
illness is critical.
    Our organization represents former students who attended school in 
Lower Manhattan on 9/11 and during the World Trade Center clean-up. As 
representatives of over 400 students who attended school just blocks 
from the WTC site, we especially ask that you protect the ``Survivor 
Program,'' currently based at the World Trade Center Environmental 
Health Center (WTC EHC), so that it can continue to meet the needs of 
the more than 4,700 residents, area workers, and students, including 
people now residing in 23 States, who survived 9/11 but who are now 
sick as a result of their WTC exposures. Many survivors, including 
children and young adults like ourselves, are now struggling to recover 
their health, and others may develop WTC-related illnesses in the 
future. We urgently need your help.
    Nearly 9 years after the attacks, we urge you to help make a just 
Federal health response to 9/11 a reality.
            Sincerely,
                                            Lila Nordstrom,
                                                           Founder.
                                 ______
                                 
International Union, United Automobile, Aerospace & 
   Agricultural Implement Workers of America + UAW,
                                      Washington, DC 20036,
                                                     June 29, 2010.

    Dear Senator: On behalf of over 1 million active and retired 
members, the UAW urges you to support and cosponsor the James Zadroga 
9/11 Health and Compensation Act of 2009 (S. 1334), sponsored by 
Senator Gillibrand. This bipartisan bill would provide medical 
monitoring, treatment, and compensation to emergency responders, 
recovery, and clean-up workers, as well as to community members 
suffering serious illnesses as a result of hazardous exposures from the 
9/11 terrorist attacks. The companion bill (H.R. 847) has been marked 
up in two House Committees, and the House is expected to take up this 
legislation shortly.
    Tens of thousands of workers rushed to the World Trade Center (WTC) 
site to assist in rescue and recovery operations following the 9/11 
attacks. At the site, they were exposed to a toxic mix of dust and 
fumes, as were residents and others near Ground Zero. Now thousands of 
these individuals are suffering from serious respiratory diseases and 
other severe health problems. S. 1334 would provide a comprehensive, 
long-term solution to these health problems by establishing the World 
Trade Center Health Program, under the direction of the National 
Institute for Occupational Safety and Health (NIOSH).
    The program would build on the current medical programs to provide 
high quality care through the Clinical Centers of Excellence in New 
York City. Additional clinical centers would be designated to provide 
monitoring and treatment for those who reside outside the New York 
area, but whose medical conditions are due to exposure at the WTC site. 
Individuals who meet the eligibility criteria would receive monitoring 
and medical treatment for WTC-related health conditions at no cost. In 
addition, S. 1334 would reopen the September 11th Victim Compensation 
Fund to provide compensation for economic damages and loss for those 
who were not previously eligible or became sick after the original 
December 22, 2003 deadline, with awards determined by a Special Master.
    To control costs, the bill caps the number of program participants 
who can be added. The program may take on up to 15,000 additional 
responders and 15,000 additional community members. The bill 
establishes the patient's health insurance as the primary payer for non 
work-related conditions and offsets costs for work-related conditions 
through workers' compensation payments. In addition, it provides for 
cost sharing by the city of New York. Moreover, the bill would limit 
the overall legal liability for construction contractors and the city 
of New York for 9/11-related health claims to the funds available in 
the WTC Captive Insurance Company and coverage under liability 
insurance.
    The 9/11 attacks were attacks on our entire Nation. Compelled by a 
moral obligation, the United States has acted to compensate and care 
for the injured and the surviving family members of those who were 
killed. The UAW believes the same obligation should now lead Congress 
to meet the needs of 9/11 rescue, recovery, and clean-up workers, as 
well as area residents who became ill because of their exposure to WTC 
hazards. We urge you to support and cosponsor the James Zadroga 9/11 
Health and Compensation Act of 2009 (S. 1334).
            Sincerely yours,
                                            Barbara Somson,
                                              Legislative Director.
                                 ______
                                 
                                   Mary C. Vaughan,
                                         Mahopac, NY 10541,
                                                     June 25, 2010.

    To: Senator Kirsten Gillibrand: My husband, Battalion Chief John J. 
Vaughan, retired from the New York City Fire Department in January 2003 
after working for 35 years. He loved his job, served proudly and never 
waivered when he was called for duty. The devastating events that 
occurred on September 11, 2001 did not change his determination or deep 
responsibility he felt towards his co-workers and people of New York 
City. John worked tirelessly (as well as many other members of the 
FDNY) during the rescue and recovery effort. He spent over 6 straight 
months at the World Trade Center site. My husband unfortunately passed 
away on October 26, 2009. After working 35 years for the NYC Fire 
Department, he was only able to enjoy his retirement for 5 short years.
    John was always physically active during both his career and during 
retirement. During his career, John was instrumental in revitalizing 
the FDNY Boxing team. He, trained, boxed and sparred with the team as 
well as the countless hours behind the scenes organizing and planning 
upcoming events. His commitment to being physically fit continued into 
his retirement. He always found time to walk daily and ride his bicycle 
over 50 miles per week. John was rarely sick, never spent one day in a 
hospital and never, ever complained.
    His life changed dramatically in January 2009 when he was diagnosed 
with Mesothelioma. John went for his annual FDNY World Trade Center 
Medical at the Bureau of Health Services. He was told by Fire 
Department doctors to follow up with further evaluation because of 
extreme irregularities in his left lung. John was never the same. He 
was now extremely fatigued during the day. He was no longer able to 
ride his bicycle. Although he fought to keep walking right into the 
latter stages of his illness, I know it was only out of his sheer grit 
and determination to prove to himself (and me) that if he went down, he 
would go down fighting. I mentioned my husband never, ever complained. 
After serving 2 years in Vietnam as a paratrooper in the Long Range 
Reconnaissance Patrol, I guess nothing else he would encounter in his 
life would compare. However, this illness from 9/11 was too much for 
him to bear. He spent his days curled up on the couch, sometimes in too 
much pain to even feed himself. His day mostly consisted of moving from 
place to place in the house, trying to find a position that would 
alleviate even some of his pain. He lost over 80 lbs of body weight. 
John went from a physically fit solid man to a thin, frail, dying man. 
We all know the effects of lung cancer are not pretty. Nobody should 
have to watch another family member waste away knowing that there is no 
hope of recovery, only death. My husband John is survived by myself, 
two daughters, Mary and Jo-Ann, his son John (who is also a Battalion 
Chief in the FDNY that I fear may also become physically disabled from 
his exposure during 9/11), his daughter in law, Janine, and his 
granddaughter of 15 months, Tara. He is thought about and missed every 
day.
    I write this letter to you, Senator Gillibrand, so that other 
members of the FDNY do not need to suffer the way my family already 
has. I know that if my husband had the choice, he would not have 
changed one thing he did during and after the events of 9/11. He 
served, he did what was expected of him, and would not have hesitated 
if called to do it again. That's the way he was. I sincerely request 
that you help pass the ``9/11 Health and Compensation Act" to protect 
those who have sworn to protect others. Thank you.
            Sincerely,
                                           Mary C. Vaughan.
                                 ______
                                 
    World Trade Center Residents Coalition (WTCRC),
                                             June 28, 2010.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions (HELP),
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Enzi, We the WTCRC, fully 
support S. 1334, the ``James Zadroga 9/11 Health and Compensation Act 
of 2009'' that would provide medical monitoring, treatment and 
compensation for responders and survivors whose health has been 
impacted by the 2001 terrorist attack on the World Trade Center (WTC) 
and its aftermath.
    We strongly encourage you to pass this bill out of the Health, 
Education, Labor, and Pensions Committee considering H.R. 847 bill that 
was passed by the House of Representatives Judiciary and Energy and 
Commerce committees. The Zadroga Act would guarantee 10 years of 
Federal funding to specialized medical programs to care for all whose 
health was harmed as a result of the WTC disaster.
    9/11 was an attack on our Nation, targeting civilians. Along with 
9/11 responders, people who lived, worked, or attended schools in Lower 
Manhattan have become ill as a result of the Federal Government's false 
assurances that ``the air is safe'' and its failure to provide proper 
environmental cleanup. We believe that the Federal Government has a 
responsibility to fund WTC specialized care to help all of those 
affected. It is the right and honorable thing to do!
    WTCRC--World Trade Center Residents Coalition is a grass roots non-
sectarian humanitarian organization founded in the aftermath of 9/11 in 
Lower Manhattan. Our umbrella organization dealt with issues of access, 
landlords, cleanup and now health and downtown rebuilding. We reach out 
via our list server to around 30,000 downtown Manhattan residents 
directly and through various tenant associations, condominium boards 
and other resident groups. We collaborate on community events and work 
closely with downtown environmental activist groups and 9/11 health-
related groups. We strove to help protect the community responders and 
non-responders from contaminants, campaigning for proper 9/11 cleanup 
and now residents, workers and student monitoring, on-going studies and 
treatment programs. We advocate for 9/11 medical centers of excellence 
where exposure data can be collected and the best treatment regimes 
administered. We strongly support cleanup and recovery worker issues 
and the families of our bravest, who laid down their lives to save 
others. We embody the spirit of giving back, protecting our community, 
and also helping others less fortunate.
    WTCRC is a founding member organization of the WTC Environmental 
Health Center Community Advisory Committee (WTC EHC CAC) and its 
members are active participants. We are also active members of the 
Community Advisory Board to the WTC Health Registry, and provide 
residential input and guidance into the Department of Health's In-Depth 
Respiratory Study and research of WTC Health Effects based on the 
Health Registry cohort. Invited onto the CAC, which advises on the 
implementation of the World Trade Center health program for residents, 
we actively supported the campaign to expand the Bellevue WTC Program 
to two additional sites. Dr. Reibman's team has been key, from the 
beginning they have been the only experts researching, documenting and 
treating the complex interactions of 9/11 health effects in the 
downtown resident population. Before the creation of the WTC EHC, 
residents with no or limited access to private health care had nowhere 
else to turn to for help. Even those who had access to good private 
health care were misdiagnosed and did not receive appropriate 
treatment.
    Many residents reported back to us that their physicians baffled by 
their complex symptoms, did not make the 9/11 connection. There are 
residents who got sick after 9/11 either caught in the dust cloud, 
returning to contaminated apartments, breathing the stench from the 
burning fires or the dusty air, while the recovery program was in full 
swing. Some of those got sick months or even years later from chronic 
indoor exposures, the EPA clean and test programs were wholly 
inadequate! Many felt like lab rats being fed a toxic daily gumbo of 
contaminants, while government agencies that should have protected us 
stated the air was safe! Some residents are still in denial about their 
health issues, some avoid discussing their WTC-related symptoms with 
their doctors fearful that they might get labeled by their insurance 
carriers as 9/11 liabilities. All affected need to know there is 
somewhere they can go to get treated with the most knowledgeable 
physicians in the field, safe from reprisals. They need and are 
entitled to the same quality of treatment that is offered at the Mount 
Sinai Center--the WTC EHC provides this!
    The WTC EHC has our full support to treat the 9/11 unmet health 
needs in our communities. The WTC Clinics are trusted 9/11 centers of 
excellence from their long-standing community relationships. The 
current patient population of >4,700 is growing on a daily basis and is 
increasing as the advertising and outreach program continues. WTC EHC 
needs to be federally funded to continue to track and treat their 
current patients and to allow service expansion to include future new 
patients and treatment specialties as the need arises. Regardless of 
patients ability to pay, the best expert medical and mental health 
should be offered for 9/11-exposed responders, residents, students and 
workers who were victims of this horrific terrorist attack on our 
Nation. The WTC EHC, where an established treatment program provides 
all services under one roof, where patients are tracked through the 
program and treatment protocols are revised as needed, we believe is 
the most cost-effective means to provide the best care now and in the 
future.
    We are a very diverse community united in our commitment to this 
legislation. We call on Congress 9 years after the attacks to make a 
just Federal health response to 9/11 a reality. Let's do the right 
thing. Let's provide a brighter future for all those that were exposed 
on 9/11. The horrific events of 9/11 bonded us together--we will never 
forget, we stand tall, risen from the ashes, hopeful but guarded about 
a brighter future. In these very difficult times there are funding 
requirements that just have to be met!
    We would like to thank you for your continued tireless support of 
the 9/11 victims health needs.
            Yours faithfully,
                                                Craig Hall,
                                                   WTCRC President.

    [Whereupon, at 4:13 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
